APPENDICES (Rule 14.1. (I))
Appendix A. Eighth Circuit Court of Appeals, Case No. 20-1484 (December 4, 2020)
(2 pages)
Appendix B. Eighth Circuit Court of Appeals, Case No. 20-1484, Petition for Rehearing
En Banc (January 26, 2021) (1 page)
Appendix C. Final Order: White Face v. Great Plains Tribal Chairmen’s Health
Board, Oglala Sioux Tribal Court, Case No. CIV-18-0409 (December 4,
2018) (2 pages)
Appendix D. Aberdeen Tribal Chairmen’s Health Board Articles of Incorporation
[By-Laws not included] (6 pages)
Appendix E. Self-Determination Contract between the Great Plains Tribal Chairmen’s
Health Board on behalf of the Cheyenne River Sioux Tribe and the Oglala
Sioux Tribe, and the Secretary of the Department of Health and Human
Services Rapid City Service Unit Contract Number: HHS-241-2019-01111
(33 pages)
Appendix F. Cheyenne River Sioux Tribe Resolutions: 104-2018-CR; 1-2019-CR
(9 pages)
Appendix G. Oglala Sioux Tribal Resolution No. 19-02; 18-42 (9 pages)
Appendix H. Rosebud Sioux Tribal Resolution No. 2018-116; 2018-117 (10 pages)
Appendix I. Final Orders: Gilbert v. Weahkee, 441 F. Supp. 3d 799 (D.S.D. 2020)
(36 pages)

22

®mtetr li>tate£ Court of Appeal#

Appendix A
(2 pages)

Jfor tlje (i£tsljtf) Circuit

No. 20-1484

Donna M. Gilbert; Julie Mohney; Channaine White Face
Plaintiffs - Appellants
v.
RADM Michael D. Weahkee, Principal Deputy Director of Indian Health Service
(IHS); James Driving Hawk, Great Plains IHS Area Director; William P. Ban',
United States Attorney General
Defendants - Appellees

Appeal from United States District Court
for the District of South Dakota - Western

Submitted: December 1, 2020
Filed: December 4, 2020
[Unpublished]

Before COLLOTON, SHEPHERD, and KOBES, Circuit Judges.

PER CURIAM.

Donna Gilbert, Julie Mohney, and Charmaine White Face appeal the district
court’s1 dismissal of their action challenging a tribal organization’s contract with the
Indian Health Sendee. Having carefully reviewed the record and the parties’
arguments on appeal, we find no basis for reversal. See Jet Midwest Int’l Co. v. Jet
Midwest Grp., LLC, 953 F.3d 1041,1044 (8th Cir. 2020) (abuse of discretion review
of denial of preliminary injunction; injunction cannot issue if there is no chance of
success on merits); Montin v. Moore, 846 F.3d 289, 292 (8th Cir. 2017) (de novo
review of Fed. R. Civ. P. 12(b) dismissal); Zimmerman v. HBO Affiliate Grp., 834
F.2d 1163, 1169-70 (3d Cir. 1987) (no abuse of discretion in finding class
certification motion was mooted by dismissal of complaint).
The judgment is affirmed. See 8th Cir. R. 47B.

'The Honorable Jeffrey L. Viken, United States District Judge for the District
of South Dakota.
-2-

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1484
Donna M. Gilbert, et al.

Appendix B
(1 page)

Appellants
v.
RADM Michael D. Weahkee, Principal Deputy Director of Indian Health Service (IHS), et al.
Appellees

Appeal from U.S. District Court for the District of South Dakota - Western
(5:19-CV-05045-JLV)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
January 26, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

OGLALA SIOUX TRIBAL COURT
OGLALA LAKOTA TRIBE
PINE RIDGE INDIAN RESERVATION

]

CHARMAINE WHITE FACE,
Representative of RAPID CITY
CONCERNED INDIAN COMMUNITY
Plaintiff

]

]ss:
]

V.

IN CIVIL COURT
PINE RIDGE

Appendix C
(2 pages)

Case No.: CIV-18-0409

3
]

3

3
3
3

ORDER OF DISMISSAL
FOR LACK OF JURISDICTION

GREAT PLAINS TRIBAL CHAIRMEN’S ]
3
HEALTH BOARD,
3
Defendant.

This matter
November 13,

comes before the'Court on Plaintiffs Petition for Temporary Injunction filed

2018 on the Pine Ridge Reservation. Pursuant to Section 20 of Chapter 2 of the

Oglala Sioux Law and Order Code, this Court does not have jurisdiction the hear this matter and
therefore the Petition for Temporary Injunction must be dismissed. After reviewing the file, all
court pleadings, and being otherwise duly and fully advised of the premises, the Court FINDS,
ORDERS, ADJUDGES, AND DECREES as follows:
1.

The Oglala Sioux Tribal Court has jurisdiction of all suits wherein the defendant is

a member of the Oglala Sioux Tribe and of all other suits between members and non-members
who consent to the jurisdiction of the tribe.
2.

Defendant, Great Plains Tribal Chairmen’s Health Board, is not an individual

member of the Ogiaia Sioux Tribe. 'fheirfOTe;'lifnnist be'detefmSed whether Defendant has
consented to the jurisdiction of the Tribe.

1 [Page

3.

Section 20 of the OST Law and Order Code sets forth eight (8) actions that are

deemed as having consented to the jurisdiction of the Oglala Sioux Tribe, none of which are
applicable to Defendant
4.

Defendant is a nonprofit corporation registered with the State of South Dakota. It

is an organization representing the eighteen (18) tribal communities in the four-state region of
South Dakota, North Dakota, Nebraska, and Iowa. The purpose of the organization is to serve as
a liaison between the Great Plains Tribes and the various Health and Human Services divisions
within the area. Defendant is not an entity or organization of the Oglala Sioux Tribe.
5.

Plaintiff’s Petition alleges that Defendant is attempting to assume administrative

functions ofthe Sioux San Indian Health Rapid City Service Unit and all allegations of the Petition
relate directly to this initial allegation. Therefore, all actions of Defendant that Plaintiff seeks to
restrain occurred or are occurring outside the exterior boundaries of the Pine Ridge Indian
Reservation.
6.

The Oglala Sioux Tribal Court does not have personal jurisdiction over Defendant.

7.

The Oglala Sioux Tribal Court does not have subject matter jurisdiction over

actions of Defendant occurring outside the exterior boundaries of the Pine Ridge Indian
Reservation.
8.

Plaintiff’s Petition for Temporary Injunction is dismissed for lack ofjurisdiction. -

IT IS SO ORDERED.
Dated this 4th day of December, 2018.

The Honorable Paula D. Langworthy
Court Appointed Special Judge

2 |P age

, *CSSfe 5:19rCV-Q5Q45*JLV- OQcymentvl8^2 ;,eited lQ/Q4/M -fPage,2 of 15 PaqelD #: 344

laij•

-•

fl|- ■■■.-..-v

m
:m
II

■m
rf^\

•■S

ll
m
n

Appendix D
(6 pages)

SS

STATE OF SOUTH DAKOTA

f* ^

«►

• -V

M
^0

3MW

'....' ’ • 'M

Certificate of Incorporation
J'ion-'Profit

’if
Ullll

%)

1

r* •

r
*>53*

lip

H

I, JOYCE HAZELTINE, Seoetafy of State of tie State of South Dakota, hereby

I.

that the Articles of Inrnrpoiatiooef-,. .T??.

ill

.<

•

I

.

i!

. Certificate of .Incorporation of

•.

THE- ABERDEEN AREA TRIBAL v
4 4 4 o -• -» «

*• •

x

* *.» * • • > .

* * * •••« •

_

• -••.•.-4 *.«'.» ■

•

4 4 • #

* * *.? * •

■ -« «

•

4 • * .•

« m

and attacnberemaduplicateoftiieArticks of Incorporation.
'

• * *. • .» • • •

IN TESTIMONY WHEREOF, I have hereunto
. set «jr hand :*nd (affixed the.: G teat Seal of. the ..
;State .of;South (Dakota, '.at Picric, the .Capital,

'

5

' ate-

this

.. « » • 21-Sit»• • •

4 • « .4 4

JANUARY
♦••*♦.** <%A

■

•• •

day of
■ ■'

m -4 4

:i

■

:!
AD. . /92

■

.

Sl-«

-.:

g^rc

* ♦ • • •

sv;
■4 -« ••* -i

• • -• ••

• • »•*■« .4 '4 • • -4 . •
‘A

a

v

■t

••*44*

5zi

2>g<

•r.v.’

P

fwTt

CHAIRMEN’ S HEALTH BOARD - ■

mm
-lla
::-j

i

Act, have beenurraved.in this office and are found to ax&ma to law.
■ ACCORDINGLY . and ,by virtue of the authority: voted in;
roe by Jaw, I hereby issue this'

\

111

■’

duly signal .anti verified, pumtant to the provisions of the South-Dakota Nw^fit Cm&a

■«gi

w&

certify

AREA TRIBAL
I ;«

CHAIRMEN’ S -HEALTH BOARD

m zam.

-(

a

a
s
m

. TS&TfefoEAjPucT

i

g

State

■ - m-k

S ^^3^?

, .3I m
.i

;-s

m

55TTJ

*

4 -• 4 •• • • • «

• -• •* •

-3

• *'■4 4

'. %?uiy:
:

:

m
K:

Case 5:19-cv-05045-JLV Document 18-12 Filed 10/04/19 Page 1

: 343

mm*

is

o

estate xrf

ftl

UN

| (iB&kata

nH

■ist

■la
ass

HU
8h
IM

*

gn
wkM,

jp|

OFFICE OF THE SECRETARY OF STATE

jli

H

Suites
sussi

u

ms
Certificate of Amendment

ill

911

■fe

m
m
£gi§|

*■

iBj

m
ip

r

if
IfeifSS
Ill

ACCORDINGLY and by virtue of the authority vested in me by law, I hereby
issue this Certificate of Amendment to the Articles of Incorporation and attach
hereto a duplicate of the Articles of Amendment.

H

f

m
i
a

I, Chris Nelson, Secretary of State of the State of South Dakota, hereby certify
that duplicate of the Articles of Amendment to the Articles of Incorporation of
ABERDEEN AREA TRIBAL CHAIRMEN'S HEALTH BOARD
changing its name to: GREAT PLAINS TRIBAL CHAIRMEN’S
HEALTH BOARD duly signed and verified pursuant to the provisions of the
South Dakota Corporation Acts, have been received in this office and are found to
conform to law.

m
mm
H

5

m

ORGANIZATIONAL ID #: NS009553

lUS

IN TESTIMONY WHEREOF, I
have hereunto set my hand and
affixed the Great Seal of the State of
South Dakota, at Pierre, the Capital,
this September 3,2010.

ilBSiP

IMf®

pH

m
m

Chris Nelson
Secretary of State

H

|S§|jj
life

AmendCenificAie Merge

IfcBl

lawafcfaae
T'lrrrr r\x ra n Ho/^l

_

1 O

m

Case 5:19-cv-05045-JLV Document 18-12 Filed 10/04/19 Page 3 of 15 PagelD #: 345

ARTICLES OF INCOPORATION
OF
THE ABERDEEN AREA TRIBAL CHAIRMENS’ HEALTH BOARD
ARTICLE I.
The Name of the Corporation shall be the Aberdeen Area Tribal Chairmens’ Health Board.
ARTICLE II.
The Period of duration of this Corporation shall be perpetual.
ARTICLE IE.
PURPOSE:
The stated policy of the Indian Health Service is to “encourage and increase Indian participation
in every phase of the program; planning, operating, and evaluating service at all levels.” The
Aberdeen Area Tribal Chairmens' Health Board is established in order to provide the Indian
people of the Aberdeen Area with a formal representative Board as a means of communicating
and participation with the Aberdeen Area Indian Health Service and other health agencies and
organizations on health matters. In pursuing this policy, the Board’s objectives are:
1.

To improve the effectiveness of the Indian Health program through responsible
participation of the Indian people in making decisions about their health services,
in order to improve their health status.

2.

To assist the Indian Health Service in establishing program priorities and in
distributing existing resources.

3.

To advise and assist the Director, Aberdeen Area Indian Health Service, in
developing long-range program plans.

4.

To represent the Indian interests and desires at all levels for health related
programs.

5.

To assist in development of Indian responsibility for community activities
affecting health.

6.

To assist member tribes in the development of health programs that will be
beneficial to the Tribes.

7.

To establish participation in any meetings that will provide clear and concise
information to the Tribes.

Dnnru/an Flprl

_ TTvVn"V>i+ 1 O

Case 5:19-CV-05045-JLV Document 18-12 Filed 10/04/19 Page 4 of 15 PagelD #: 346

8.

To represent the organization and member tribes in the Congress of the Unites
States at any hearings and at National Organization meetings regarding health
issues and care.

The board is organized exclusively for non-profit purposes and will qualify as an exempt
organization under Sec. 501 (c)(3) of the Internal Revenue Code of 1954 (or the corresponding
provision of any future United States Internal Revenue law).
ARTICLE IV.
The voting members of this Board shall be the Chairman/President or their official designees,
from each of the Reservations in South Dakota, North Dakota, Nebraska and Iowa, and the
Chairman of the Rapid City Indian Health Advisory Board and the Chairman of the Trenton
Indian Service Area Board. The voting members of the Board shall be selected according to the
Constitution and By-laws of their governing bodies.
ARTICLE V.
The Officers of the Board shall be elected by the membership of the Aberdeen Area Tribal
Chairmens’ Health Board at the first meeting of the fiscal year. Officers of the Board shall be the
Chairman, Vice-Chairman, Secretary and Treasurer. The Executive Committee shall consist of
five (5) members and it shall include one (1) elected member of the Aberdeen Area Tribal
Chairmens’ Health Board.
ARTICLE VI.
The permanent address of the Board shall be:
Aberdeen Area Tribal Chairmens’ Health Board
1770 Rand Rd.
Rapid City, SD 57702
ARTICLE Vn.
The initial Board of Directors for this organization shall consist of the following:
1.

Cheyenne River Sioux Tribe
Eagle Butte, South Dakota 57625

2.

Crow Creek Sioux Tribe
Fort Thompson, South Dakota 57739

3.

Devils Lake Sioux Tribe
Fort Totten, North Dakota 58335

Dnnmian

_ rr.vViil-iit 1 O

Case 5:19-cv-05045-JLV Document 18-12 Filed 10/04/19 Page 5 of 15 PagelD #: 347

4.

Flandreau-Santee Sioux Tribe
Flandreau, South Dakota 57028

5.

Lower Brule Sioux Tribe
Lower Brule, South Dakota 57548

6.

Oglala Sioux Tribe
Pine Ridge, South Dakota 57770

7.

Rosebud Sioux Tribe
Rosebud, South Dakota 57570

8.

Santee Sioux Tribe
Niobrara, Nebraska 68760

9.

Sisseton-Wahpeton Sioux Tribe
Sisseton, South Dakota 57262

10.

Standing Rock Sioux Tribe
Fort Yates, North Dakota 58538

11.

Yankton Sioux Tribe
Marty, South Dakota 57361

12.

Turtle Mountain Band of Chippewa
Belcourt, North Dakota 58316

13.

Winnebago Tribe of Nebraska
Winnebago, Nebraska 68071

14.

Fort Berthold, Three Affiliated Tribes
New Town, North Dakota 58763

15.

Omaha Tribe of Nebraska
Macy, Nebraska 68039

16.

Trenton Indian Service Area
Trenton, North Dakota 58853

17.

Sac & Fox Tribe of Iowa
Tama, Iowa 52339

18.

Ponca Tribe of Nebraska
Lake Andes, South Dakota 57356

firm n\ra n r~l- Tr.vViit-n'-t- 1 O

Case 5:19-cv-05045-JLV Document 18-12 Filed 10/04/19 Page 6 of 15 PagelD #: 348

ARTICLE VIII.
There will be no provisions for removal of any member. Appointment of members to the Board
shall be made, in writing, by the appropriate Tribal of other related governing bodies. Members
of this Board shall relinquish their position when they fail to be re-elected by their Tribal or other
related governing body to be an official delegate to the Aberdeen Area Tribal Chairmens' Health
Board.
ARTICLE IX.
Tribal governing bodies shall have the option for involvement in the Aberdeen Area Tribal
Chairmens' Health Board. It is not mandatoiy for Tribal governing bodies to belong to the
Aberdeen Area Tribal Chairmens' Health Board. However, decisions made by the Aberdeen Area
Tribal Chairmens' Health Board on all on-going programs shall be final.
ARTICLE X.
In the event this Board accrues any net earnings, no part of the net earnings shall ensure to the
benefit of, or be distributed to, the members, trustees, officers, or to other private persons,
except that the Corporation shall be authorized and empowered to pay reasonable compensation
for services rendered, and to make payments and distributions in furtherance of the purposed set
forth in Article HI hereof. No substantial part of the activities of the Board shall be the carrying
on of propaganda or otherwise attempting to influence legislation, and the Board shall not
participate or intervene in (including the publishing and distributing of statements) any political
campaign on behalf of any candidate for public office. Not withstanding, any other activities not
permitted to be carried on by (a) a Board exempt from Federal Income Tax under Section 501 (c)
(3) of the Internal Revenue code of 1954, as amended, or as may be amended in the future, or by
(b) a Board, contributions of which are deductible under Section 170 (c) (2) of the Internal
Revenue Code of 1954, as amended, or as may be amended in the future.

Dnnnvfln

- F.vhiViit 1 9

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 1 of 33 PagelD #: 271

Self-Determination Contract

Appendix E
(33 pages)

between

THE GREAT PLAINS TRIBAL CHAIRMEN’S HEALTH BOARD
on Behalf of
the Cheyenne River Sioux Tribe and the Oglala Sioux Tribe,
and

THE SECRETARY OF
THE DEPARTMENT OF HEALTH AND HUMAN SERVICES
RAPID CITY SERVICE UNIT
Contract Number: HHS-241-2019-01111

ARTICLE 1 - POLICY, AUTHORITY, AND PURPOSE
Section 1.1 - Policy. This contract is entered into in furtherance of:
1.1.1 the commitment of Congress to the maintenance of the Federal Government’s unique and
continuing relationship with, and responsibility to, individual Indian Tribes and to the Indian people as a
whole through the establishment of a meaningful Indian self-determination policy which permits an
orderly transition from the Federal domination of programs for, and sendees to the Great Plains Tribal
Chairmen’s Health Board (referred to in this Contract as the ‘'Board” or “GPTCHB”), on behalf of the
Cheyenne River Sioux Tribe and the Oglala Sioux Tribe in the Indian Health Service’s (“IHS”) Rapid
City Service Unit (“RCSU”) and their members, and to effective and meaningful participation by the
GPTCHB in the planning, conduct, and administration of those programs and services consistent with 25
U.S.C. § 5302(b); and
1.1.2 the declaration of policy by the Congress, in fulfillment of the United States’ special trust
responsibilities and legal obligations to Indians to ensure the highest possible health status for Indians and
to provide all resources necessary to effect that policy, to ensure the maximum Indian participation in the
direction of health care services so as to render the persons administering such services and the services
themselves more responsive to the needs and desires of Indian communities, to require active and
meaningful consultation with Indian tribes and tribal organizations, to ensure that the United States and
Indians tribes work in a govemment-to-govemment relationship to ensure quality health care for all tribal
members, and to provide funding for programs and facilities operated by Indian tribes and tribal
organizations in amounts that are not less than the amounts provided to programs and facilities operated
directly by the Service. 25 U.S.C. § 1602.

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 2 of 33 PagelD #: 272

Section 1.2 - Authority. This agreement, denoted a Self-Determination Contract (referred to in this
agreement as the “Contract”), is entered into by the Secretary of Health and Human Services (referred to
in this agreement as the “Secretary”), for and on behalf of the United States pursuant to Title I of the
Indian Self-Determination aid Education Assistance Act, Pub. L. 93-638, as amended, (hereafter the
“Act”) (25 U.S.C. § 5301 et seq.) and the authority of the GPTCHB pursuant to the resolutions of the
Cheyenne River Sioux Tribe and Oglala Sioux Tribe, attached hereto as Attachment 1. The provisions
of Title I of the Act are incorporated in this Contract.
Section 1.3 - Purpose. Each provision of the Act and each provision of this Contract shall be liberally
construed for the benefit of the GPTCHB to transfer the binding and the related functions, services,
activities, and programs (hereafter “PFSAs”) (or portions thereof), identified in the Annual Funding
Agreement incorporated by reference in section 6.2 [exhibits; annual funding agreements] (hereafter
“AFA”), that are otherwise contractible under section 102(a) of such Act (25 U.S.C, § 5321(a)), including
all related administrative functions, from the Federal Government to the GPTCHB.
ARTICLE 2 - TERMS, PROVISIONS AND CONDITIONS
Section 2.1 - Award Date and Term - This Contract is awarded on the date of the last signature applied
to this Agreement. Pursuant to section 105(c)(1) of the Act (25 U.S.C. § 5324(c)(1)), the term of this
Contract shall begin on July 21, 2019 and extend through September 30, 2022. Pursuant to section
105(d)(1) Of such Act (25 U.S.C. § 5324(d)), upon the election by the GPTCHB, die period ofthis Contract
shall be determined on the basis of a federal fiscal year.
Section 2.2 - Effective Date. This Contract shall become effective on July 21, 2019.
Section 2.3 - Program Standards. The GPTCHB shall strive at all times to provide the PFSAs
identified in the Scope of Work attached to and incorporated by reference into the AFA in accordance
with national and regulatory standards, as applicable, and in a manner that is considered culturally
proper. GPTCHB will comply with applicable state and federal regulations and standards concerning
safety, background investigations, professional licensing, certification, and credentialing, financial
management, procurement and billing, and compliance activities.
Section 2.4 - Funding Amount Subject to the availability of appropriations, the Secretary shall make
available to the GPTCHB the total amount specified in the AFA. Such amount shall not be less than the
applicable amount determined pursuant to section 106(a) of the Act (25 U.S.C. § 5325(a)).
Section 2.5 - Limitation of Costs. The GPTCHB shall not be obligated to continue performance that
requires an expenditure of funds in excess of the amount of funds awarded under this Contract If, at any
time, the GPTCHB has reason to believe that the total amount required for performance of this Contract
or a specific activity conducted under this Contract would be greater than the amount of funds awarded
under this Contract, the GPTCHB shall provide reasonable notice to the Secretary. If the Secretary does
not take such action as may be necessary to increase the amount of binds awarded under this Contract, the
GPTCHB may suspend performance of the Contract until such time as additional funds are awarded.

t

. i

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 3 of 33 PagelD #: 273

Section 2.6 - Payment.
2.6.1 In General. Payments to the GPTCHB under this Contract shall:
2.6.1.1 be made as expeditiously as practicable; and
2.6.1.2 include financial arrangements to cover funding during periods covered by joint
resolutions adopted by Congress making continuing appropriations, to the extent permitted by such
resolutions.
2.6.2 Methods of Payment
2.6.2.1 In General. Pursuant to section 108(b) of the Act (25 U.S.C. § 5329(b)), and
notwithstanding any other provision of law, for each fiscal year covered hy this Contract, the Secretary
shall make available to GPTCHB the funds specified for the fiscal year under the AFA by paying to the
GPTCHB in a lump-sum payment, or any other method of payment authorized by law if requested by the
GPTCHB in its AFA.
2.6.2.2 Method of lump sum payment. Unless otherwise specified in the AFA, each
payment due shall be made on the first day of the fiscal year, except that in any case in which the Contract
year coincides with the Federal fiscal year, die annua! lump sum payment shall be made not later than the
date that is ten (10) calendar days after the date on which the Office of Management and Budget apportions
the appropriations for the fiscal year for the PFSAs subject to this Contract.
2.6.23 Applicability. Chapter 39 of Title 31, United States Code, shall apply to the
payment of funds due under this Contract and the AFA.
2:6.3 Withholding of Payments. Payments under this Contract may only be suspended, delayed,
or withheld in compliance with section 106(1) of the Act (25 U.S.C. § 5325(/)).
Section 2.7 - Records and Monitoring.
2.7.1 In General. Except for previously provided copies of tribal records that the Secretary
demonstrates are clearly required to be maintained as part of the recordkeeping system of the Department
of Health and Human Services, records of the GPTCHB shall not be considered Federal records for
purposes of Chapter 5 of Title 5, United States Code.
2.7.2 Recordkeeping System. The GPTCHB shall maintain a recordkeeping system and, upon
reasonable advance request, provide reasonable access to such records to the Secretary.
2.7.3 Responsibilities of GPTCHB. The GPTCHB shall be responsible for managing the dayto-day operations conducted under this Contract and for monitoring activities conducted under this
Contract to ensure compliance with the Contract and applicable Federal requirements.
2.7.4 Monitoring by the Secretary.

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 4 of 33 Page!D #: 274

2.7.4,1 Generally. With respect to the monitoring activities of the Secretary, the routine
monitoring visits shall be limited to not more than one performance monitoring visit for this Contract by
the head of each operating division, departmental bureau, or departmental agency, or duly authorized
representative of such head unless2.7.4.1.1 the GPTCHB agrees to one or more additional visits; or
2.7.4.1.2 the appropriate official determines that there is reasonable cause to believe
that grounds for reassumption of the Contract, suspension of Contract payments, or other serious Contract
performance deficiency may exist.
2.7.4.2 Limitation on Additional Monitoring. No additional visit referred to in section
2.7.4.1.2 shall be made until such time as reasonable advance notice that includes a description of the
nature of the problem that requires the additional visit has been given to the GPTCHB.
Section 2.8 - Property.
2.8.1 In General. As provided in section 105(f) of the Act (25 U.S.C. § 5324(f)), at the request
of the GPTCHB, the Secretary may make available, or transfer to the GPTCHB, all reasonably divisible
real property, facilities, equipment, and personal property that the Secretary has used to provide or
administer the PFSAs covered by this Contract A mutually agreed upon list specifying the property,
facilities, and equipment so furnished shall also be prepared by the Secretary, with the concurrence of the
GPTCHB, and periodically revised by the Secretary', with the concurrence of the GPTCHB.
2.8.2 Records. The GPTCHB shall maintain a record of all property referred to in section 2.8.1
[property; in general] or other property acquired by the GPTCHB under section 105(f)(2)(A) of the Act
(25 U.S.C. § 5324(f)) for purposes of replacement.
2.8.3 Real Property. The IHS and the GPTCHB have entered into a Use Agreement to address
the shared use by the parties of real property and facilities or portions thereof, of the Rapid City Indian
Health Center, also known as the Indian Health Service compound or Sioux San (“Facilities5’)- Pursuant
to the Use Agreement, which is attached, but not incorporated, into the AFA, the GPTCHB will occupy
the Facilities, except for those facilities that IHS will continue to occupy to carry out PFSAs on behalf of
the Rosebud Sioux Tribe, Great Plains Area Office PFSAs, the SDPI Grant and those facilities occupied
by the Oglala Sioux Tribe to carry out PFSAs under their Title I Contract, in connection with carrying out
the PFSAs described in the AFA and the Scope of Work and shall perform such services in support of
Facilities in cooperation IHS, as set forth under the Use Agreement.
2.8.4 Personal Property.
2.8.4.1 Generally. An IHS inventory of personal property, which is limited to certain
types of property and property' of a certain minimum value, will be provided to GPTCHB by the IHS.
All personal property, including art and medical equipment, owned by the IHS and on the Sioux San
compound, whether it appears in the inventory’ or not, other than personal property retained by the IHS
to carry out PFSAs on behalf of the Rosebud Sioux Tribe, and to carry out Great Plains Area Office

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 5 of 33 PagelD #: 275

PFSAs and the SDPI Grant, shall be made available to the GPTCHB consistent with 25 U.S.C. §
5324(f).
2.S.4.2 Acquisition of Property. The GPTCHB is granted the authority to acquire such
excess property as the GPTCHB may determine to be appropriate in the judgment of the GPTCHB to
support the PFSAs operated pursuant to this Contract.
2.8.43 Confiscated or Excess Property. The Secretary shall assist the GPTCHB in
obtaining such confiscated or excess property as may become available to tribes, tribal organizations, or
local governments.
2.S.4.4 Capital Equipment. The GPTCHB shall determine the capital equipment, leases,
rentals, property, or services the GPTCHB requires to perform the obligations of the GPTCHB under this
section 2.8.4.4, and shall acquire and maintain records of such capital equipment, property rentals, leases,
property, or services through applicable procurement procedures of the GPTCHB.
Section 2.9 - Availability of Funds. Notwithstanding any other provision of law, any funds provided
under this Contract 2.9.1 shall remain available until expended: and
2.9.2 with respect to such funds, no further -2.9.2.1 approval by the Secretary, or
2.9.2.2 justifying documentation from the GPTCHB shall be . required prior to the
expenditure of such funds.
Section 2.10—Transportation. Beginning on the first day of die term of this Contract pursuant to section
2.1 [award date and term], the Secretary shall authorize the GPTCHB to obtain interagency motor pool
vehicles and related services for performance of any activities carried out under this Contract.
Section 2.11 - Federal Program Guidelines, Manuals or Policy Directives. Except as specifically
provided in the Act, the GPTCHB is not required to abide by guidelines, manuals, or policy directives of
the Secretary, unless otherwise agreed to by the GPTCHB and the Secretary, or otherwise required by
law.
Section 2.12 - Disputes.
2.12.1 Third-Party Mediation Defined. For the purposes of this Contract, the term ‘third-party
mediation5 means a form of mediation whereby the Secretary and the GPTCHB nominate a third party
who is not employed by or significantly involved with the Secretary or the GPTCHB to serve as a thirdparty mediator to mediate disputes under this Contract.
2.12.2 Alternative Procedures. In addition to, or as an alternative to, remedies and procedures
prescribed by section 110 of the Act (25 U.S.C. § 5331), the parties to this Contract may jointly—

Case 5:19-cv-Q5045-JLV Document 18-9 Filed 10/04/19 Page 6 of 33 PagelD #: 276

2.12.2.1 submit disputes under this Contract to third-party mediation;
2.12.2.2 submit the dispute to mediation processes provided for under the policies or
procedures of the GPTCHB; or
2.12.2.3 use the administrative dispute resolution processes authorized in subchapter IV
of chapter 5 of title 5, United States Code.
2.12.3 Effect of Decisions. The Secretary shall be bound by decisions made pursuant to the
processes set forth in section 2.12.2 [alternative procedures], except that the Secretary shall not be bound
by any decision that significantly conflicts with the interests of Indians or the United States.
Section 2.13 - Administrative Procedures of GPTCHB. Pursuant to the Indian Civil Rights Act of
1968 (25 U.S.C. § 1301 et seq.), the policies and procedures of the GPTCHB shall provide for
administrative due process (or the equivalent of administrative due process) with respect to PFSAs that
are provided by the GPTCHB pursuant to this Contract.
Section 2.14 - Successor Annual Funding Agreement.
2.14.1 In General. Negotiations for a successor AFA shall begin no later than 120 days prior to
the conclusion of the preceding AFA. Except as provided in section 105(c)(2) of the Act (25 U.S.C. §
5324(c)(2)), the funding for each such successor AFA shall only be reduced pursuant to section 106(b) of
such Act (25 U.S.C. § 5325(b)).
2.14.2 Information. The Secretary shall prepare and supply relevant information, and promptly
comply with any request by the GPTCHB for information that the GPTCHB reasonably needs to
determine the amount of funds that may be available for a successor AFA.
Section 2.15 - Contract Requirements; Approval by Secretary.
2.15.1 In General. Except as provided in section 2.15.2 [requirements] for the term of the
Contract, section 2103 of the Revised Statutes (25 U.S.C. § 81) and secti on 16 of the Act of June 18,1934
(48 Stat. 987, chapter 576; 25 U.S.C. § 5123), shall not apply to any contract entered into in connection
with this Contract.
2.15.2 Requirements. Each contract entered into by the GPTCHB with a third party in
connection with performing the obligations of the GPTCHB under this Contract shall2.15.2.1 be in writing;
2.15.2.2 identify the interested parties, the authorities of such parties, and purposes of the
contract;
2.15.23 state the work to be performed under the contract; and

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 7 of 33 PagelD #: 277

2.15.2.4 state the process for making any claim, the payments to be made, and the terms
of the contract, which shall be fixed.
ARTICLE 3 - OBLIGATION OF THE GPTCHB.
Section 3.1 - Contract Performance. Except as provided in section 4.2 [good faith], die GPTCHB shall
perform the PFSAs as provided in the AFA.
Section 3.2 — Amount of Funds. The total amount of funds to be paid under this Contract pursuant to
section 106(a) of the Act (25 U.S.C. § 5325(a)) shall be determined in an AFA entered into between the
Secretary and the GPTCHB and incorporated by reference into this Contract.
Section 3.3 - Contracted Programs. Subject to the availability of appropriated funds, the GPTCHB
shall administer the PFSAs identified in this Contract and funded through the AFA,
Section 3.4 - Fair and Uniform Services. The GPTCHB shall provide services under this Contract in
a fair and uniform manner and shall provide access to an administrative or judicial body empowered to
adjudicate or otherwise resolve complaints, claims, and grievances brought by program beneficiaries
against the GPTCHB arising out of the performance of the Contract.
Section 3.5 - Standards of Character. Pursuant to 25 U.S.C. § 3207, the GPTCHB, as a recipient of
funds under the Act, shall—
3.5.1 conduct an investigation of the character of each individual who is employed, or is being
considered for employment, by such tribe or tribal organization in a position that involves regular contact
with, or control over, Indian children; and
3.5.2 employ individuals in those positions only if the individuals meet standards of character, no
less stringent than those prescribed under section 3.5.1 [standards of character], as the GPTCHB shall
establish.
ARTICLE 4 - OBLIGATIONS OF THE UNITED STATES
Section 4.1 - Trust responsibility.
4.1.1 In General. The United States reaffirms the trust responsibility of the United States to the
authorizing tribes to protect and conserve the trust resources of the Indian tribe(s) and the trust resources
of individual Indians.
4.1.2 Construction of Contract. Nothing in this Contract may be construed to terminate, waive,
modify, or reduce the trust responsibility of the United States to the authorizing tribes, or individual
Indians. The Secretary shall act in good faith in upholding such trust responsibility.
Section 4.2 — Good Faith. To the extent that health programs are included in this Contract, and within
available funds, the Secretary shall act in good faith in cooperating with the GPTCHB to achieve the goals
set forth in the Indian Health Care Improvement Act (25 U.S.C. § 1601 et seq.).

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 8 of 33 PagelD #: 278

Section 4.3-Programs Retained. As specified in the AFA, the United States hereby retains the
PFSAs that are not specifically assumed by the GPTCHB in the AFA under section 6.2 [annual funding
agreements].
Section 4.4 - Federal Tort Claims.
4.4.1 In General. For purposes of Federal Tort Claims Act coverage, the GPTCHB and its employees
(including individuals performing personal services contracts with the GPTCHB to provide health care
services) are deemed to be employees of the Federal government while performing work under this
Contract. This status is not changed by the source of the funds used by the GPTCHB to pay the employee’s
salary and benefits unless the employee receives additional compensation for performing covered services
from anyone other than the GPTCHB. Under this Contract, die GPTCHB5s employee may be required as
a condition of employment to provide health sendees to non-MS beneficiaries in order to meet contractual
obligations. These services may be provided in either GPTCHB or non-GPTCHB facilities.
4.4.2 Case-By-Case Determination. The GPTCHB understands that whether the Federal Tort Claims
Act applies in any particular case is decided on an individual, case-by-case basis by the United States
Department of Justice and subsequently by the Federal Courts.
ARTICLE 5 - OTHER PROVISIONS
Section 5.1 - Designated Officials. Not later than the effective date of this Contract, the United States
shall provide to the GPTCHB, and the GPTCHB shall provide to the United States, a written designation
of a senior official to serve as a representative for notices, proposed amendments to the Contract, and other
purposes for this Contract.
Section 5.2 - Contract Modifications or Amendment.
5.2.1 In General.
Except as provided in section 5.2.2 [exception], no modification to this
Contract shall take effect unless such modification is made in the form of a written amendment to the
Contract, and the GPTCHB and the Secretary provide written consent for the modification.
5.2.2 Exception. The addition of supplemental funds for PFSAs (or portions thereof) already
included in the AFA, and the reduction of funds pursuant to section 106(b)(2), shall not be subject to
section 5.2.1 [in general].
5.2.3 Officials Not to Benefit No member of Congress, or resident commissioner, shall be
admitted to any share of part of any contract executed pursuant to this Contract, or to any benefit that may
arise from such contract. This paragraph may not be construed to apply to any contract with a third party
entered into under this Contract if such contract is made with a corporation for the general benefit of the
corporation.
5.2.4 Covenant Against Contingent Fees. The parties warrant that no person or selling agency
has been employed or retained to solicit or secure any contract executed pursuant to this Contract upon an
agreement or understanding for a commission, percentage, brokerage, or contingent fee, excepting bona
fide employees or bona fide established commercial or selling agencies maintained by the GPTCHB for
the purpose of securing business.

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 9 of 33 PagelD #: 279

ARTICLE 6 - ATTACHMENTS
Section 6.1 - Resolutions in Support of the Contract.
6.L1 Resolutions of Authorizing Tribes. The Resolutions of the Two Tribes that have
authorized the GPTCHB to assume the Rapid City Service Unit on their behalf are attached, but not
incorporated, as Attachment 1:
Cheyenne River Sioux Tribe Resolution Numbers. 1-2019 (January 9, 2019) and 104-2018-CR
(April 10,2018); and
Oglala Sioux Tribe Resolution Numbers 19-02 (January 2, 2019) and 18-42 (April 4,2018).
6.1.2 Approval of Contract. The Resolutions of the GPTCHB authorizing the contracting of
the PFS As identified in this Contract are attached, but not incorporated, as Attachment 2:
Resolution 2019-01, Adopted by the GPTCHB Executive Committee on January 18,2019,
and ratified by the full Board of Directors on April 17,2019.
Section 6.2 - Annual Funding Agreements.
6.2.1 In General. The AFA under this Contract shall only contain-6.2.1.1 terms that identify the PFSAs to be performed or administered, the general budget
category assigned, the funds to be provided, and the time and method of payment; and
6.2.1.2 such other provisions, including a brief description of the PFSAs to be performed
(including those supported by financial resources other than those provided by the Secretary), to which
the parties agree.
6.2.2 Incorporation by Reference. The AFA is hereby incorporated in its entirety in this
Contract and attached to this Contract as Attachment 3. Successor AFAs entered into under this contract
shall be attached to this Contract as Attachment 3 with each identifying the fiscal year (or other period) to
which the successor AFA applies.

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 10 of 33 PagelD #: 280

GREAT PLAINS TRIBAL CHAIRMEN’S HEALTH BOARD
DATED THIS 3 1st DAY OF MAY, 2019
A
IV

a

BY>
-ft i
_ _
JERILYNlepjRCH, Chief Executive OfficeT"
DEPARTMENT OF HEALTH AND HUMAN SERVICES
INDIAN HEALTH SERVICE
DATED THIS 31st DAY OF MAY, 2019

James R. Driving Hawk

. -s

Digitally signed by James R.
Driving Hawk -$
Date: 2019.06.01 01:02:20-05'00’

BY:
Awarding Official
JAMES DRIVING HAWK, Indian Health Service

Case 5:19-CV-05045-JLV Document 18-9 Filed 10/04/19 Page 11 of 33 PagelD #: 281

Attachment 3 to Contract No. HHS-1-241-2019-01111
Annual Funding Agreement
between
The Secretary of the
United States Department of Health and Human Services
and the
Great Plains Tribal Chairmen’s Health Board
on Behalf of
toe Cheyenne River and Oglala Sioux Tribes
RAPID CITY SERVICE UNIT
Contract Number: HHS-1-241-2019-01111
Section I - AUTHORITY
Pursuant to Title I of the Indian Self-Determination and Education Assistance Act (Pub. L. 93638,25 U.S.C. § 5301 et seq.), as amended (hereafter “ISDEAA” or “Act”), this Annual Funding
Agreement (“AFA” or “Agreement”) is entered into by the Great Plains Tribal Chairmen’s
Health Board, a tribal organization (hereafter “GPTCHB” or “Board” or “Contractor”), acting
under the authority granted to it by the Cheyenne River and Oglala Sioux Tribes (hereafter “Two
Tribes”) pursuant to resolutions from each of the Two Tribes, and the Secretary of the
Department of Health and Human Services, acting through the Indian Health Service (hereafter
“IHS”). This AFA is incorporated into and attached to the Self-Determination Contract between
the GPTCHB and the Secretary, Contract No. HHS-1-241-2019-01111. as Attachment 3
(hereafter “Contract”).
SECTION 2 - PURPOSE
Pursuant to the terms of this Agreement, the GPTCHB is authorized to plan, conduct, operate,
and administer the programs, functions, services and activities (“PFSAs”) identified in
Attachment A, Scope of Work to this AFA (hereafter referred to as “GPTCHB PFSAs”). All
terms of this Agreement shall he governed by the ISDEAA, its implementing regulations,
including IHS eligibility regulations, and, to the extent expressly agreed to by the parties hereto,
applicable IHS policies.
SECTION 3 - EFFECTIVE DATE AND TERM
This AFA shall become effective July 21,2019 and shall extend through September 30,2019.
SECTION 4 - OBLIGATIONS OF THE INDIAN HEALTH SERVICE
4.1 Generally. Pursuant to this AFA, IHS shall provide funding, resources, and services
identified herein and as provided in the Contract The IHS shall remain responsible for
performing all federal residual functions. In cases where a portion of tribal shares have been
transferred to the GPTCHB under tins AFA, the parties agree that IHS may provide a

GPTCHB (RCSU) AFA Effective July 21,2019

Page 1 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 12 of 33 PagelD #: 282

correspondingly diminished level of service to the GPTCHB, subject to the terms of section 4.2
[retained PFSAs], which is carrying out RCSU PFSAs on behalf of the Two Tribes.
Except to the extent die GPTCHB has assumed PFSAs under this AFA, IHS’s
responsibilities under the Indian Health Care Improvement Act, as amended (“IHCIA”), the Act,
and other applicable provisions of Federal law are unchanged by toe Contract and AFA.
4 2 Retained PFSAs.
Any PFSA not assumed by the GPTCHB during the term of this AFA shall be carried out
by the IHS in its discretion. The GPTCHB shall be eligible for new PFSAs and associated
funding on the same basis as other tribes and tribal organizations and IHS directly-operated
service units. When new PFSAs (or portions thereof) become available, the Secretary shall
advise the GPTCHB.
IHS will provide reasonable notice to the GPTCHB of operational changes or
reprograming that, in the opinion of the IHS, may impact accessibility, availability or delivery of
PFSAs for which IHS retains responsibility under this AFA. To the extent the Great Plains Area
Office retains funds that become available for Area-wide PFSAs or cost assessments, the
GPTCHB shall be entitled to benefit to the same extent as other tribes and tribal organizations
and IHS directly-operated service units in the Great Plains Area.
43 Other Federal Obligations.
43.1 HEPAA/HITECH Compliance. IHS retains the responsibility for
complying with the Health Insurance Portability and Accountability Act of 1996 (“HIPAA”) and
the Health Information Technology for Economic and Clinical Health (“HITECH”) for retained
IHS health care component activities. The GPTCHB is also responsible for complying with
FUPAA/H2TECH. IHS and the GPTCHB will share patient information consistent with patient
treatment, payment, health oversight and health care operations confidentiality exceptions under
H3PAA/HTTECH and other applicable law.
433 Intellectual Property. IHS, through contracts, grants, sub-grants, license
agreements, or other agreements may have acquired rights or entered into license agreements
directed to copyrighted material. The GPTCHB may use, reproduce, publish, or allow others to
use, reproduce, or publish such material only to the extent that IHS’s contracts, grants, sub­
grants, license agreements, or other agreements provide that IHS has the right to allow a tribe or
tribal organization to do so and IHS determines that it will extend its rights to the tribal
organization. The GPTCHB’s use of any such copyrighted material and licenses is limited to the
scope of use defined in the agreements.
433 Reports. Any reports or information required under section 2.14.2 of toe
Contract [successor AFA; information] shall be provided within 60 days of the request by the
GPTCHB, unless the parties mutually agree, or toe law provides, that a longer amount of time is
necessary to provide such reports or information.

GPTCHB (RCSU) AFA Effective July 21,2019

Pap 2 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 13 of 33 PagelD #: 283

4.3.4 Participation in ‘‘Project TransAm.” Pursuant to section 2.8.5 of the
Contract [confiscated or excess property], file GPTCHB shall be notified of and authorized (to
the extent IHS has authority to provide authorization) to participate in property screenings
associated with “Project TiansAm” (or any similar successor project) by IHS Headquarters.
Such notification may be by publication on a webpage available to the GPTCHB. haventoiy of
or
available assets may be published on the following webpageC' p
other TransAm webpage available to fixe GPTCHB.
4.3.5 Contract Health Emergency Fund.
4.3.5.1 Generalfy. The IHS administers the Catastrophic Health
Emergency Fund (CHEF) for the benefit of all IHS and tribal health programs. The GPTCHB is
eligible for payment from CHEF on the same basis as IHS directly operated service units and
other tribal health programs. No part of CHEF is subject to contract or grant under any law
including the Act Nothing in the Contract or this AFA shall be construed as modifying or
expanding the rights of the GPTCHB under the legal authority under which the IHS administers
CHEF, 25 U.S.C. § 1621a.
43JS2 CHEF Transition. The Great Plains Area Office will provide
reports to the GPTCHB of Purchased/Referred Care (PRC) (formerly contract health services or
CHS) costs incurred prior to July 21,2019 that were insufficient to qualify for CHEF
reimbursement in which the episode of care was not complete prior to July 21,2019. The Great
Plains Area Office will work with the GPTCHB to consolidate the pre-July 21,2019 PRC costs
with those incurred by the GPTCHB’s PRC program on or after that date, so that the GPTCHB
may submit the total PRC cost to CHEF for reimbursement.
SECTION 5 - OBLIGATIONS OF THE GPTCHB
Section 5.1 - In General. The GPTCHB agrees, subject to the availability of funding, to
administer, provide and be responsible for file FFSAs identified in this AFA and the related
Scope of Work in accordance with the Contract, this AFA and the agreed upon funding tables
(see Attachment LIST). For the purposes of this AFA, and in accordance with 25 U.S.C. §
5325(o), the GPTCHB’s general budget categories for file Rapid City Service Unit have been
reallocated to support redesigned health. PFSAs as described in Hals AFA and the Scope of Wotk
(Attachment A). GPTCHB’s general budget categories include the categories of funds
transferred to the GPTCHB under this AFA.
Section 5.2 - Scope ofWork. A brief description of the PFSAs to be performed or
administered pursuant to the Contract and this APA is attached to this AFA as Attachment A,
which is incorporated by reference into this AFA.
Section 53 - Eligibility. Eligibility for services provided under the Contract and this
AFA shall be determined in accordance with IHS eligibility regulations set forth at 42 CJF.R.
Part 136, Subpart B (for direct care) and C (for PRC), Section 813 of the Indian Health Care
Improvement Act (25 U.S.C. § 1680c), and any other applicable provisions of law.

GPTCHB (RCSU) AFA Effective July 21,2019

Page 3 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 14 of 33 PagelD #: 284

Section 5.4 - Standards. The GPTCHB will satisfy die program standards in Contract
Section 2.3 [program standards].
Section 5.5 - Rebudgeting. In the operation and administration of the PFSAs identified
in the Scope of Work, the GPTCHB reserves die right to rebudget funds with respect to
allocations within the approved budget of the Contract, if such rebudgeting would not have an
adverse effect on the performance of die contract, pursuant to 25 U.S.C. § 5325(o).
SECTION 6 - FUNDING AMOUNTS AND OTHER RESOURCES
Section 6.1 - Generally. Pursuant to Contract Section 2.4 [funding amount], the annual
amount due under this AFA shall be the amount required under Section 6 [funding amounts and
other resources] as determined pursuant to 25 U.S.C. § 5325 or otherwise pursuant to the Act
The amounts due, as determined under 25 U.S.C.§5325(a), to the GPTCHB are subject to
reduction in future years only in accordance with 25 U.S.C. § 5325(b). The total amount of
funds associated with the GPTCHB PFSAs provided from July 21,2019 through September 30,
2019, pursuant to the Contract, and which die Secretary or an authorized representative shall
make available to the GPTCHB as provided in the Contract, shall be determined as provided in
this Agreement.
Section 6.1.1 - 106(a)(1) Amount.
The total annualized amount of funding as determined pursuant to 25 U.S.C. § 5325(a)(1)
for Fiscal Year (“FY”) 2019 associated with the GPTCHB PFSAs is identified in Attachment B1). The total amount of funding required pursuant to 25 U.S.C. § 5325(a)(1) for the term of this
AFA, and associated with the GPTCHB PFSAs is $ 3,816,949 {see Attachments B-l). The
amount of funding available for the term of this Agreement associated with the GPTCHB PFSAs
is die pro-rated amount based on the term of this AFA under section 3 [effective date and term],
which is July 21,2019 through September 30,2019. Additional amounts may be made available
through appropriate modifications to this AFA. Hie attachments referenced in this section are
funding tables, which are listed below, attached to this AFA, and incorporated by reference.
Attachment B-l - “FY 2019 Annual Funding Agreement Table by Sub Sub Activity for
with 78.13% Shares (dated May 31,2019) with 72 days”
Attachment B-2 - Headquarters Table 4t, HQ PFSAs for FY 2019 TSA and Program
Formula Lines Eligible Shares and Transition Year Amounts; Interim Estimates
Based on FY 2018IHS Appropriations”
Attachment B-3 - Headquarters Tribal 4F, “Estimated Area and Headquarters Facilities
Appropriation Funds for FY 2019 SD/SG Negotiations for FY 2019”
The annualized amounts, and the prorated amounts to be paid to GPTCHB for the term of
this AFA, will be adjusted to reflect any additional FY 2019 funding amounts after final
apportionment of the FY 2019 IHS appropriation.
Consistent with the terms of the Contract and this AFA, die parties will negotiate and agree on
revisions to die Attachments, if necessary, at the earliest opportunity that information regarding

GPTCHB (RCSU) AFA Effective July 21,2019

Page 4 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 15 of 33 PagelD #: 285

Ml FY 2019 funding is available, and die agreed upon tables will be modified into this AFA and
will supersede the tables attached hereto.
6.12 IHS Headquarters and the Area Office Environmental Health and
Engineering (“OEHE”). The amount of funds estimated to be available for OEHE will be
identified in each Funding Agreement budget term based on the annual OEHE distribution
methodology. The amount of funds available and the level of any retained shares will be updated
before the end of FY 2019 and in each subsequent FY.
6.13 Other. Eamtaiked funds will be provided to the GPTCHB in the future, to
die same extent as they have been provided, and consistent with applicable law and funding
formulas agreed to by the Tribes in the Great Plains Area. IHS Headquarters shares are allocated
according to IHS Headquarters’ methodologies. In addition to the funding amounts, the
GPTCHB is entitled to additional IHS Headquarters’ tribal shares, to the extent that they are
appropriated and allocated. Increases associated with pay costs, mandatories and other increases
resulting from increases in appropriations shall be made available to GPTCHB on the same basis
as other tribes and tribal organizations.
6.1.4 New Funds. New funds received during the term of this AFA will be added
by modification.
6.1.5 Availability of Area Funds. If an amount of Area Office funds not
presently available to the Trite for assumption, including categories of funds labeled “Residual,”
“Commitments; Legislative Requirements,” “Transitional” and “Field Pass-Through,” becomes
available for distribution to all tribes and tribal organizations and directly-operated service units
in the Great Plains Area, the GPTCHB shall be entitled to receive a share of such funds on the
same basis as the other tribes and service units in the Area.
6.2 Contract Support Costs. Contract support costs (“CSC”) will be paid in accordance
with 25 U.S.C. § 5325. The parties agree that, according to the best data available as of the date
of execution of this AFA, the amount to be paid for FY 2019, which represents the parties'
estimate of the GPTCHB’s full CSC requirement pursuant to 25 U.S.C. § 5325, is set forth in
paragraphs 6.2.1 [direct and indirect CSC] and 6.2.2 [pre-award and startup CSC]. The estimates
tor FY 2019 shall be recalculated as necessary as additional data becomes available including
information regarding the direct cost base, pass-throughs and exclusions, and the indirect cost
rates to reflect the full CSC required under 25 U.S.C. § 5325, and, to the extent not inconsistent
with the Act, as specified in IHS Manual Part 6, Chapter 3 (updated Oct 26,2016 and as
amended December 21,2017). The parties will cooperate in updating the relevant data to make
any agreed upon adjustments. In the event toe parties disagree on the CSC amounts estimated
and paid pursuant to this paragraph and toe GPTCHB's full CSC requirement under the
ISDEAA, toe parties may pursue any remedies available to them under the Act, toe Contract and
toe Contract Disputes Act, 41 U.S.C. §7101 et seq.
63.1 Direct and Indirect CSC. The following amounts represent the parties’
estimates, as provided in subsection 6.2, of $2,942,420, including $57,170 for direct CSC

■ JLILlgLHBSBg”

GPTCHB (RCSU) AFA Effective My 21,2019

Page 5 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 16 of 33 PagelD #: 286

(excluding pre-award and startup costs, which are addressed in paragraph 6.2.2), and, $2,885,250
for indirect CSC. See, Attachment B-l.
6.2.2 Pre-Award and Startup CSC.
63.2.1 Pre-Award CSC. In addition to the direct and indirect contract
support cost estimates agreed upon in section 6.2.1 [direct and indirect CSC], the following
amounts represent the parties' estimates, as provided in section 62 [CSC], of $2,651,777 for preaward costs. See, Appendix B-l. The amount of pre-award costs includes actual costs incurred
as of the award date of the Contract, as described in section 2.1 of the Contract [award Hate and
term], plus an estimate of pre-award costs to be incused after the award date of the Contract but
prior to July 21,2019. By August 31,2019, GPTCHB will provide documentation of actual preaward costs incused since the award date of the Contract, and if total allowed pre-award costs
exceed the amount stated in this Section 6.2.2.1, within 30 days IHS shall pay GPTCHB the
difference. If allowed pre-award costs are less titan the amount stated in this Section 6.2.2.1,
within 30 days GPTCHB shall pay IHS the amount of the overpayment. The IHS agrees to pay
pre-award CSC, as contemplated in this paragraph, on the award date of the Contract, This
section shall be modified at such time as the parties reach agreement of final pre-award CSC
amounts.
6.2.23 Start-up CSC. In addition to the direct and indirect contract
support cost estimates agreed upon in section 6.2.1 [direct and indirect CSC], the following
amounts represent the parties’ estimates, as provided in section 6.2 [CSC], of $1,962,654 for
startup costs. Within 90 days after July 22,2020, the GPTCHB will certify to IHS that it has
fully obligated the start-up costs funding on the negotiated startup activities. If the GPTCHB’s
startup obligations were less than the negotiated amount, the GPTCHB shall repay any
overpayment. If the GPTCHB has obligations for the negotiated startup activities in excess of
tiie amounts funded by IHS, the GPTCHB will provide documentation of these costs and the
additional amounts will be subject to negotiation between the parties.
63 Transfer of Current and Prior Years Funds.
6.3.1 Generally. IHS will make every reasonable effort to facilitate an orderly
and timely transfer of current and prior years funds, including third-party revenues, associated
with operation of the GPTCHB PFSAs of the Rapid City Service Unit and will provide all
funding required by 25 U.S.C. § 5325(a)(1), and as otherwise provided in this AFA.
63.2 Initial Reserve. On the effective date of this AFA, the IHS shall retain
$1,976,446 of tiie prior years and current year un-obligaled balances of the GPTCHB PFSAs of
the Rapid City Service Unit to closeout financial obligations. The sole purpose of this reserve is
to provide IHS with sufficient funding for potential recorded financial obligations, including
PRC referrals.
63.3 Carryover and Close Out Activity. Any prior years or current year funds
(including PRC funds and any reimbursements from tiie Catastrophic Health Emergency Fund
(“CHEF”) received before July 21,2019, for cases submitted prior to July 21,2019, remaining
OH

GPTCHB (RCSU) AFA Effective July 21,2019

Page 6 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 17 of 33 PagelD #: 287

unobligated on the effective date of this AFA associated with the GPTCHB PFSAs of the Rapid
City Service Unit, less the initial reserve under paragraph 63.2 [initial reserve], shall be paid by
the IHS to GPTCHB on July 21,2019. Closeout of obligated funds are subject to the following
terms:
633.1 All contracts and obligating documents associated with single year
(expendable within the appropriated budget fiscal year) and prior years or current year funds will
be reviewed, and federal guidelines and statutes will be followed to close out and determine if
any obligated balances can be de-obligated. Priority will be given to current prior years or
current year funds, prior years or current year funds with significant sums, and cancelling single
year funds
6333 The IHS will provide an initial report on August 1,2019, and a monthly
report thereafter, on the status of obligations and undelivered orders associated with GPTCHB
PFSAs. As funds associated with GPTCHB PFSAs are deobligated and become available, IHS
shall pay such funds to GPTCHB as soon as feasible and no later than 30 days after each report
that identifies such funds. GPTCHB and IHS will meet as frequently as necessary, in the view of
either party, to ensure timely accountability and transfer of prior and current year funds and to
review obligated, undelivered orders and unobligated balances that could potentially be
transferred to the GPTCHB.
6.4 Funds Received by IHS on or alter July 21,2019 Related to Activities or Services
Prior to that Date. The IHS shall transfer to the GPTCHB a share proportionate to the
GPTCHB PFSAs of all CHEF reimbursements received on or after July 21,2019, related to PRC
services authorized prior to July 21,2019, funds received under the Federal Medical Care
Recovery Act ("FMCRA”)) and reimbursements and recoveries received by the IHS on or after
the effective date of this AFA from Medicare, Medicaid, and other third-parties responsible or
liable pursuant to the Indian Health Care Improvement Act, Pub. L. 94-438, as amended, or any
other applicable law, arising from care provided by the Rapid City Service Unit prior to the
effective date of this AFA. The GPTCHB proportionate share of the funds described in this
section received each month will be transferred within 30-days of the end of the month in which
they were received.
6.5 Purchased/Referred Care.
6.5.1 Incorporation of Subpart I. For the purposes of being able to rely on the
provisions of 42 C.F.R. Part 136, subpart I regarding payment for provider and supplier services
purchased by Indian health programs, the GPTCHB agrees to be bound by Subpart I with regard
to PRC claims from any provider of services or supplies other than those governed by or subject
to 42 C.F.R. Part 136, subpart D.
6.5.2 Limitation of Charges to Patients. Eligible IHS beneficiaries who receive
purchased and referred care services authorized by the GPTCHB arc not liable for the payment of
any charges or costs arising from the provision of such services.

GPTCHB (RCSU) AFA Effective July 21,2019

Page 7 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 18 of 33 PagelD #: 288

6.5.3 Pre-Effective Date PRC Costs. The GPTCHB shall not be responsible for
any costs associated with PRC approved by MS prior to the effective date of this AFA. PRC
closeout will be addressed in die same manner as described in section 6,3 [transfer of current and
prior years funds] of this AFA,
6.6 Increases. The GPTCHB will receive all funding increases associated with the funding in
Attachments B-[l .3, B-2, and B-4] on the same basis as other Tribes and tribal organizations and
MS directly-operated service units, for services, inflation, population growth, Indian Health Care
Improvement Fund, all other increases associated with die funding identified in the fending
tables, attached and incorporated in Section 6.1.1 [106(aXl) amount], and any new fending
categories for the MS and tribal health programs that may from time to time be appropriated by
Congress or allocated by MS, The GPTCHB will be eligible for non-recurring and earmarked
funds consistent with applicable law and on the same basis as tribes and tribal organizations and
MS directly-operated service units.
6.7 Other Funds Due the GPTCHB.
6.7.1 Reconciliation and Adjustment. For the reasons noted throughout section
6 [funding amounts] of this AFA, funds that have not been folly identified as of the time this
AFA is being executed, all amounts to be paid in the FY 2019 based on prior year appropriations
are subject to amendment to reflect the full amount due for this fiscal year. MS will provide
sufficient documentation to facilitate the GPTCHB’s reconciliation of the amounts due imAw this
AFA to the amount actually received by the GPTCHB.
6.7.2 Year End Resources. In addition to the amounts otherwise provided,
the MS shall provide the GPTCHB the opportunity to receive a share in any year-end
resources of the MS on foe same basis as other tribes and tribal organizations. Resources
referred to herein are those that were otherwise not available for tribal shares distribution.
6.8 Funding Adjustments Due to Congressional Actions. The parties to this AFA
recognize that foe total amount of foe funding in this AFA is subject to adjustment due to
Congressional action in appropriations acts. Upon enactment of relevant appropriation acts or
other law affecting availability of funds to the MS, the amounts of funding provided to the
GPTCHB in this AFA shall be adjusted as necessary, and the GPTCHB has been notified of such
action, subject to any rights which foe GPTCHB may have under this AFA, foe Contract, or foe
law.
6.9 Interest on Advances. The GPTCHB shall be permitted to retain interest earned on
funds advanced by foe Secretary to it while such funds are pending disbursement by foe
GPTCHB, as provided in 25 U.S.C. § 5324(b). The GPTCHB shall not be held accountable for
interest earned on such funds, pending their disbursement by foe GPTCHB.
6.10 Program Income. The program income earned by foe GPTCHB in the course of
carrying out foe Contract and this AFA shall be used by foe GPTCHB to further foe general
purposes of foe Contract and this AFA; and shall not be foe bams for reducing foe amount of
funds otherwise obligated to foe Contract and this AFA. 25 U.S.C. § 5325.

GPTCHB (RCSU) AFA Effective July 21,2019

Page 8 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 19 of 33 PagelD #: 289

6.11 Use of Federal Employees. Section 104 of the Act (25 U.S.C. § 5323) regarding
retention of Federal employee coverage, rights and benefits by employees of tribal organisations
shall apply.
6.12 Special Earmarked Programs, Services, and Functions. The GPTCHB is not
authorized under this AFA to redesign, shift, or to transfer any of die funding for any programs,
services, or functions which are subject to special restrictions imposed by Congress, accept as
may be permitted under such restrictions.
SECTION 7 - METHOD OF PAYMENT
Funds shall be paid as expeditiously as practicable, in accordance with Contract Section 2.62
[methods of payment] for the PFSAs identified in this AFA. The payment for the period covered
by this AFA shall be made in lump sum payments through the system utilized by the IHS.
Specifically, except as otherwise provided in the Contract or this AFA, and subject to the
provisions of section 6.2, the IHS shall provide payment for any PFSAs that the GPTCHB is
assuming pursuant to the Contract and this AFA in accordance with the following payment
process. IHS shall make a lump sum payment for the amount of funds associated with the PFSAs
for the period July 21, 2019 through September 30, 2019, on the effective date of the AFA,
provided that if any FY 2019 funds that may be due have not yet been apportioned by the Office
of Management and Budget on the effective date of this AFA, the remaining amounts shall be paid
to the GPTCHB within FY 2019 funding due under this Agreement in one lump sum payment due
within twenty (20) calendar days of the apportionment of such funds. Funds subject to a
Continuing Resolution shall be paid to the GPTCHB within twenty (20) calendar days after the
date of allotment from Headquarters to the Area.
SECTION 8 - OTHER PROVISIONS
8.1 Financial Reports.
8.1.1 Single Audit. Pursuant to 25 U.S.C. § 5305(f)(1), the
GPTCHB shall provide to the Federal Audit Clearinghouse (or its successor), an annual single
organization-wide audit as prescribed by the Single Audit Act of 1984, as amended, 31 U.S.C. §§
7501-7506. The IHS and GPTCHB shall apply the cost principles located in 45 CF.R. Part 75
except as modified by 25 U.S.C. § 5325, other provisions of law, or any exemptions
subsequently granted by the Office of Management and Budget. No other audit or accounting
standards shall be required by the Secretary. Any claim by the Federal Government for
disallowed costs against the GPTCHB relating to funds received under an AFA based on a angle
agency audit report required by 31 U.S.C. Chapter 75 shall be subject to the provisions of 25
U.S.C. § 5325(f).
8.1.2 Annual Financial Reports. The GPTCHB will submit an annual
financial status report regarding receipt and expenditure of funds paid by IHS to the GPTCHB
under tills AFA within 180 days after the close of the federal fiscal year. This report is to be
submitted to IHS Great Plains Area Contract Proposal Liaison Officer (“CPLO”).

GPTCHB (RCSU) AFA Effective July 21,2019

Page 9 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 20 of 33 PagelD #: 290

8.1 J Program Report. Hie GPTCHB will provide a brief annual pro gram report
on or before ninety (90) days after the end ofthe federal fiscal year. 25 U.S.C. § 5305(f)(2), 25
C.F.R. § 900.65. This report is to be submitted to IHS Great Plains Area CPLO.
8.2 Records.
8.2.1 Incorporation of the Privacy Act The records of the GPTCHB shall not
be considered Federal records for the purpose of chapter 5 of title 5 of the United States Code,
except that
8.2.LI Records Disclosure. Patient records, financial records and
personnel records may be disclosed only in accordance with 5 U.S.C. § 552a(b) and other
applicable law; and
8.2.1.2 Records Storage. Pursuant to 25 U.S.C. § 5324(o), the patient
records generated by the GPTCHB may be stored, at the option of GPTCHB, at Federal Records
Centers to the same extent and in the same manner as other Health and Human Services patient
records.
8.2.2 Confidentiality Standards. The GPTCHB will maintain
confidentiality in accordance with HEPAA and HITECH, the Federal Privacy Act of
1974 to the extent it is applicable, and other federal law and regulations are
applicable.
8.2.3 EHR and RPMS. The GPTCHB will have access to use Electronic Health
Record (“EHR”) and Resource Patient Management System (“RPMS”), The GPTCHB will
provide Tier 1 functions to maintain the RPMS Systems. IHS will setup a separate server to host
the RPMS patient database. IHS will preload patient information for the OST and CRST
members, which will include a complete copy of the electronic health, record for these patients.
IHS will work with the GPTCHB to export the Patient information for OST and CRST Tribal
members. The Electronic Health Record will point to the newly setup RPMS Server to provide
the Graphical User Interface. This process will also provide access to and use of the Health
Information Exchange, the Continuity of Care Document (“CCD”), scanned records as a PDF, or
a copy of the original paper record that is still on site. The CCD is an electronic document
exchange standard for sharing patient summary information. The parties agree to enter into a
data security agreement, and the MPA Joinder Agreement to engage in the Health Information
Exchange (HIE).
8.2.4. Maintenance of Records. Pursuant to 25 U.S.C. § 5305(a), each recipient
of federal financial assistance shall keep such records as foe appropriate Secretory shall prescribe
by regulation promulgated under sections 552 and 553 of title 5, including records which fully
disclose foe amount and disposition by such recipient of foe proceeds of such assistance, foe cost
of the project or undertaking in connection with which such assistance is given or used, foe
am mint of that portion of the cost of foe project or undertaking supplied by other sources, and
such other information as will facilitate an effective audit. These records shall consist of

GPTCHB (RCSU) AFA Effective July 21,2019

Page 10 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 21 of 33 PagelD #: 291

quarterly financial statements for the purpose of accounting for Federal funds, the annual single­
agency audit required by chapter 75 of title 31 and a brief annua l program report.
83 Exemption from Fees, The GPTCHB’s health program employees shall be exempt
from payment of licensing, registration and any other fees imposed by a Federal agency to die
same extent that officers of the Public Health Service Commissioned Corps and other employees
of the IHS are exempt from such fees pursuant to 25 U.S.C. § 1616q.
SECTION 9 - SUCCESSOR ANNUAL FUNDING AGREEMENTS
As provided in the Contract, Section 2.14 [successor AFA; in general], negotiations for a
successor AFA shall begin no later than 120 days prior to the conclusion of the preceding AFA.
The amount of funds required to be provided for each successor AFA shall only be reduced in
compliance with the requirements of 25 U.S.C. § 5325(b).
SECTION 10 - MODIFICATION OF THIS AGREEMENT
10.1 Form of Modification, Except as otherwise provided in this AFA, the ISDEAA
Contract or by applicable law, any modifications to this AFA shall be in the form of a written
modification and signed by both the GPTCHB and the IHS.
10.2 Modification to Add Additional Programs. The GPTCHB reserves the right to
identify other PFSAs that it wishes to include in this AFA by modification during the term of this
AFA. If the Contractor’s proposals) to include additional activities is approved by IHS, this
AFA will be modified to include such PFSAs.
10J Funding Increases. Modifications to add funds to this AFA will not require
written consent of the GPTCHB. Within two (2) calendar weeks after any increase in funding is
provided to the GPTCHB, the IHS shall provide the GPTCHB written documentation of the sub
activity source and distribution formula for the funding. The transfer of any increase in funding
by the IHS to the GPTCHB through modifications without the written consent of die GPTCHB
shall not be construed to limit or prejudice die rights of the Tribe to dispute the amount of the
increase under Contract section 2.12 [disputes].
10.4 Decreases. Except as provided by 25 U.S.C. § 5325(b), and pursuant to section
6.8 [funding adjustments due to congressional actions], this AFA shall not be modified to
decrease or delay any funding except pursuant to written agreement of the parties.
SECTION 11 - ATTACHMENTS.
The following documents are attached as Attachments to this AFA and hereby incorporated in
their entirety in this AFA:
Attachment A - Scope of Work
Attachment B - Funding Tables listed in Section 6.1.1 [106(a)(1) amount]

GPTCHB (RCSU) AFA Effective My 21,2019

Page 11 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 22 of 33 PagelD #: 292

GREAT PLAINS TRIBAL CHAIRMEN’S HEALTH BOARD,
CONTRACTOR
DATED THIS 31st DAY OF MAY, 2019
BY:
—rrf
JBRILYWCHURCH
CHIEF EXECUTIVE OFFICER
GREAT PLAINS TRIBAL CHAIRMEN’S HEALTH BOARD
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
INDIAN HEALTH SERVICE
DATED THIS 31st DAY OF MAY, 2019

James R. Driving
BY: Hawk-S

Digitally signed by James R.
Driving Hawk -S
Date: 2019.06.03 18:25:31 -05'00'

JAMES DRivmGHAWK
AREA DIRECTOR
GREAT PLAINS AREA INDIAN HEALTH SERVICE

GPTCHB (RCSU) AFA Effective July 21,2019

Page 12 of 12

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 23 of 33 PagelD #: 293

Attachment A to the FY 2019 Annual Funding Agreement of
the GREAT PLAINS TRIBAL CHAIRMEN’S HEALTH
BOARD
Rapid City Service Unit
Contract No. HHS -1-241-2019-1111
SCOPE OF WORK
Pursuant to the Indian Self-Determination and Education Assistance Act, Pub. L. 93-638, as
amended, codified at 25 U.S.C. §§ 5301-5423 (hereinafter “ISDEAA"), the Great Plains Tribal
Chairmen’s Health Board (“GPTCHB”) will plan, conduct, and administer the programs,
functions, services, and activities (or portions thereof) (“PFSAs”) of the Rapid City Service Unit
(“RCSU") that are associated with the Oglala Sioux Tribe (“OST”), and Cheyenne River Sioux’
Tribe (“CRST”) (hereinafter “Two Tribes”) program shares (including PFSAs to serve the RCSU
Unaffiliated Indians associated with the shares of the Two Tribes) (hereinafter collectively
referred to as “GPTCHB PFSAs”). These PFSAs are redesigned pursuant to 25 U.S.C. §
5325(o) and described in this Scope of Work (“SOW”), which is attached and incorporated by
reference into the Annual Funding Agreement (“AFA”) as Attachment A.
SECTION 1 - GENERAL CONDITIONS.
1.1 - Leadership and Direction. All PFSAs carried out by the GPTCHB are provided under the
ultimate direction of the Board of Directors of the GPTCHB, which considers the advice and
recommendations of the Mni Luzahan Wicozani Advisory Committee, whi ch is comprised
of two members and an alternate appointed by each of the Two Tribes that are served by the
RCSU and have authorized program assumption and additional community members who
reside in Rapid City and were selected by the tribally appointed members. Direction of the
program is carried out by the executive staff of the GPTCHB as provided by the Board.
Any GPTCHB PFSA described in this SOW may be performed by any organizational unit
of the GPTCHB at its discretion
1.2 - Redesign. The GPTCHB has redesigned the GPTCHB PFSAs carried out by the IHS in the
RCSU to maximize GPTCHB’s potential to achieve the following goals consistent with the
Healthy People 2020 to:
•
attain high-quality, longer lives free of preventable disease, disability, injury, and
premature death;
•
achieve health equity, eliminate disparities, and improve the health of American
Indians and Alaska Natives;
•
create social and physical environments that promote good health; and
•
promote quality of life, healthy development, and healthy behaviors across all life
stages; and to meet the objectives of the Indian Health Care Improvement Act,
Pub. L. 94-437, as amended. 25 U.S.C. § § 1602(2) and
https://www.cdc.gov/oralhealth/about/lieaithv-peoDle.html. The redesigned
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21, 2019

Page 1

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 24 of 33 PagelD #: 294

GPTCHB PFSAs are modeled after the award-winning Southcentral Foundation
Nuka System of Care that is a relationship-based approach to transforming
health care, improving outcomes and reducing costs. As implemented by
GPTCHB, the redesigned GPTCHB PFSAs will
treat the whole person, not only the presenting health condition, where ever the
beneficiary is in the health care continuum, including those who are totally
disconnected;
support a “person-first” approach that eliminates service delivery barriers;
ensure highly coordinated care from outreach through follow-up; and
encourage collaboration and coordination with other providers, agencies, and
tribes to assure that a continuum of coordinated care as described in more detail
in § 1.3 [coordination and collaboration].
The Indian Health Service (“IHS”) agrees to the GPTCHB’s proposal to redesign the
GPTCHB PFSAs, as provided in this SOW, provided GPTCHB is able to carry out
these redesigned PFSAs through rebudgeting and/or by using non-IHS provided funds
and without reducing the resources and services associated with the GPTCHB PFSAs
at the RCSU.
1.3 - Coordination and Collaboration.
1.3.1 Other Indian Health Programs.
1.3.1.1 Generally. The PFSAs under this SOW will be performed in coordination
and collaboration with other health programs of the GPTCHB, the IHS and the
Two Tribes on their respective reservations. To the extent any of the Two Tribes
carries out RCSU PFSAs under a contract or compact with IHS, the GPTCHB
will coordinate and collaborate, and may enter into cooperative agreements with
them to ensure seamless delivery of coordinated and integrated PFSAs. Such
coordination and collaboration includes making and receiving appropriate
referrals to and from other health programs. GPTCHB wall utilize a
multidisciplinary team approach to the provision of health care services.
Nothing in this SOW will diminish the funding associated with the PFSAs
currently being carried out by the OST and the CRST on their respective
reservations or by OST in the RCSU.
1.3.1.2 Collaboration with Services Carried Out on the Reservations of the Two
Tribes. To the extent services and resources are available, GPTCHB may accept
referrals to the Sioux San Community Health Center from IHS or tribal health
programs operating on the reservations of the Two Tribes.. Under this SOW,
GPTCHB may deliver servi ces directly to health programs of the Two Tribes on a
reservati on of the Two Tribes, provided all such services must (1) have been
authorized by the Tribe ; and (2) not diminish the resources available to serve
IHS beneficiaries of the GPTCHB PFSAs at RCSU.
1.3.2 Others. To assure continuity of care, coordination of services, and to protect the right
of Indian beneficiaries to receive high quality care and to obtain health services and
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21,2019

Page 2

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 25 of 33 PagelD #: 295

benefits to which they are entitled, the GPTCHB will collaborate with other
governmental and private health programs and agencies and will provide outreach and
services in locations throughout the area described in section 1.5 [facilities and
locations].
1.4 - No Additional Funding. The GPTCHB agrees that the GPTCHB’s decision to redesign
and/or to carry- out additional PFSAs (i.e. PFSAs not provided by the IHS at the RCSU
immediately before the GPTCHB’s assumption of the GPTCHB PFSAs described herein),
including PFSAs associated with coordination or collaboration under section 1.3
[coordination and collaboration], does not increase the amount of funding owed under the
ISDEAA.
1.5 -Facilities and Locations. The principal location for delivery of services of the RCSU is the
Sioux San Hospital and its campus. The GPTCHB provides the PFSAs described in this
SOW, including preventative health and education services, out of more than one facility or
location listed in Appendix A, Facilities and Locations.
1.5.1 Purchased/Referred Care (“PRC”) Delivery Area (“PRCDA”). The PRCDA for
the Rapid City Service Unit is Pennington County and does not include any area
within the reservation boundaries of any Tribe.
1.6 - Modalities of Service. Subject to the availability of funding, the GPTCHB delivers the
GPTCHB PFSAs through direct, telehealth, referral, and purchased services and through
purchasing health coverage.

SECTION 2 - STANDARDS OF CARE
The GPTCHB shall administer and perform the GPTCHB PFSAs described in this SOW in
accordance with the program standards set forth in Section 2.3 [program standards] of the
Contract between the GPTCHB and the Secretary acting through the IHS.
SECTION 3 - HEALTH SERVICES
GPTCHB will provide comprehensive primary care, specialty services, and community-based
services for the RCSU and in other locations as described in Section 1,5 [facilities and
locations]. The GPTCHB will provide ambulatory care services and referral services to enhance
the delivery of primary health care in the areas of health promotion and disease prevention.
GPTCHB is committed to and strives to provide a holistic, culturally competent health program
that encourages wellness, addresses public health, is designed to improve health status, and
assures quality health care services that meet applicable standards. The local, Area, regional, or
national level departmental PFSAs to be contracted, including administrative functions, are as
follows:
3.1 - Primary and Urgent Care Services will be provided to address acute, chronic, and
preventive health needs. Disciplines include family practice, internal medicine, pediatrics,
geriatrics, and women’s health, including outpatient care in collaboration with OB/GYN
providers. Services within these disciplines include screening, diagnosis and treatment
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21,2019

Page 3

Case 5:19-CV-05045-JLV Document 18-9 Filed 10/04/19 Page 26 of 33 PagelD #: 296

through physical examinations including well baby and child screening and exams,
wellness examinations, sports and occupational physicals, and examinations necessary to
diagnose and respond to illness and injury, and sexual assault examinations; minor
outpatient surgical procedures such as incision and drainage of abscesses, biopsy and
excision of skin lesions; musculoskeletal injections; prescribing or dispensing medications;
immunizations and tracking; in-office labs; dietitian and nutrition services; health referral
services, case management for chronically ill, high-risk, or others; and coordination among
and support of clinical providers (including specialists), behavioral health, and social
services.
3.2 -Specialty Services will be provided to complement and provide a fuller range of diagnostic
and treatment options than may be available through primary and urgent care to address
chronic and acute illnesses and diseases and consequences of injuries, and to achieve or
sustain functioning. Specialized clinical emphases will include:
3.2.1 Podiatry Services will be provided to include examination, diagnosis, medical
treatment, minor surgical treatment, and adjuvant treatment of any disease, injury,
deformity, or other condition of the human foot and ankle, including prescription and
administration of medications, referrals, or other forms of treatment. Podiatric services
also include preventative care and hygiene/dietary information services.
3.2.2 Diabetes Services will be provided to include diabetes assessment, treatment,
management, and prevention includes activities and services to encourage healthy
lifestyles to reduce incidence and complications of diabetes, including prevention
and exercise programs; registration of at-risk patients; blood screening; tobacco
usage/exposure programs; nutritional counseling and education; dietician services;
medication management; foot care assessment and treatment.
3.2.3 Dermatology Services will be provided to include diagnosis and treatment
(including minor surgical procedures) of skin, hair, nail and mucous membrane
disorders and conditions; and preventative skin care and education.
3.2.4 Eye and Vision Care Services will be provided to include eye care education and
initial assessment and referral for additional services including optometric and
ophthalmologic diagnostic examinations; treatment and management of diseases and
disorders of the visual system, the eye, and related structures, including glaucoma,
amblyopia, macular degeneration; treatment and diagnosis of related systemic
conditions such as diabetes; and basic corrective eye treatment, including vision
assessments, eye evaluations, retinal assessments, frame adjustments and repairs,
contact lens fittings, and dispensing of frames, eyeglass lenses, contact lenses, and
low vision aids.
3.2.5 Audiology Services will be provided to include ear care education; ear injury
prevention education; initial assessment and referral for treatment of hearing loss or
other disorder or diseases of the aural system and related structures; assistance to
individuals affected by hearing loss; and dispensing of hearing and audio aids.
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21,2019

Page 4

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 27 of 33 PagelD #: 297

3.3 - Ancillary Services will be provided to support medical diagnosis and .treatment and
include well child and adult screening; physical examinations; diabetes and cancer screening;
diagnostic radiography/imaging, including radiology, mammography, ultrasound, diagnostic
laboratory services, bone density screening, and EKGs; microbiology; drug screening
analysis; health information services; behavioral health; and medicai supply and equipment
distribution to patients.
3.4 - Pharmacy Services will be provided to include dispensing medications to patients;
medication treatment and management; specialized or focused medications, including anti­
coagulation therapies and oncology therapies to the extent feasible; patient care coordination
through one-on-one consultations for patient medication management. The Contractor will
participate in the IHS’s medical supply and pharmaceutical system (including the VA CMOP
service) as needed.
3.5 - Therapeutic Rehabilitation and Habilitation Services will include integrative and
complementary health services such as acupuncture, chiropractic care, and massage therapy
provided in accordance with applicable national professional certification and accreditation
standards and professional licensing or certification requirements.
3.6 - Oral Health Services
3.6.1 Dental Services will include diagnosis, treatment, and prevention of dental problems
and diseases. Services include oral health assessments; basic to comprehensive oral
care for pediatric, adult, and geriatric patients. Services may include orthodontia,
periodontics, endodontics, and prosthetics; restorative and preventative care.
3.6.2 Dental Hygiene provides dental care, prevention and educational services, including
exams, outreach, hygiene instruction and diet counseling, pit and fissure sealants, oral
hygiene instruction and dental prophylaxis. Sendees include specialized outreach and
care for individuals and groups including school age children, adults, elders, and
expectant mothers, and diabetic patients.
3.7 - Behavioral Health Services include screening, diagnosis and treatment of mental health
and substance use disorders services and are provided in conjunction with primary and
urgent care services and in other settings. Elements of behavioral health services include
trauma-informed services and training; behavioral health case management; mental health
evaluation and therapy; individual, family, and group counseling; marriage and couples
therapy; parenting classes; anger management sessions; talking circles; crisis intervention
services; psychotherapy; psycho-social assessments; medication management; substance
use disorder and addiction screening, diagnosis and treatment, fetal alcohol spectrum
disorder (FASD) identification and education; support groups; injury prevention services
for the protection of individuals impaired by alcohol and substance abuse or mental health
disorders; and social, recreational, and cultural activities that promote being drug and
alcohol free, including sweat lodges, pow-wows; court-referred or court-ordered assessment
and intervention services.
3.7.1 Youth Development Services are designed to promote and develop leadership skills,
healthy lifestyles, and cultural pride, and self-confidence and self-esteem. These
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21,2019

Page 5

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 28 of 33 PagelD #: 298

services include culturally appropriate activities and services that give youth an
opportunity to leam and practice healthy and functional life skills through their
interactions; services that assist and support youth to lead healthy, productive lives and
to engage fully in educational and other age-appropriate activities, including student
support activities, career exploration and work experience, and life skills training; and
child development services and family services.
3.7.2 Community Child Welfare and Family Services will include health, behavioral
health, and preventive services that may include emotional support services; substance
abuse counseling and other treatment; health information and education; prevention of
and services that respond to child physical abuse, sexual abuse, neglect, and other
conditions that place a child at physical or emotional risk; services to prevent and
respond to domestic violence, advocacy; temporary shelter referral and support,
counseling, health and educational services; foster home advocacy and supportive
services; child development and family services, including, health-oriented education;
socialization; and health screening. Services will also be provided to prevent and
address abuse and exploitation of adults who are elderly, disabled, or otherwise at risk.
3.7.3 Community’ Safety and Violence Prevention includes comprehensive sendees to
victims of domestic violence and sexual assault using a multi-disciplinary, culturallyspecific, person centered confidential approach; identification of individual/family needs
regardless of age, gender or sexual identity; short-term counseling; access to critical
information; coordination of referrals; and/or individualized or community education
and training events for community awareness. Additional services for prevention of
domestic violence and care of individuals affected by domestic violence include safety
planning; criminal justice advocacy and support; emergency needs resources including
transportation, housing/shelter assistance referral and support; children supportive

services; emotional and personal advocacy; and coordination with other regional and
Tribal programs. Services will also be provided to beneficiaries who are incarcerated or
placed at youth or adult detention or correctional facilities.
3.8 - Community' Based Services
3.8.1 Health Education will include providing information, education, public sendee
campaigns, activities, and programs that support community health, including indoor
and outdoor wellness activities (including services and support to promote physical
activity and fitness, and recreational activities); bicycle safety programs; development
of Indian leadership; patient and group health education sessions; sex education;
social support activities; nicotine control/cessation education; diabetes education and
prevention; cardiovascular health promotion; injury prevention activities; cancer
prevention; life skills training; healthy cooking and diet education; community
gardening and greenhouse; nutrition services, including promotion of natural and
traditional foods; screening and testing for tuberculosis and other contagious diseases;
needlestick and blood-borne pathogen prevention and treatment; immunizations and
vaccinations; community health consultation and coordination meetings; community
assessment surveys; participation in local, regional, and state health fairs; joint
elder/youth events and activities; integration of employee and community health
programming at cultural-based activities and events; and assisting community
GPTCHB R.CSU AFA Attachment A - Scope of Work Effecti ve July 21, 2019

Page 6

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 29 of 33 PagelD #: 299

members in identifying resources for health maintenance.
3.8.2 Public Health Nursing will include direct and indirect patient care; health promotion
and disease prevention, immunizations, sexually transmitted diseases and other
infectious disease prevention, treatment and tracing; identification and surveillance of
communicable diseases through active participation in local, regional and state
initiatives and reporting requirements; intervention in other potential individual and
community public health issues.
3.8.2 Home and Community-Based Services will include a broad array of care and other
supportive services, including providing assistance with activities of daily living
for individuals who are unable to perform activities of daily living on their own, or
when the families are unable to meet all of their needs; assistance with making the
client’s home safe and accessible; chore services and personal care services;
pharmacy delivery; and development of infrastructure for a long-term care program for
the Tribal community as the Tribal population ages over time. To the extent
applicable, these services are provided in accordance with 25 U.S.C. § 162Id.
3.8.3 Maternal and Child Health Services will include prenatal and early childhood inhome care visits; pre-natal and sudden infant death syndrome (SIDS) prevention
education; immunizations; nutritional education; maternal and family counseling;
assessments of at-risk families; escorts and rides to health appointments; and bonding
and habilitation services.
3.8.4 Nutrition Services include nutrition/dietetic education, food supplements, counseling,
and other nutritional services and support for women, infants, children, and others who
are at nutritional risk.
3.8.5 Other Community Health Services provided by community health representatives
and other providers include community-based and home-based healthcare services
including well person and chronic care; prevented services; promotion of
immunizations, family planning, prenatal care, pharmacy delivery service; patient care
case management, home healthcare and monitoring of diabetic patients and others with
chronic or acute illness or diseases; hospice counseling, early childhood and schoolbased health programs including screening, diagnosis, and treatment services; and
promotion of ear, nose and throat and audiology screening; an oral health and hygiene
awareness; sponsoring and participating in programs to increase physical activity,
health fairs, and other programs designed to improve health and encourage prevention
and early intervention.
3.9 - Traditional Health Care will be provided subject to 25 U.S.C. § 1680u.
3.10- Access to Care Services and Support
3.10.1 Transportation Services include coordination and support of and providing
transportation services, including temporary lodging and meals, for individuals who
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21,2019

Page 7

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 30 of 33 PagelD #: 300

need assistance to get to and from health care appointments at Sioux San and other
providers and for other health related activities. Transportation is also provided to
other locations and activities that are necessary for or contribute to continued
independent living, wellness, and quality of life, including injury prevention and
reduction in social isolation and increasing opportunities for socialization and
activities. Transportation services may include providing transportation for patient
escorts pursuant to 25 U.S.C. § 1621/.
3.10.2 Care Coordination Services includes consulting, advocating, and assisting with
coordinating patient case-management with other providers; coordination of care
services for patients requiring special needs or services such as advanced directives to
hospitals; assisting patients and families with advocacy for unmet needs; providing
technical assistance to Tribal leadership and Administration with analysis and
development of Tribal social welfare policy; and coordinating education and training
related to community health needs and problems.
3.10.3 Benefit Outreach and Assistance will be provided to include assisting patients in
determining and applying for health care benefits that may improve access to health
services or quality of life; assisting individuals to purchase health insurance; assisting
individuals in obtaining alternative funding for health care services; and assisting in
forms processing and completion, and/or serving in a patient advocate role while
working with benefit providers including third-party intermediaries, outside vendors or
insurance companies.
3.10.4 Purchased/Referred Care provides referrals and, when appropriate, authorizes
funds to support such referral of eligible patients, within medical priorities established
by GPTCHB for the RCSU. Referral for PRC may be made to providers located
outside the PRCDA and follow-up and supportive services may be provided in those
locations.
3.10.5 Health Coverage will be provided. GPTCHB may utilize funds under this
Annual Funding Agreement for the purchase of health services and health
insurance benefits and to plan for implementation of a program provide premiums
for health benefits coverage in accordance with 25 U.S.C. § 1642.
3.11 - Emergency and Disaster Preparedness and Response Services include mitigation and
prevention of, preparation for, response to, and recovery from the effects of natural, man­
made, and biological events, including mutual aid agreements with tribal, local, state and
federal governments and operation and support of warning and evacuation systems;
coordination with public and private fire and emergency medical transportation; emergency
planning with other governments; civilian emergency response training; fire and health
safety trainings.
3.12 - Environmental Health Program. The GPTCHB promotes comprehensive
environmental health services that incorporate for all program elements the following
common services: (1) monitoring environmental health status through survey, surveillance,
and investigative programs; (2) providing training and educational materials to increase
awareness of environmental health issues; (3) ensuring a competent workforce; (4)
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21, 2019

Page 8

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 31 of 33 PagelD #: 301

evaluating programs; and (5) researching, developing and applying best practices and
innovative approaches to reduce hazardous conditions and risk factors that could lead to
environmentally-related illness or to injury.
The program elements associated with environmental health are air quality; community
facilities and institutions; drinking water quality; emergency management;
environmental sustainability; injury prevention, food safety to prevent foodbome
illness and provide training and education regarding safe food; health care and
residential institution safety; healthy housing; mass gathering and recreations site
safety; occupational safety; vector borne and communicable disease control; and waste
management.
The GPTCHB collaborates with IHS and other agencies to assure that the GPTCHB
program staff are well informed about and able to promote environmental health within all
of GPTCHB PFSAs among the agencies with which it collaborates to obtain services for
and those that provide services and support to its beneficiaries, and among the patients
served by GPTCHB.
3.12.1 Injury Prevention Services include home, work place, and community safety and
injury prevention programs; participation in local first responder teams; providing
health and medical services; liaising with tribal, local, state, and federal governments
and agencies directed at preventing intentional and unintentional injuries and death;
driver safety program; drunk and distracted driving prevention and education; home
safety checks; cold and inclement weather injury prevention activities; child car seat
programs and education; animal control; gun safety programs; emergency preparedness
trainings; water safety programs; bicycle safety programs; bicycle helmets; and safety
reporting programs.
3.12.2 Facilities Program provides technical advice, administration, assessments, surveys,
management, direct maintenance and repair, improvement, construction, and
professional engineering services to assure that all GPTCHB-owned, leased or operated
facilities used by GPTCHB to provide PFSAs under the Contract and AFA meet
applicable standards and are safe and appropriate for the delivery of the PFSAs
described in this SOW. Services also include planning, managing and implementation
of capital improvements to increase access to health care and improve facilities for the
delivery of health care. Coordination with IHS will occur as required by applicable
law.
3.13 - Health Services Training includes clinical rotations, mentoring, shadowing, training, and
supervision of health care providers; offering sites for medical residents and other
individuals obtaining training in the health professions, including behavioral and dental
professions and community health representatives; providing direct support and orientation,
training, and continuing education for providers, employees, Board and Advisory
Committee members, and others with regard to their practices, roles, and responsibilities;
concerning health care operations and clinic governance. To the extent applicable,
GPTCHB will comply with 25 U.S.C. § 1665e,
3.14- Support Services
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21, 2019

Page 9

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 32 of 33 PagelD #: 302

3.14.1 Generally includes providing direction, program and staff supervision,
organizational and program planning, administrative support (including telemedicine
and telecommunications), facilities and equipment management, maintenance and
improvements; health facility support including housekeeping and security; mail room
functions; inventory control; budget development and maintenance; coding health and
third-party billing; grant writing; contract development and management; purchasing
management; technology management; coding functions (such as ICD-9 and 10, CPT,
HCPCS, and DSMIV); strategic planning; and reporting statistics, as appropriate.
3.14.2 Financial Management includes organizing, coordinating, and executing budget and
financial operations and accounting; providing or enhancing tribal enterprise systems including hardware, software, and policies and procedures; and developing specialized
fiscal reporting for the successful operation of a comprehensive health system.
3.14.3 Human Resources includes personnel services, staffing, recruitment, retention, job
classification, pay and benefits administration, training, continuing education and
development, employee relations, human resources information systems and employee
health.
3.14.4 Health Center and Other Program Facility Services include providing
housekeeping, including waste, trash, and infectious waste removal, linen management,
routine and urgent cleaning for the hospital and other facilities where health PFSA’s
occur; and infection control, including reduction of risks of endemic and epidemic
nonsocial infections in patients, healthcare workers, and other accomplished through
surveillance methodologies that include education, and reporting internally and, when
appropriate to outside public health agencies.
3.14.5 Information Technology includes technical information management services,
including hardware, software, licenses, applications development,
telecommunications, remote data services, overall systems and operations management
including senior leadership level information management. It further includes
supporting, assembling, configuring, procuring, and providing electronic health record
systems, health information exchange, patient portals, RPMS/PCC and other software
applications; system implementation and support, including data entry and processing
for RPMS/PCC, patient care and other medical record and billing systems; data
management including clinical information systems and health information exchange
interfaces coordination, integration and transmission of data, such as Medicaid and
eligibility information, statistics and reports; RPMS and other technical manuals;
compliance monitoring and response (including meaningful use, privacy and security
best practices), workforce training, practitioner education and outreach, and accessing
national health information resources adhering to industry best practices, which may
include IHS/HHS Standard Operating Procedures.
3.14.6 Performance Improvement and Compliance includes monitoring and evaluating
quality and value of services and includes providing education, coordination and
support in areas of continuous quality improvement, health provider credentialing,
risk management, patient surveys and issues related to complying with certifying and
GPTCHB RCSU AFA Attachment A - Scope of Work Effective July 21, 2019

Page 10

Case 5:19-cv-05045-JLV Document 18-9 Filed 10/04/19 Page 33 of 33 PagelD #: 303

regulatory agencies such as those for the Centers for Medicare & Medicaid Services
(“CMS”)- Utilization review functions are also provided. It also provides sendees
including technical and professional consultation and direct services to all departments
including safety management programs; hazard surveillance monitoring; hazardous
materials and waste management; monitoring of contracts for pest control, regulated
medical waste and hazardous waste, and activities involved with CMS survey and
applicable OSHA requirements.
3.14.7 Business Office and other Operational Support functions include support and
coordination of patient registration, patient benefits coordination, coding, third-party
billing, review of aged accounts, revenue cycle management, debt management, and
denial management, electronic health record (“EHR”) implementation through a
dedicated Resource and Patient Management System (RPMS).
3.14.8 Resource and Patient Management System (RPMS) or successor system used for
patient data management, collecting data on reimbursable expenses incurred by
patients, generating bills for collection from other payers (primarily Medicare,
Medicaid, and private insurance), conducting utilization review, insurance
verification, and collection activities.
3.15 - Tribal Leadership Representation will be provided. In support of the PFSAs
identified in this Agreement, GPTCHB members, Mni Luzahan Wicozani Advisory
Committee members, and other tribal leaders provide health care advocacy on an area,
state, and national level, including participation in and serving on national, state, local
and tribal health related committees, boards, and other groups.
3.16 Program Statistics produces statistical information and publications that measure and
document the progress in assuring access to health care services and improving health
status; generating and retaining historical and foundational documents that will support
program evaluation and new health initiatives; facilitates exchange of health
information among care providers; and maintains records and makes reports regarding
disease, injury and vital events.

GPTCHB RCSU AFA Attachment A - Scope of Work Effective My 21, 2019

Page 11

Case 5:19-cv-05045-JLV Document 18-6 Filed 10/04/19 Page 1 of 9 PagelD #: 250
CHAIRMAN
Harold C. Frazier

BERS

SECRETARY
EvAnn White Feather

Appendix F
(9 pages)

TREASURER

ICT 1
Woods
Woods

ICT 2
i neoaore Knife, Jr.

Benita Clark
VICE-CHAIRMAN
Bernita In The Woods

DISTRICT 3
Edward Widow
John C. Kessler

DISTRICT 4
James L. Pearman
Vincent T. Dupris
Merrie Miller
Mark J. Knight

P.O. Box 590
Eagle Butte, South Dakota 57625
Phone: (605) 964-4155
Fax: (605) 964-4151

DISTRICT 5

TRIBAL MEMORANDUM

Ryman LeBeau
Robert "Bob" Walters
Randel J. "RJ" Lawrence
Derek Bartlett

DATE

01/10/19

TO

SUPERINTENDENT, Cheyenne River Agency

FROM

Ev Ann White Feather, Tribal Secretar^^^

DISTRICT 6
Tuffy Thompson
Wade Tater Ward

SUBJECT
Resolution No. 1-2019-CR: that the authority invested in the GPTCHB in this
Resolution shall continue, without regard to the decision to withdraw of any of the three tribes to
initially authorize assumption, and shall include the following additional authority and conditions1. Any reference to the “Unified Health Board" or the “Unified Health Board Advisory
Committee” that addresses providing advice to the GPTCHB with regard to the RCSU
shall be replaced by the “Mni Luzahan Wicozani”;
2. This Resolution is not dependent on the action of any other Tribe;
3. The Cheyenne River Sioux Tribe endorses construction of the new health facility in
Rapid City at the Shepherd Hills site and the preservation of the Sioux San site under
the operation of the GPTCHB,4. No reference to a Tribe that has withdrawn from participation in the assumption of the
RCSU or any construction activity shall have effect under this Resolution;
5. The GPTCHB is additionally authorized to provide services of the RCSU on the
Cheyenne River Indian Reservation, with the agreement of the Cheyenne River Sioux
Tribe, provided delivery of such services do not diminish the services available in
Rapid City; and
★ A’**#******’* W* ■*"********★*****■******■**■*■*■■*-****•*■■*•■*■*-*•*-*****,t,^.**

********************** ^^T****************************^

Transmitted herewith are an original and two (2) copies of Resolution No. 1-2019-CR which was
duly adopted by the Cheyenne River Sioux Tribal Council during its Special Session held on
January 9, 2019.
EWF/kr
Cc:

Chairman
Treasurer
Administrative Officer
Tribal Comptroller
Central Records

District Officers (6)
Health Committee Chair
File/2

The blue represenls^ie^uncSrc^u^alwe^ world where live the thunder birds who control the four winds. The rainbow is for the Cheyenne River
Sioux people who are keepers of the Most Sacred Calf Pipe, a gift from the White Buffalo Calf Maiden. The eagle feathers at th e edges of the rim of the
world represent the spotted eagle who is the protector of all Lakota. The two pipes fused together are for unity. One pipe is for the Lakota the other for
all the other Indian Nations. The yellow hoops represent the Sacred Hoop, which shall not be broken. The Sacred Calf Pipe Bu ndle in red represents
Wakan Tanka-The Great Mystery. All the colors of the Lakota are visible. The red, yellow, black and white represent the fo ur major races The blue is
for heaven and the green for Mother Earth.

Donovan Decl. - Exhibit 6

Case 5:19-cv-05045-JLV Document 18-6 Filed 10/04/19 Page 2 of 9 PagelD #: 251

RESOLUTION NO. 1-2019-CR
RESOLUTION OF THE CHEYENNE RIVER SIOUX TRIBAL COUNCIL
OF THE CHEYENNE RIVER SIOUX TRIBE
(An Unincorporated Tribe)
PURPOSE: A RESOLUTION OF THE CHEYENNE RIVER SIOUX TRIBAL COUNCIL OF
THE CHEYENNE RIVER SIOUX TRIBE TO AMEND CHEYENNE RIVER SIOUX TRIBAL
COUNCIL RESOLUTION No. 104-2018-CR.
WHEREAS, the Cheyenne River Sioux Tribe of South Dakota is an unincorporated Tribe of
Indians, having accepted the provisions of the Act of June 18,1934 (48 Stat. 984); and
WHEREAS, the Tribe, in order to establish its Tribal organization; to conserve its Tribal property;
to develop its common resources; and to promote the general welfare of its people, as ordained
and established a Constitution and By-Laws; and
WHEREAS, the Tribal Constitution authorizes the Tribal Council, in Article IV Section 1 (a) to
negotiate with the Federal, State, and local governments on behalf of the Tribe, and in Section 1
(m) to protect and promote the health and welfare of the Tribe and its members; and
WHEREAS, the Indian Health Service administers the Rapid City Service Unit, including the
Sioux San Hospital; and
WHEREAS, the Cheyenne River Sioux Tribal Council passed Resolution No. 104-2018-CR on
April 5,2018 to authorize the Great Plains Tribal Chairmen’s Health Board (GPTCHB) to assume
operation of and funding for programs, services, functions and activities (PSFAs) of the Indian
Health Service (IHS) Great Plains Area Office Rapid City Service Unit (RCSU), including the
Sioux San Hospital and related area and headquarters PSFAs (including tribal shares), and
construction PSFAs and funding, pursuant to the Indian Self-Determination and Education
Assistance Act, as amended, and
WHEREAS, during the GPTCHB negotiations with IHS pursuant to the ISDEAA and Cheyenne
River Sioux Tribal Council Resolution No. 104-2018-CR, several issues have arisen, including a
present change in position of a fellow Tribe that the RCSU also serves, and
WHEREAS, the Cheyenne River Sioux Tribe has determined that it must amend Resolution No.
104-2018-CR in certain respects to continue the efforts to have the GPTCHB assume the RCSU’s
PSFAs, knowing that such assumption may ultimately be only for two of the three Tribes served
by the RCSU; now
THEREFORE, BE IT RESOLVED, that the Cheyenne River Sioux Tribe amends Resolution No.
104-2018-CR in three respects, as follows:
(1) Insert the following clauses after the last Whereas Clauses in Resolution No. 104-2018CR:
1

Donovan Decl. - Exhibit 6

Case 5:19-CV-05045-JLV Document 18-6 Filed 10/04/19 Page 3 of 9 PagelD #: 252

RESOLUTION NO. 1-2019-CR
Page Two:
WHEREAS, the Cheyenne River Sioux Tribe approves of and endorsed the creation of the Mni
Luzahan Wicozani (MLW) as the successor to the Unified Health Board with regard to the
assumption of the Rapid City Service Unit (RCSU) and construction of the new Sioux San health
facility; and
WHEREAS, the MLW has been fully informed and provided recommendations regarding all
aspects of the assumption of the RCSU, including the construction negotiations; and
WHEREAS, the negotiations for the assumption of the RCSU are nearly complete; and
WHEREAS, the Cheyenne River Sioux Tribe has been informed that the Rosebud Sioux Tribe
may have taken action to withdraw its support for the assumption of the RCSU, including new
construction, by the GPTCHB; and
WHEREAS, the Cheyenne River Sioux Tribe Tribal Council has determined that the assumption
of the RCSU by the GPTCHB will benefit all of the Indian Health Service (IHS) beneficiaries of
the RCSU and, through collaborative and shared services by GPTCHB with the Cheyenne River
Sioux Tribe and the IHS through hospital, clinic, health stations on the Cheyenne River Indian
Reservation, the assumption will benefit the members of the Cheyenne River Sioux Tribe; and
WHEREAS, the negotiations between GPTCHB and the IHS should not be disrupted, nor the dates
for completing the negotiation of the design and construction project (the end of December 2018)
and the planned program assumption date of February 17,2019 should not be delayed; and
WHEREAS, the Cheyenne River Sioux Tribal Council has determined that Resolution No. 1042018-CR should be amended to allow the negotiations and execution of GPTCHB contract(s) with
the IHS to be completed on behalf of the Cheyenne River Sioux Tribe and one or more of the other
two tribes for which IHS provides services.

(2) Delete Paragraph 6 under the BE IT FURTHER RESOLVED clause in Resolution No.
104-2018-CR and replace it with the following:
6. The authority granted herein shall take effect immediately upon the Tribe’s adoption of
this Resolution or, if later, upon the adoption of a resolution by the Oglala Sioux Tribe or
the Rosebud Sioux Tribe that has substantially the same effect as this Resolution.
(3) Insert the following clause at the end of Resolution No. 104-2018-CR:

2

Donovan Decl. - Exhibit 6

Case 5:19-CV-05045-JLV Document 18-6 Filed 10/04/19 Page 4 of 9 PagelD #: 253

RESOLUTION NO. 3-2019-CR
Page Three:
BE IT FURTHER RESOLVED that the authority invested in the GPTCHB in this Resolution shall
continue, without regard to the decision to withdraw of any of the three tribes to initially authorize
assumption, and shall include the following additional authority and conditions:
1. Any reference to tire “Unified Health Board” or the “Unified Health Board Advisory
Committee” that addresses providing advice to the GPTCHB with regard to the RCSU
shall be replaced by the “Mni Luzahan Wicozani”;
2. This Resolution is not dependent on the action of any other Tribe;
3. The Cheyenne River Sioux Tribe endorses construction of the new health facility in
Rapid City at the Shepherd Hills site and the preservation of the Sioux San site under
the operation of the GPTCHB;
4. No reference to a Tribe that has withdrawn from participation in the assumption of the
RCSU or any construction activity shall have effect under this Resolution;
5. The GPTCHB is additionally authorized to provide services of the RCSU on the
Cheyenne River Indian Reservation, with the agreement of the Cheyenne River Sioux
Tribe, provided delivery of such services do not diminish the services available in
Rapid City; and
BE IT FINALLY RESOLVED, that nothing in this Resolution diminishes, divests, alters, or
otherwise affects any inherent, treaty, statutory, or other rights of the Cheyenne
River Sioux Tribe over the property or activities described herein. The Cheyenne
River Sioux Tribe expressly retains all rights and authority over the property and
activities described herein, including but not limited to legislative, regulatory',
adjudicatory, and taxing powers.
CERTIFICATION
I, the undersigned, as Secretary of the Cheyenne River Sioux Tribe, certify that the Tribal Council
is composed of fifteen (15) members, of whom 14, constituting a quorum, were present at a
meeting duly and specially called, noticed, convened and held this 9th day of January 2019, Special
Session; and that the foregoing resolution was duly adopted at such meeting by a roll call vote of
11 yes, 2 no, 1 abstaining, and 1 absent.

Ev Ann White Feather, Secretary
Cheyenne River Sioux Tribe

3

Donovan Decl. - Exhibit 6

Case 5:19-cv-05045-JLV Document 18-6 Filed 10/04/19
CHAIRMAN
Harold C, Frazier

jSTBWERs/pg

SECRETARY
EvAnn White Feather

Page 5 of 9 PagelD #: 254
TRIBAL COUNCIL MEMBERS

DISTRICT 1
Bernita In The Woods
Bryce In The Woods

TREASURER

DISTRICT 2

Benita Clark

Theodore Knife, Jr.

VICE-CHAIRMAN
Robert Chasing Hawk, Sr,

DISTRICT 3
Edward Widow
John C. Kessler

DISTRICT 4
P.O. Box 590
Eagle Butte, South Dakota 57625
Phone: (605) 964-4155
Fax: (605) 964-4151

TRIBAL MEMORANDUM
DATE

: 04/10/18

TO

; SUPERINTENDENT, Cheyenne River Agency

FROM

: Ev Ann White Feather, Tribal Secretarys^^6^

James L. Pearman
Kevin Keckler
Merrie Miller
Mark J. Knight

DISTRICT 5
Ryman LeBeau
Raymond Uses The Knife
Robert Chasing Hawk, Sr.
Derek Bartlett

DISTRICT 6
Tuffy Thompson
Wade Tater Ward

SUBJECT

: Resolution No. 104-2018-CR; That the Cheyenne River Sioux Tribe authorizes
the GPTCHB (Great Plains Tribal Chairmen’s Health Board) to:
1 Apply for, negotiate, and contract or compact with the Indian Health Services and/or United
States Secretary of Health and Human Services to assume the PSFAs of the Rapid City
Service Unit, including the Sioux San Hospital, and related IHS Area and Headquarters
PSFAs and associated funding, and including construction related PSFAs and funding
pursuant to the Indian Self-Determination and Education Assistance Act; and
2. Pursue funding through grants or contracts available from IHS or any other federal, state
or private entity to supplement or support the objective of having the GPTCHB carry out the
Rapid City Service Unit PSFAs or equivalent activities on behalf of authorizing Tribes to the
greatest extent possible; and contains the provision.

******«************ir********»**************************i,******.ki,+i,+i,il**ir„i,i,i,1ti,i,m,i,Mi,tlil*m1li'i'i'ili'il1ii'iiiii'i'i'i'i[1'iii'i>i'

Transmitted herewith are an original and two (2) copies of Resolution No. 104-2018-CR which
was duty adopted by the Cheyenne River Sioux Tribal Council during its Special Session held on
April 5, 2018.
Cc:

Chairman
Treasurer
Administrative Officer
Tribal Comptroller
Central Records
Committee Secretary
District Officers (6)
Health Committee Chair
Health Department
File/2

The blue represents the thunderclouds above the world where live the thunder birds who control the four winds. The rainbow is for the Cheyenne River
Sioux people who are keepers of the Most Sacred Calf Pipe, a gift from the White Buffalo Calf Maiden. The eagle feathers at th e edges of the rim of the
world represent the spotted eagle who is the protector of all Lakota. The two pipes fused together are for unity. One pipe is for the Lakota, the other for
all the other Indian Nations. The yellow hoops represent the Sacred Hoop, which shall not be broken. The Sacred Calf Pipe Bu ndle in red'represents
Wakan Tanka-The Great Mystery. AH the colors ot the Lakota are visible. The red, yellow, black anrLwhite represenLthe fp ur mpjor races The blue is
for heaven and the green for Mother Earth.
Donovan Decl. - ExxilDlt O

Case 5:19-CV-05045-JLV Document 18-6

Filed 10/04/19 Page 6 of 9 PagelD #: 255

RESOLUTION NO. 104-2018-CR
PURPOSE:

To request the Great Plains Tribal Chairmen's Health Board (GPTCHB) to assume
operation of and funding for programs, services, functions and activities (PSFAs)
of the Indian Health Service Great Plains Area Office Rapid City Service Unit
including the Sioux San Hospital and related Headquarters and Service Unit
PSFAs (including tribal shares), and construction PSFAs and funding, pursuant to
the Indian Self-Determination and Education Assistance Act, as amended, and to
exercise any other legal authority under which the GPTCHB may receive and
administer grants or compete for and administer contracts in support of the PSFAs
it is authorized to assume under this resolution that would otherwise be carried out
by the Indian Health Service.

WHEREAS,

the Cheyenne River Sioux Tribe of South Dakota is an unincorporated Tribe of
Indians, having accepted the provisions of the Act of June 18,1934 (48 Stat. 984);
and

WHEREAS

the Tribe, in order to establish its Tribal organization; to conserve its Tribal
property; to develop its common resources; and to promote the general welfare of
its people, as ordained and established a Constitution and By-Laws; and

WHEREAS,

the Tribal Constitution authorizes the Tribal Council, in Article IV Section 1 (a) to
negotiate with the Federal, State, and local governments on behalf of the Tribe,
and in Section 1 (m) to protect and promote the health and welfare of the Tribe
and its members; and

WHEREAS

the Indian Health Service administers the Rapid City Service Unit, including the
Sioux San Hospital; and

WHEREAS,

the Indian Health Service has announced its intention to close the emergency
department of the Sioux San Hospital and to construct a new facility; and

WHEREAS,

the Cheyenne River Sioux Tribe appoints members to the Unified Health Board on
which appointees from the Oglala Sioux Tribe and Rosebud Sioux Tribes also
serve to provide direction to the Indian Health Service, respond to concerns
regarding the operation of the Rapid City Service Unit, and to consider and make
recommendations regarding the future of the Rapid City Service Unit; and

WHEREAS

the Unified Health Board adopted a resolution recommending that tribal
assumption of the Rapid City Service Unit should be undertaken; and

WHEREAS,

the Cheyenne River Sioux Tribe agrees that tribal assumption should occur; and

WHEREAS,

the Great Plains Tribal Chairmen’s Health Board (GPTCHB) is a tribal organization
(as that term is defined at 25 U.S.C. § 450b(/)) governed by members of the
seventeen (17) Tribes and one (1) Indian Service Area, and that serves nearly
170,000 Indians in the IHS four-state region comprised of South Dakota, North
Dakota, Nebraska and Iowa; and

WHEREAS,

the GPTCHB is comprised of democratically elected leaders from each of the
Tribes who provide direction and oversight regarding all activities of the Board; and

Donovan Decl. - Exhibit 6

Case 5:19-cv-05045-JLV Document 18-6 Filed 10/04/19 Page 7 of 9 PagelD #: 256

RESOLUTION NO. 104-2018-CR
Page Two:
WHEREAS,

the GPTCHB has worked closely with the Unified Health Board and is committed
to continuing to do so; and

WHEREAS,

GPTCHB serves as a liaison between the Great Plains Tribes the U.S. Department
of Health and Human Services and associated agencies, including Indian Health
Service, and directly provides services and technical assistance to the Tribes of
the Great Plains and works to promote the health and wellbeing of American Indian
peoples in the Great Plains; and

WHEREAS,

Tribal assumption of Indian Health Service PSFAs has proven throughout all Areas
of the Indian Health Service to increase transparency and accountability to the
Tribes served and;

WHEREAS

GPTCHB has proven experience and expertise in administrative and program
administration; and

WHEREAS,

The GPTCHB will continuously seek guidance in its activities and priorities from
the Tribes that it is serving pursuant to this Resolution; and

WHEREAS,

the IHS has given notice of its intention to build a new facility to replace the Sioux
San Hospital and the Cheyenne River Sioux Tribe has determined that
construction program functions, planning services and construction management
services, and construction projects should be carried out pursuant to the Indian
Self-Determination and Education Assistance Act, as amended, on behalf of the
Cheyenne River Sioux Tribe, Oglala Sioux Tribe, and Rosebud Sioux Tribes; and

WHEREAS,

GPTCHB will report directly, and though the Unified Health Board, to the Tribe on
its performance of PSFAs and status of funding on a routine and regular basis;
and

WHEREAS,

The Unified Health Board is prepared to serve as an advisory body to the GPTCHB
regarding planning and assumption of the Rapid City Service Unit, including
construction related PSFAs and funding, and to provide program governance and
recommendations to the GPTCHB to assure that decisions regarding the operation
of the PSFAs of Service Unit, including the Sioux San Hospital, are made in both
the best interests of the three Tribes that have authorized assumption of it and the
needs of the GPTCHB to not diminish its capacity to serve all of the Tribes of the
Great Plains Area; and

WHEREAS

The GPTCHB will not begin planning for or assume the PSFAs and funding for the
Rapid City Service Unit until and unless the Oglala Sioux Tribe and Rosebud Sioux
Tribe also authorize it to do so; and

WHEREAS,

To assure continuity of care for the people served through the Rapid City Service
Unit, including the Sioux San Hospital, orderly transition of programs and
operations of the Great Plains Tribal Chairmen’s Board, and orderly
communication and transition with the Oglala Sioux Tribe and the Rosebud Sioux
Tribe, withdrawal of this Resolution shall not be effective any earlier than thirty-six

Donovan Decl. - Exhibit 6

Case 5:19-CV-05045-JLV Document 18-6 Filed 10/04/19

Page 8 of 9 PagelD #: 257

--—

RESOLUTION NO. 104-2018-CR
Pag© Three:
months after notice is given to all parties, unless the Great Plains Tribal Chairmen’s
Board and all three Tribes agree to another time frame, provided that after the
initial thirty-six month period after assumption, the notice requirement shall be
reduced to eighteen months; now
THEREFORE, BE IT RESOLVED that the Cheyenne River Sioux Tribe authorizes the
GPTCHB to:
1. Apply for, negotiate, and contract or compact with the Indian Health Services and/or United
States Secretary of Health and Human Services to assume the PSFAs of the Rapid City
Service Unit, including the Sioux San Hospital, and related IHS Area and Headquarters
PSFAs and associated funding, and including construction related PSFAs and funding
pursuant to the Indian Self-Determination and Education Assistance Act; and
2. Pursue funding through grants or contracts available from IHS or any other federal state
or private entity to supplement or support the objective of having the GPTCHB carry out the
Rapid City Service Unit PSFAs or equivalent activities on behalf of authorizing Tribes to the
greatest extent possible; now
BE IT FURTHER RESOLVED that the authority described above shall be carried out by the
GPTCHB consistent with the following conditions:
1. During such time as this Resolution remains in effect, the Great Plains Tribal Chairmen's
Health Board shall comply with ail applicable law and current regulations under P.L 93638 and any other law applicable to the funding acquired from IHS or any other entity
pursuant to this Resolution.
2. The Great Plains Tribal Chairmen's Health Board shall provide copies to the Tribe of any
proposals, contracts, and compacts, including the addition of any PSFAs to any funding
agreement the Board determines to pursue.
3. The Great Plains Tribal Chairmen’s Health Board will provide to the Tribe copies of all final
documents, and amendments thereto, which GPTCHB enters into pursuant to this
Resolution.
4. The Great Plains Tribal Chairmen's Health Board shall provide routine and regular reports
to the Tribe, directly and through the Unified Health Board, of the work it performs under
this Resolution, and such reports shall contain both budget and program information.
5. Nothing in this Resolution shall be construed as affecting, modifying, or diminishing, or
otherwise impairing the sovereignty of the Tribe or its sovereign immunity from suit or
authorizing or requiring the termination of any existing treaty or trust responsibility of the
United States with respect to the Indian People.
6. The authority granted herein shall take effect immediately upon the Tribe's adoption of this
Resolution or, if later, upon the date of adoption of resolutions of the Oglala Sioux Tribe
and the Rosebud Sioux Tribe that have substantially the same effect as this Resolution,
provided that this Resolution has no effect unless all three Tribes (Cheyenne River Sioux

Donovan Decl. - Exhibit 6

Case 5:19-cv-05045-JLV Document 18-6

Filed 10/04/19

Page 9 of 9 PagelD #: 258

RESOLUTION NO. 104-2018-CR
Page Four:

Tribe, Oglala Sioux Tribe and the Rosebud Sioux Tribe) pass this Resolution or resolutions
that have substantially the same effect as this Resolution.
7. This Resolution shall remain in effect until and unless it is withdrawn by formal action of
this Tribe, provided written notice of such action shall be given to the Oglala Sioux Tribe
and Rosebud Sioux Tribe, the Great Plains Tribal Chairmen’s Health Board, and the Indian
Health Service and that any such withdrawal shall be effective no earlier than thirty-six
months after the date on which occurred, unless all three Tribes and the Great Plains
Tribal Chairmen’s Health Board agree to another date.
8. After thirty-six months after the date on which assumption occurred, the Tribe may elect
to withdraw this Resolution, or its share of any PSFA (or portion thereof) and shall be
entitled to its tribal share of funds supporting those PSFAs (and portions thereof), provided
written notice of such action shall be given to the Oglala Sioux Tribe and the Rosebud
Sioux Tribe, the Great Plains Tribal Chairmen’s Health Board, and the Indian Health
Service and that any such withdrawal shall be effective no earlier than eighteen months
after the date on which such notices are received.
9. This Resolution does not supersede or replace any other action by the Tribe to authorize
the Great Plains Tribal Chairmen’s Health Board to provide support or services on behalf
of the Tribe.
BE IT FINALLY RESOLVED, that nothing in this
otherwise affects any inherent, treaty,
River Sioux Tribe over the property or
River Sioux Tribe expressly retains all
activities described herein, including
adjudicatory, and taxing powers.

resolution diminishes, divests, alters, or
statutory or other rights of the Cheyenne
activities described herein. The Cheyenne
rights and authority over the property and
but not limited to legislative, regulatory,

CERTIFICATION
I, the undersigned, as Secretary of the Cheyenne River Sioux Tribe, certify that the Tribal Council
is composed of fifteen (15) members, of whom 12, constituting a quorum, were present at a
meeting duly and specially called, noticed, convened and held this 5th day of April 2018, Special
Session; and that the foregoing resolution was duly adopted at such meeting by a roll call vote of
10 yes, 1 no, 1 abstaining, and 3 absent.

Ev Ann White Feather, Secretary x '
Cheyenne River Sioux Tribe

Donovan Decl. - Exhibit 6

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 1 of 9 PagelD #: 241
Appendix G
(9 pages)
RESOLUTION NO. 19-02
RESOLUTION OF THE OGLALA SIOUX TRIBAL COUNCIL
OF THE OGLALA SIOUX TRIBE
(An Unincorporated Tribe)
.RESOLUTION OF THE OGLALA SIOUX TRIBAL COUNCIL OF THE OGLALA SIOUX
TRIBE TO AMEND OGLALA SIOUX TRIBAL COUNCIL RESOLUTION NO. 18-42.
WHEREAS, the Oglala Sioux Tribe adopted its Constitution and ByLaws ^ by referendum vote on December 14, 1935, in accordance with
Section 16 of the Indian Reorganization Act of 1934 {25 U.S.C. §5123)
and under Article III of the Constitution, the Oglala Sioux Tribal
Council is the governing body of the Oglala Sioux Tribe, and
„„ WHEREAS,
„
, the Oglala Sioux Tribal Council passed Resolution No.
1£_42 on April 4, 2018 to authorize the Great Plains Tribal Chairmen's
Health Board {GPTCHB) to assume operation of and funding for programs,
services,
„
.
, functions and
.
activities
(PSFAs)
of the Indian Health
.ervice (IHS) Great Plains Area Office Rapid City Service Unit (RCSU)
including the. Sioux. San Hospital and related area and headquarters
PSFAs (including tribal shares), and construction PSFAs and fundinq
pursuant to the Indian Self-Determination and Education Assistance
Act, as amended, and
WHEREAS, during the GPTCHB negotiations with IHS pursuant to the
ISDEAA and Oglala Sioux Tribal Council Resolution No. 18-42, several
issues have arisen, including a present change in position of a fellow
Tribe that the RCSU also serves, and
WHEREAS, the Oglala Sioux Tribe has determined that it must amend
Resolution No. 18-42 m certain respects to continue the effort* to
have the GPTCHB assume the RCSU's PSFAs, knowing that such assumption
may ultimately be only for two of the three Tribes served by the RCSU;
now
THEREFORE BE IT RESOLVED, that the Oglala Sioux
Resolution No. 18~42 in three respects, as follows:
(1)

Tribe

amends

Insert the following clauses after the last Whereas Clause
in Resolution No. 18-42:

and,
WHEREAS, the . Ogiala Sioux Tribe approves of and endorsed the
creauion of the Mni Luzahan Wicozani Advisory Committee (MLWAC) as the
successor to the Unified Health Board with regard to the assumption of
the Rapid City Service Unit (RCSU) Hnd construction of th© n©w Sioux
san health facility, and

Donovan Decl. - Exhibit 5

1

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 2 of 9 PagelD #: 242

RESOLUTION NO. 19-02
Page Two

the MLWAC
WHEREAS,
has been
fully informed and provided
, ,
,
recommendations regarding all aspects of the assumption of the RCSU,
including the construction negotiations; and
WHEREAS, the negotiations
nearly complete, and

for

the

assumption

of

the

RCSU

are

WHEREAS, the Oglala Sioux Tribe has been informed that the
Rosebud Sioux Tribe may have taken action to withdraw its support for
the assumption of the RCSU, including new construction, by the GPTCHB
and
'
WHEREAS, the Oglala Sioux Tribe's Health and Human Services
Committee has determined that the assumption of the RCSU by the GPTCHB
will benefit all of the Indian Health Service (IHS) beneficiaries of
the RCSU and, through collaborative and shared services by GPTCHB with
the Oglala Sioux Tribe and the IHS through hospital, clinic, health
stations on the Pine Ridge Indian Reservation, the assumption will
benefit the members of the Oglala Sioux Tribe, and
WHEREAS, the negotiations between GPTCHB
be disrupted, nor the dates for completing
design and construction project (the end of
planned program assumption date of February
delayed, and

and the IHS should not
the negotiation of the
December 2018) and the
17, 2019 should not be

WHEREAS, the Oglala Sioux Tribal Council has determined that
Resolution No. 18—42 snould oe amended to allow the negotiations
and
execution of GPTCHB contract(s) with the IHS to be completed on behalf
of the Oglala Sioux Tribe and of the other of the three tribes for
which it provides services.
(2)

Delete Paragraph 6 under the BE IT FURTHER RESOLVED clause
in Resolution No. 18~42 an<3 replace it with the following;
6.

(3)

The
authority
granted herein
shall
take
effect
immediately
upon
the
Tribe's
adoption
of
this
Resolution
or,
if
later,
upon
the
adoption
of
resolutions of the Cheyenne River Sioux Tribe and/ or
the Rosebud sioux Tribe that have substantially the
same effect as this Resolution.

Insert the
j-8"42 :

BE

following clause at the end of Resolution No.
IT

FURTHER

RESOLVED,

that

the

authority

invested in the GPTCHB in this Resolution shall continue,
witnout regard to the decision to withdraw of any of the
three tribes to initially authorize assumption, and shall
include the additional authority and conditions;

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 3 of 9 PagelD #: 243

RESOLUTION NO. 19-02
Page Three

1.

Any reference to the "Unified Health Board" or the
"Unified
Health
Board
Advisory
Committee"
that
addresses providing advice to the GPTCHB with regard
to the RCSU shall be replaced by the "Mni Luzahan
Wicozani Advisory Committee";

2.

This Resolution is not dependent on the action of any
other Tribe;

3.

The Oglala Sioux Tribe endorses construction of the
new health facility in Rapid City at the Shepard's
Hills site and the preservation of the Sioux San site
under the operation of the GPTCHB;

4.

No reference to a Tribe that has withdrawn from
participation in the. assumption of the RCSU or any
construction activity shall have effect under this
Resolution;

The GPTCHB is additionally authorized to provide services
of the RCSU on the Pine Ridge Indian Reservation, with the
agreement of the Oglala Sioux Tribe, provided delivery of
such services do not diminish the services available in
Rapid City.
C-E-R-T-I-F-I-C-A—T—I-O—N
I, as the undersigned Secretary of the Oglala Sioux Tribal Council, of
the Oglala Sioux Tribe hereby certify that this Resolution was adopted
by a vote of: U For; 5 Against; 0 Abstain; and 2 Not Voting; during a
REGULAR SESSION held on the 2ND day of JANUARY, 2019.

Secretary
Oglala Sioux Tribe

A-T-T-E-S-T:

li

/fv: IAK R. BEAR RUNNER

iU i\LA.

fH sident

glala Sioux Tribe

Donovan Decl. - Exhibit 5

Case 5:19-CV-05045-JLV Document 18-5 Filed 10/04/19 Page 4 of 9 PagelD #: 244

RESOLUTION NO. 18-42
RESOLUTION OF THE OGLALA SIOUX TRIBAL COUNCIL
OF THE OGLALA SIOUX TRIBE
(An Unincorporated Tribe)
RESOLUTION OF THE OGLALA SIOUX TRIBAL COUNCIL OF THE OGLALA SIOUX TRIBE
TO AUTHORIZE THE GREAT PLAINS TRIBAL CHAIRMEN'S HEALTH BOARD (GPTCHB)
TO ASSUME OPERATION OF AND FUNDING FOR PROGRAMS, SERVICES, FUNCTIONS AND
ACTIVITIES {PSFAS) OF THE INDIAN HEALTH SERVICE GREAT PLAINS AREA OFFICE
RAPID CITY SERVICE UNIT, INCLUDING THE SIOUX SAN HOSPITAL AND RELATED
AREA AND HEADQUARTERS PSFAS (INCLUDING TRIBAL SHARES), AND CONSTRUCTION
PS FAS AND FUNDING, PURSUANT TO THE INDIAN SELF-DETERMINATION AND
EDUCATION ASSISTANCE ACT, AS AMENDED, AND TO EXERCISE ANY OTHER LEGAL
AUTHORITY UNDER WHICH THE GPTCHB MAY RECEIVE AND ADMINISTER GRANTS OR
COMPETE FOR AND ADMINISTER CONTRACTS IN SUPPORT OF THE PSFAS IT IS
AUTHORIZED TO ASSUME UNDER THIS RESOLUTION THAT WOULD OTHERWISE BE
CARRIED OUT BY THE INDIAN HEALTH SERVICE.
WHEREAS, the Oglala Sioux Tribe adopted its Constitution and ByLaws by referendum vote on December 14, 1935, in accordance with Section
16 of the Indian Reorganization Act of 1934 (25 U.S.C. § 5123), and under
Article III of the Constitution, the Oglala Sioux Tribal Council is the
governing body of the Oglala Sioux Tribe, and
WHEREAS, the Indian Health Service administers
Service Unit, including the Sioux San Hospital, and

the Rapid

City

WHEREAS, the Indian Health Service has announced its intention to
close the emergency department of the Sioux San Hospital and to construct
a new facility, and
WHEREAS, the Oglala Sioux Tribe appoints members to the Unified
Health Board on which appointees from the Cheyenne River Sioux Tribe,
the Rosebud Sioux Tribe and Oglala Sioux Tribes also serve to provide
direction to the Indian Health Service, respond to concerns regarding
the operation of the Rapid City Service Unit, and to consider and make
recommendations regarding the future of the Rapid City Service Unit, and
WHEREAS, the Unified Health Board adopted a resolution recommending
that tribal assumption of the Rapid City Service Unit should be
undertaken, and
WHEREAS, the Oglala
should occur, and

Sioux Tribe

agrees

that

tribal

assumption

WHEREAS, the Great Plains Tribal Chairmen's Health Board (GPTCHB)
is a tribal organization (as that term is defined at 25 U.S.C. § 450b (1))
governed by members of the seventeen (17) Tribes and one (1) Indian
Service Area, and that serves nearly 170,000 Indians in the IHS fourstate region comprised of South Dakota, North Dakota, Nebraska and Iowa,
and

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 5 of 9 PagelD #: 245

RESOLUTION NO. 18-42
Page Two
WHEREAS, the GPTCHB is comprised of democratically elected leaders
from each of the Tribes who provide direction and oversight regarding
all activities of the Board, and
WHEREAS, the GPTCHB has worked closely with the Unified Health
Board and is committed to continuing to do so, and
WHEREAS, GPTCHB serves as a liaison between the Great Plains Tribes
the U.S. Department of Health and Human Services and associated agencies,
including Indian Health Service, and directly provides services and
technical assistance to the Tribes of the Great Plains and works to
promote the health and wellbeing of American Indian peoples in the Great
Plains, and
WHEREAS, Tribal assumption of Indian Health Service PSFAs has
proven throughout all Areas of the Indian Health Service to increase
transparency and accountability to the Tribes served, and
WHEREAS,
GPTCHB
has
proven
experience
administrative and program administration, and

and

expertise

in

WHEREAS, the Oglala Sioux Tribe has previously authorized the
GPTCHB to assume Area PSFAs and funding (including related Headquarters
and Service Unit PSFAs and funding) on its behalf. That resolution
provided that the GPTCHB must obtain advance written authorization from
the Oglala Sioux Tribe to assume any Service Unit PSFAs (including tribal
shares and related funding), and
WHEREAS, the Oglala Sioux Tribe has determined that it is now in
the best interests of the Tribe to grant the authorization to the GPTCHB
to plan for and assume the
PSFAs and funding (including related Area
and Headquarters PSFAs and funding, and construction related PSFAs and
funding) of the Rapid City Service Unit, including the Sioux San
Hospital, on behalf of the Oglala Sioux Tribe, the Cheyenne River Sioux
Tribe and the Rosebud Sioux Tribes, through contracting or compacting
under the Indian Self-Determination and Education Assistance Act, or
other means, which include applying for grants or competing for contracts
from IHS and other federal, state and private entities, and
WHEREAS, the GPTCHB will continuously seek guidance in its
activities and priorities from the Tribes that it is serving pursuant
to this Resolution, and

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 6 of 9 PagelD #: 246

RESOLUTION NO. 18-42
Page Three

WHEREAS, the IHS has given notice of its intention to build a new
facility to replace the Sioux San Hospital and the Oglala Sioux Tribe
has determined that construction program functions, planning services
and construction management services, and construction projects should
be carried out pursuant to the Indian Self-Determination and Education
Assistance Act, as amended, on behalf of the Oglala Sioux Tribe, Cheyenne
River Sioux Tribe, and the Rosebud Sioux Tribes, and
WHEREAS, GPTCHB will report directly, and through the Unified
Health Board, to the Tribes on its performance of PSFAs and status of
funding on a routine and regular basis, and
WHEREAS, the Unified Health Board is prepared to serve as an
advisory body to the GPTCHB regarding planning and assumption of the
Rapid City Service Unit, including construction related PSFAs and
funding, and to provide program governance and recommendations to the
GPTCHB to assure that decisions regarding the operation of the PSFAs of
Service Unit, including the Sioux San Hospital, are made in both the
best interests of the three Tribes that have authorized assumption of
it and the needs of the GPTCHB to not diminish its capacity to serve all
of the Tribes of the Great Plains Area, and
WHEREAS, the GPTCHB will not begin planning for or assume the PSFAs
and funding for the Rapid City Service Unit until and unless the Cheyenne
River Sioux Tribe, Oglala Sioux Tribe and Rosebud Sioux Tribe also
authorize it to do so, and
WHEREAS, to assure continuity of care for the people served through
the Rapid City Service Unit, including the Sioux San Hospital, orderly
transition of programs and operations of the Great Plains Tribal
Chairmen's Health Board, and orderly communication and transition with
the Cheyenne River Sioux Tribe, the Oglala Sioux Tribe and the Rosebud
Sioux Tribe, withdrawal of this Resolution shall not be effective any
earlier than thirty-six months after notice is given to all parties,
unless the Great Plains Tribal Chairmen's Health Board and all three
Tribes agree to another time frame, provided that after the initial
thirty-six month period after assumption, the notice requirement shall
be reduced to eighteen months.
now,
THEREFORE, BE IT RESOLVED, that Oglala Sioux Tribe authorizes the
GPTCHB to:

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 7 of 9 PagelD #: 247

RESOLUTION NO. 18-42

Page Four
1.

Apply for, negotiate, and contract or compact with the Indian
Health Services and/or United States Secretary of Health and
Human Services to assume the PSFAs of the Rapid City Service
Unit, including the Sioux San Hospital, and related IHS Area
and Headquarters PSFAs and associated funding, and including
construction related PSFAs and funding pursuant to the Indian
Self-Determination and Education Assistance Act.
Pursue funding through grants or contracts available from IHS
or any other federal, state or private entity to supplement
or support the objective of having the GPTCHB carry out the
Rapid City Service Unit PSFAs or equivalent activities on
behalf of authorizing Tribes to the greatest extent possible.

now,
Be IT FURTHER RESOLVED, that the authority described above shall
be carried out by the GPTCHB consistent with the following conditions:
1.

During such time as this Resolution remains in effect, the
Great Plains Tribal Chairmen'' s Health Board shall comply with
all applicable law and current regulations under P.L. 93-638
and any other law applicable to the funding acquired from IHS
or any other entity pursuant to this Resolution.

2.

The Great Plains Tribal Chairmen's Health Board shall
provide copies to the Tribe of any proposals, contracts, and
compacts, including the addition of any PSFAs to any funding
agreement the Board determines to pursue.

3.

The Great Plains Tribal Chairmen's Health Board will provide
to the Tribe copies of all final documents, and amendments
thereto,
which
GPTCHB enters
into pursuant
to this
Resolution.

4.

The Great Plains Tribal Chairmen's Health Board shall provide
routine and regular reports to the Tribe, directly and through
the Unified Health Board, of the work it performs under this
Resolution, and such reports shall contain both budget and
program information.

5.

Nothing in this Resolution shall be construed as affecting,
or diminishing,
modifying,
or otherwise impairing the
sovereignty of the Tribe or its sovereign immunity from suit
or authorizing or requiring the termination of any existing
treaty or trust responsibility of the United States with
respect to the Indian People.

Donovan Decl. - Exhibit 5

Case 5:19-CV-05045-JLV Document 18-5 Filed 10/04/19 Page 8 of 9 PagelD #: 248

RESOLUTION NO. 18-42
Page Five

6.

The authority granted herein shall take effect immediately
upon the Tribe's adoption of this Resolution or, if later,
upon the date of adoption of resolutions of the Rosebud Sioux
Tribe and the Cheyenne River Sioux Tribe that have
substantially the same effect as this Resolution, provided
that this Resolution has no effect unless all three Tribes
(Oglala Sioux Tribe, Cheyenne River Sioux Tribe, and the
Rosebud Sioux Tribe) pass this Resolution or resolutions that
have substantially the same effect as this Resolution.

7.

This Resolution shall remain in effect until and unless it is
withdrawn by formal action of this Tribe, provided written
notice of such action shall be given to the Cheyenne River
Sioux Tribe, Rosebud Sioux Tribe, Great Plains Tribal
Chairmen's Health Board, and the Indian Health Service and
that any such withdrawal shall be effective no earlier than
thirty-six months after the date on which assumption
occurred, unless all three Tribes and the Great Plains Tribal
Chairmen's Health Board agree to another date.

8.

After thirty-six months after the date on which assumption
occurred, the Tribe may elect to withdraw this Resolution, or
its share of any PSFA (or portion thereof) and shall be
entitled to its tribal share of funds supporting those PSFAs
(and portions thereof), provided written notice of such
action shall be given to the Cheyenne River Sioux Tribe and
the Rosebud Sioux Tribe, the Great Plains Tribal Chairmen's
Health Board, and the Indian Health Service and that any such
withdrawal shall be effective no earlier than eighteen months
after the date on which such notices are received.

9.

This Resolution does not supersede or replace any other action
by the Tribe to authorize the Great Plains Tribal Chairmen's
Health Board to provide support or services on behalf of the
Tribe.
C-E—R-T-I-F-I-C—A-T-I-O-N

I, as the undersigned Secretary of the Ogiala Sioux Tribal Council, of
the Oglala Sioux Tribe hereby certify that this Resolution was adopted
by a vote of: 15 For; 2 Against; £ Abstain; and 0 Not Voting; during a
REGULAR SESSION held on the 4TH day of APRIL, 2018.

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-5 Filed 10/04/19 Page 9 of 9 PagelD #: 249

RESOLUTION NO. 18-42
Page Six

A-T-T-E-S-T:

z

STEPHANIEL . YfeSLOW HAWK
Recording Secretary
Oglala Sioux Tribe

TR5«r S. 0STON
Presid^t

Oglala Sioux Tribe

Donovan Decl. - Exhibit 5

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 1 of 15 PagelD #: 195
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-116
Reconsidered & Rescinded: 12-18-18

Appendix H
(10 pages)

PURPOSE: To request the Great Plains Tribal Chairmen’s Health Board (GPTCHB) to
assume operation of and funding for programs, services, functions and activities (PSFAs) of the
Indian Health Service Great Plains Area Office Rapid City Service Unit including the Sioux San
Hospital and related Headquarters and Service Unit PSFAs (including tribal shares), and
construction PSFAs and funding, pursuant to the Indian Self-Determination and Education
Assistance Act, as amended, and to exercise any other legal authority under which the GPTCHB
may receive and administer grants or compete for and administer contracts in support of the
PSFAs it is authorized to assume under this resolution that would otherwise be carried out by the
Indian Health Service and authorizing support to the GPTCHB to do so.
WHEREAS, The Rosebud Sioux Tribe is a federally recognized Indian tribe organized
pursuant to the Indian Reorganization Act of 1934 and pertinent amendments
thereof; and
WHEREAS, The Rosebud Sioux Tribe is governed by a Tribal Council made up of elected
representatives wo act in accordance with the powers granted to it by its
Constitution and Bylaws; and
WHEREAS, The Rosebud Sioux Tribe enacted Resolution No. 2018-116 on April 19, 2018
authorizing the GPTCHB to plan for and assume the PSFAs and funding of the
Indian Health Service’s Rapid City Service Unit (including related Area and
Headquarters PSFAs and funding, and construction PSFAs and funding): and
WHEREAS, The GPTCHB is a tribal organization (as that term is defined at 25 U.S.C. §
450b(/)) governed by members of the seventeen (17) Tribes and one (1) Indian
Service Area and that serves nearly 170,000 Indians in the IHS four-state region
comprised of South Dakota, North Dakota, Nebraska and Iowa; and
WHEREAS, The GPTCHB is comprised of democratically elected leaders from each of the
Tribes who provide direction and oversight regarding all activities of the Board;

and
WHEREAS, GPTCHB serves as a liaison between the Great Plains Tribes the US Department
of Health and Human Services and associated agencies, including Indian Health
Service, and directly provides services and technical assistance to the Tribes of
the Great Plains and works to promote the health and wellbeing of American
Indian peoples in the Great Plains; and
WHEREAS, It is critical to the Rosebud Sioux, Oglala Sioux, and Cheyenne River Sioux
Tribes that assumption of direct program operations of the Rapid City Service
Unit from IHS not disrupt the capacity and operations of the GPTCHB or
diminish its effectiveness as an advocate and program support for the Tribes in
the Great Plains Area of the IHS; and
Financial Resources
1
Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 2 of 15 PagelD #: 196
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-116
Reconsidered & Rescinded: 12-18-18
WHEREAS, Planning and preparing for assumption of the Rapid City Service Unit and
negotiating the Compact and Funding Agreement between the GPTCHB and IHS
will demand time and financial resources that the GPTCHB currently does not
have; and
WHEREAS, Pre-award and start-up costs to which a tribal organization is entitled upon
assumption of IHS PSFAs and funding are not paid until and unless the
assumption occurs; and
WHEREAS, The GPTCHB must have access to the necessary financial resources in order to
effectively carry out the Resolutions authorizing it to assume the Rapid City
Service Unit without jeopardizing the financial stability of the GPTCHB and its
obligations to all of the Tribes it serves; and
Governance and Program Direction
WHEREAS, Guiding the planning and governance of the assumption and operation and
construction PSFAs and funding of the Rapid City Service Unit, including the
Sioux San Hospital, will be time consuming and require specialized knowledge of
the Service Unit that is not generally available to all of the members of the
GPTCHB and which could distract the members of the GPTCHB from their other
responsibilities as Board members; and
WHEREAS, the Rosebud Sioux Tribe appoints members to the Unified Health Board on which
appointees from the Oglala Sioux Tribe and Cheyenne River Sioux Tribes have
served to provide direction to the Indian Health Service, respond to concerns
regarding the operation and construction PSFAs of the Rapid City Service Unit,
and consider and make recommendations regarding the future of the Rapid City
Service Unit; and
WHEREAS, The Unified Health Board adopted a resolution recommending that tribal
assumption of the Rapid City' Service Unit should be undertaken; and
WHEREAS, The GPTCHB has worked closely with the Unified Health Board; and
WHEREAS, The Unified Health Board is prepared to serve as an advisory' body to the
GPTCHB regarding planning and assumption of the Rapid City Service Unit and
to provide program governance and recommendations to the GPTCHB to assure
that decisions regarding the operation of the PSF As of Service Unit, including the
Sioux San Hospital, are made in both the best interests of the three Tribes that
have authorized assumption of it and the needs of the GPTCHB to not diminish its
capacity to serve all of the Tribes of the Great Plains Area; and

2

Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 3 of 15 PagelD #: 197
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-116
Reconsidered & Rescinded: 12-18-18
New Facility Design and Construction
WHEREAS, The IHS has given notice to the Congress that it intends to close the inpatient and
emergency departments of the Sioux San Hospital and operate the facility as an
urgent care unit; and
WHEREAS, The IHS has obtained partial funding from the Congress for a replacement facility
that will include urgent care services, but not hospital services; and
WHEREAS, The Rosebud Sioux, Oglala Sioux, and Cheyenne River Sioux Tribes have
expressed their concerns about the decisions and planning by the IHS regarding
the new facility and the Rosebud Sioux Tribe has authorized the GPTCHB to
assume the Rapid City Service Unit and related Area and Headquarters’ funds,
and construction PSFAs and funding: and

WHEREAS, The ultimate responsibility and authority to make decisions regarding the Rapid
City Service Unit rests with the Rosebud Sioux, Oglala Sioux, and Cheyenne
River Sioux Tribes acting directly and through the Unified Health Board.
NOW, THEREFORE, BE IT RESOLVED that Rosebud Sioux Tribe requests that the Great
Plains Tribal Chairmen’s Health Board take action to accept the Resolutions of the Rosebud
Sioux, Oglala Sioux, and Cheyenne River Sioux Tribes to:
1. Plan for, negotiate, and contract or compact with the Indian Health Services and/or
United States Secretary of Health and Human Services to assume the PSFAs of the Rapid
City Service Unit, including the Sioux San Hospital, and related IHS Area and
Headquarters PSFAs and associated funding, including construction PSFAs and funding,
pursuant to the Indian Self-Determination and Education Assistance Act; and
2. Pursue funding through grants or contracts available from IHS or any other federal, state
or private entity to supplement or support the objective of having the GPTCHB carry out
Rapid City Service Unit PSFAs or equivalent activities on behalf of authorizing Tribes to
the greatest extent possible; and
3. Support efforts the three authorizing Tribes may undertake to charter the Unified Health
Board as a not-for-profit, tribally controlled, corporation and assist the Unified Health
Board to prepare to assume the PSFAs and funding for the Rapid City Service Unit
independent from the Great Plains Tribal Chairmen’s Health Board should the
authorizing Tribes determine that should occur; and
4. Provided, that the Rosebud Sioux Tribe requests that no action be taken with regard to
the assumption of the Rapid City Service Unit until and unless all three Tribes (Rosebud
Sioux, Cheyenne River Sioux and Oglala Sioux) have enacted resolutions authorizing

Donovan Deck - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 4 of 15 PagelD #: 198
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-116
Reconsidered & Rescinded: 12-18-18
assumption of the Rapid City Service Unit and requesting the Great Plains Tribal
Chairmen’s Health Board to accept the authorizing resolution.
NOW BE IT FURTHER RESOLVED, that in support of the request, the Rosebud Sioux Tribe
will:
1. Make appointments to the Unified Health Board of members who will perform their
responsibilities to provide routine guidance and direction to the Great Plains Tribal
Chairmen’s Health Board regarding the planning for and negotiation and operation of the
Rapid City Service Unit, including the Sioux San Hospital, and any new facility
construction undertaken to replace the Sioux San Hospital facility:
2. Review and respond to the regular reports that the GPTCHB will provide to it and
communicate in a timely way any concerns about the planning for and operation of the
Rapid City Service Unit, including the Sioux San Hospital, so that the GPTCHB and its
employees can address them in an orderly way; and
3. Provide initial financial support to the GPTCHB for planning and negotiation activities in
an amount of no less than fifty thousand dollars ($50,000) unless the GPTCHB
determines that a smaller amount will suffice without jeopardizing the financial stability
of the Board or diminishing its capacity to meet its other obligations to its other members
and satisfy other program responsibilities it has assumed, provided that the Tribe
understands that the GPTCHB will reimburse the Tribe for these amounts if the
GPTCHB receives such costs from the IHS.;
4. Provide additional financial resources upon reasonable notice of the need for such
funding, provided such notice must contain detailed explanation of the use of funds

already being utilized by the GPTCHB related to pre-award and start-up and a budget for
the remaining activity;
5. Forgive the obligation to repay the financial support provided to the GPTCHB under
paragraphs 3 and 4, if the GPTCHB is not permitted to enter into a compact and funding
agreement for assumption of the PSFAs and related funding, including pre-award and
start-up costs, of the Rapid City Service Unit (and related Area and Headquarters PSFAs
and funding);
6. Nothing in this Resolution shall be construed as affecting, modifying, or diminishing, or
otherwise impairing the sovereignty of the Tribe or its sovereign immunity from suit or
authorizing or requiring the termination of any existing treaty or trust responsibility of the
United States with respect to the Indian People.
4
Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 5 of 15 PagelD #: 199
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-116
Reconsidered & Rescinded: 12-18-18
7. The authority granted herein shall take effect immediately upon the Tribe’s adoption of
this Resolution or, if later, upon the date of adoption of resolutions of the Cheyenne
8. Sioux Tribe and the Oglala Sioux Tribe that have substantially the same effect as this
Resolution; provided that this Resolution has no effect unless all three Tribes (Rosebud
Sioux Tribe, Oglala Sioux Tribe, and Cheyenne River Sioux Tribe) pass this Resolution
or resolutions that have substantially the same effect as this Resolution, and
9. This Resolution shall remain in effect until and unless it is withdrawn by formal action of
this Tribe, provided written notice of such action shall be given to the Cheyenne River
Sioux Tribe, the Oglala Sioux Tribe, and the Great Plains Tribal Chairmen’s Health
Board and shall have no effect on the obligations related to financial support provided to
the GPTCHB under this Resolution.
10. This Resolution does not supersede or replace any other action by the Tribe to authorize
the Great Plains Tribal Chairmen’s Health Board to provide support or services on behalf
of the Tribe.

CERTIFICATION
This is to certify that the above Resolution No. 2018-116 was duly reconsidered and rescinded
by the Rosebud Sioux Tribal Council in session on December 18, 2018, by a vote of thirteen (13)
in favor, zero (0) opposed and five (5) not voting. The said resolution was adopted pursuant to
authority vested in the Council. A quorum was present.
ATTEST:

Linda L. Marshall, Secretary
Rosebud Sioux Tribe

Rodney MCBordeaux^resident
Rosebud Sioux Tribe

5

Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 6 of 15 PagelD #: 200
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-117
Reconsidered & Rescinded: 12-18-18
PURPOSE: To authorize The Great Plains Tribal Chairmen’s Health Board (GPTCHB) to
assume operation of and funding for programs, services, functions and activities (PSFAs) of the
Indian Health Service Great Plains Area Office Rapid City Service Unit, including the Sioux San
Hospital and related Area and Headquarters PSFAs (including tribal shares), and construction
PSFAs and funding, pursuant to the Indian Self-Determination and Education Assistance Act, as
amended, and to exercise any other legal authority under which the GPTCHB may receive and
administer grants or compete for and administer contracts in support of the PSFAs it is
authorized to assume under this resolution that would otherwise be carried out by the Indian
Health Service.
WHEREAS, The Rosebud Sioux Tribe is a federally recognized Indian tribe organized
pursuant to the Indian Reorganization Act of 1934 and pertinent amendments
thereof; and
WHEREAS, The Rosebud Sioux Tribe is governed by a Tribal Council made up of elected
representatives wo act in accordance with the powers granted to it by its
Constitution and Bylaws; and
WHEREAS, The Indian Health Service administers the Rapid City Service Unit, including the
Sioux San Hospital; and
WHEREAS, The Indian Health Service has announced its intention to close the emergency
department of the Sioux San Hospital and to construct a new facility; and
WHEREAS, The Rosebud Sioux Tribe appoints members to the Unified Health Board on
which appointees from the Cheyenne River Sioux Tribe and Oglala Sioux Tribes
also serve to provide direction to the Indian Health Service, respond to concerns
regarding the operation of the Rapid City Service Unit, and to consider and make
recommendations regarding the future of the Rapid City Service Unit; and
WHEREAS, the Unified Health Board adopted a resolution recommending that tribal
assumption of the Rapid City Service Unit should be undertaken; and
1

WHEREAS, the Rosebud Sioux Tribe agrees that tribal assumption should occur; and
WHEREAS, The Great Plains Tribal Chairmen’s Health Board (GPTCHB) is a tribal
organization (as that term is defined at 25 U.S.C. § 450b(/)) governed by members
of the seventeen (17) Tribes and one (1) Indian Service Area, and that serves
nearly 170,000 Indians in the IHS four-state region comprised of South Dakota,
North Dakota, Nebraska and Iowa; and
WHEREAS, The GPTCHB is comprised of democratically elected leaders from each of the
Tribes who provide direction and oversight regarding all activities of the Board;
and

1
Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 7 of 15 PagelD #: 201
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-117
Reconsidered & Rescinded: 12-18-18
WHEREAS, The GPTCHB has worked closely with the Unified Health Board and is
committed to continuing to do so: and
WHEREAS, GPTCHB serves as a liaison between the Great Plains Tribes the U.S. Department
of Health and Human Services and associated agencies, including Indian Health
Service, and directly provides services and technical assistance to the Tribes of
the Great Plains and works to promote the health and wellbeing of American
Indian peoples in the Great Plains; and
WHEREAS, Tribal assumption of Indian Health Service PSFAs has proven throughout all
Areas of the Indian Health Service to increase transparency and accountability to
the Tribes served; and
WHEREAS, GPTCHB has proven experience and expertise in administrative and program
administration; and
WHEREAS, The Rosebud Sioux Tribe has previously authorized the GPTCHB to assume Area
PSFAs and funding (including related Headquarters and Service Unit PSFAs and
funding) on its behalf. That resolution provided that the GPTCHB must obtain
advance written authorization from the Rosebud Sioux Tribe to assume any
Service Unit PSFAs (including tribal shares and related funding); and
WHEREAS, The Rosebud Sioux Tribe has determined that it is now in the best interests of the
Tribe to grant the authorization to the GPTCHB to plan for and assume the
PSFAs and funding (including related Area and Headquarters PSFAs and funding,
and construction related PSFAs and funding) of the Rapid City Sendee Unit,
including the Sioux San Hospital, on behalf of the Rosebud Sioux Tribe, the
Cheyenne River Sioux Tribe and the Oglala Sioux Tribes, through contracting or
compacting under the Indian Self-Determination and Education Assistance Act, or
other means, which include applying for grants or competing for contracts from
IHS and other federal, state and private entities, and
WHEREAS, The GPTCHB will continuously seek guidance in its activities and priorities from
the Tribes that it is serving pursuant to this Resolution; and
WHEREAS, the IHS has given notice of its intention to build a new facility to replace the
Sioux San Hospital and the Rosebud Sioux Tribe has determined that construction
program functions, planning services and construction management services, and
construction projects should be carried out pursuant to the Indian SelfDetermination and Education Assistance Act, as amended, on behalf of the
Rosebud Sioux, Cheyenne River Sioux Tribe, and the Oglala Sioux Tribes; and
WHEREAS, GPTCHB will report directly, and through the Unified Health Board, to the Tribe
on its performance of PSFAs and status of funding on a routine and regular basis;
and
2
Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 8 of 15 PagelD #: 202
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-117
Reconsidered & Rescinded: 12-18-18
WHEREAS, The Unified Health Board is prepared to serve as an advisory body to the
GPTCHB regarding planning and assumption of the Rapid City Service Unit,
including construction related PSFAs and funding, and to provide program
governance and recommendations to the GPTCHB to assure that decisions
regarding the operation of the PSFAs of Service Unit, including the Sioux San
Hospital, are made in both the best interests of the three Tribes that have
authorized assumption of it and the needs of the GPTCHB to not diminish its
capacity to serve all of the Tribes of the Great Plains Area; and
WHEREAS, The GPTCHB will not begin planning for or assume the PSFAs and funding for
the Rapid City Service Unit until and unless the Cheyenne River Sioux Tribe and
the Oglala Sioux Tribe also authorize it to do so; and
WHEREAS. To assure continuity of care for the people served through the Rapid City Service
Unit, including the Sioux San Hospital, orderly transition of programs and
operations of the Great Plains Tribal Chairmen’s Health Board, and orderly
communication and transition with the Cheyenne River Sioux Tribe and the
Oglala Sioux Tribe, withdrawal of this Resolution shall not be effective any
earlier than thirty-six months after notice is given to all parties, unless the Great
Plains Tribal Chairmen’s Health Board and all three Tribes agree to another time
frame, provided that after the initial thirty-six month period after assumption, the
notice requirement shall be reduced to eighteen months.
NOW, THEREFORE, BE IT RESOLVED that Rosebud Sioux Tribe authorizes the GPTCHB
to:

1. Apply for, negotiate, and contract or compact with the Indian Health Services and/or
United States Secretary of Health and Human Services to assume the PSFAs of the Rapid
City Service Unit, including the Sioux San Hospital, and related IHS Area and
Headquarters PSFAs and associated funding, and including construction related PSFAs
and funding pursuant to the Indian Self-Determination and Education Assistance Act; and
2. Pursue funding through grants or contracts available from IHS or any other federal, state
or private entity to supplement or support the objective of having the GPTCHB carry out
the Rapid City Service Unit PSFAs or equivalent activities on behalf of authorizing
Tribes to the greatest extent possible.
NOW BE IT FURTHER RESOLVED that the authority described above shall be carried out
by the GPTCHB consistent with the following conditions:
1. During such time as this Resolution remains in effect, the Great Plains Tribal Chairmen’s
Health Board shall comply with all applicable law and current regulations under P.L. 93638 and any other law applicable to the funding acquired from IHS or any other entity
pursuant to this Resolution.
3
Donovan Decl. - Exhibit 1

Case 5:19-cv-05045-JLV Document 18-1 Filed 10/04/19 Page 9 of 15 PagelD #: 203
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-117
Reconsidered & Rescinded: 12-18-18
2.

The Great Plains Tribal Chairmen’s Health Board shall provide copies to the Tribe of
any proposals, contracts, and compacts, including the addition of any PSFAs to any
funding agreement the Board determines to pursue.

3. The Great Plains Tribal Chairmen’s Health Board will provide to the Tribe copies of all
final documents, and amendments thereto, which GPTCHB enters into pursuant to this
Resolution.
4. The Great Plains Tribal Chairmen’s Health Board shall provide routine and regular
reports to the Tribe, directly and through the Unified Health Board, of the work it
performs under this Resolution, and such reports shall contain both budget and program
information.
5. Nothing in this Resolution shall be construed as affecting, modifying, or diminishing, or
otherwise impairing the sovereignty of the Tribe or its sovereign immunity from suit or
authorizing or requiring the termination of any existing treaty or trust responsibility of the
United States with respect to the Indian People.
6. The authority granted herein shall take effect immediately upon the Tribe’s adoption of
this Resolution or, if later, upon the date of adoption of resolutions of the Oglala Sioux
Tribe and the Cheyenne River Sioux Tribe that have substantially the same effect as this
Resolution, provided that this Resolution has no effect unless all three Tribes (Rosebud
Sioux Tribe, Cheyenne River Sioux Tribe, and the Oglala Sioux Tribe) pass this
Resolution or resolutions that have substantially the same effect as this Resolution.
7. This Resolution shall remain in effect until and unless it is withdrawn by formal action of
this Tribe, provided written notice of such action shall be given to the Cheyenne River
Sioux Tribe, Oglala Sioux Tribe, Great Plains Tribal Chairmen’s Health Board, and the
Indian Health Service and that any such withdrawal shall be effective no earlier than
thirty-six months after the date on which assumption occurred, unless all three Tribes and
the Great Plains Tribal Chairmen’s Health Board agree to another date.
8. After thirty-six months after the date on which assumption occurred, the Tribe may elect
to withdraw this Resolution, or its share of any PSFA (or portion thereof) and shall be
entitled to its tribal share of funds supporting those PSFAs (and portions thereof),
provided written notice of such action shall be given to the Cheyenne River Sioux Tribe
and the Oglala Sioux Tribe, the Great Plains Tribal Chairmen’s Health Board, and the
Indian Health Service and that any such withdrawal shall be effective no earlier than
eighteen months after the date on which such notices are received.
4
Donovan Decl. - Exhibit 1

Case 5:19-CV-05045-JLV Document 18-1 Filed 10/04/19 Page 10 of 15 PagelD #: 204
ROSEBUD SIOUX TRIBE
RESOLUTION NO. 2018-117
Reconsidered & Rescinded: 12-18-18
9. This Resolution does not supersede or replace any other action by the Tribe to authorize
the Great Plains Tribal Chairmen’s Health Board to provide support or services on behalf
of the Tribe.
CERTIFICATION
This is to certify that the above Resolution No. 2018-117 was duly reconsidered and rescinded
by the Rosebud Sioux Tribal Council in session on December 18, 2018, by a vote of thirteen (13)
in favor, zero (0) opposed and five (5) not voting. The said resolution was adopted pursuant to
authority vested in the Council. A quorum was present.
ATTEST:

a)

[cO'u
....________

Rodney M^ordeau^TTes i dent
Rosebud Sioux Tribe

Linda L. Marshall, Secretary
Rosebud Sioux Tribe

5
Donovan Decl. - Exhibit 1

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 1 of 32 PagelD #: 816

Appendix I
(36 pages)

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
WESTERN DIVISION

DONNA M. GILBERT, JULIE MOHNEY,
CHARMAINE WHITE FACE, and others
similarly situated,

CIV. 19-5045-JLV
ORDER

Plaintiffs,
vs.
RADM MICHAEL D. WEAHKEE,
Principal Deputy Director of Indian
Health Service (IHS); JAMES DRIVING
HAWK, Great Plains IHS Area Director;
and WILLIAM BARR, United States
Attorney General,
Defendants.
INTRODUCTION
Plaintiffs, Native Americans residing in Rapid City, South Dakota, bring
this action challenging the decision of the Indian Health Service (“IHS”) to enter
into a self-determination contract with the Great Plains Tribal Chairmen’s
Health Board (“the Health Board”).

(Docket 5). The contract permits the

Health Board to operate portions of IHS’s facilities in Rapid City, including the
Sioux San hospital, now known as the Oyate Health Center.

Plaintiffs assert

the contract violates the Fort Laramie Treaty of 1868 between the United States
and the Great Sioux Nation and the Indian Self-Determination and Education
Assistance Act (“ISDEAA”).

They ask the court to enjoin the contract and

reinstate IHS control over the Rapid City facilities.

Also pending before the

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 2 of 32 PagelD #: 817

court are plaintiffs’ motions for class certification and summary judgment.
(Dockets 12 & 37).
Defendants moved to dismiss the complaint.

(Docket 16).

They argue

plaintiffs lack standing, failed to join indispensable parties, failed to state a
viable treaty claim, and do not merit injunctive relief.

(Docket 17).

Defendants also oppose class certification and assert summary judgment is
inappropriate.

(Dockets 34, 39 & 41).

As detailed below, the court finds plaintiffs do not have zone-of-interest
standing to sue for relief under the ISDEAA, the Fort Laramie Treaty does not
provide a private right of action under these circumstances, and the Health
Board is an indispensable party that cannot be joined due to sovereign
immunity. The court dismisses the complaint, denies injunctive relief and
denies all other pending motions as moot.
I.

Legal Standards
Pursuant to Federal Rule of Civil Procedure 12(b), defendants challenge

the court’s subject matter jurisdiction, the complaint’s sufficiency and joinder.
The court recites the standards governing each challenge in turn.
Under Rule 12(b)(1), defendants have the right to challenge the “lack of
subject-matter jurisdiction . . . .”

Fed. R. Civ. P. 12(b)(1).

“In deciding a

motion under Rule 12(b)(1), the district court must distinguish between a facial
attack—where it looks only to the face of the pleadings—and a factual attack—
where it may consider matters outside the pleading.” Croyle v. United States,
2

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 3 of 32 PagelD #: 818

908 F.3d 377, 380 (8th Cir. 2018).

“In a factual attack, the non-moving party-

does not have the benefit of [Rule] 12(b)(6) safeguards.” IcL (internal
quotations omitted).

“[T]he party invoking federal jurisdiction must prove

jurisdictional facts by a preponderance of the evidence.” Moss v. United
States. 895 F.3d 1091, 1097 (8th Cir. 2018).
Rule 12(b)(6) allows the court to dismiss a complaint for “failure to state
a claim upon which relief can be granted[.]” Fed. R. Civ. P. 12(b)(6).
“working principles” underlie Rule 12(b)(6) analysis.
U.S. 662, 678 (2009).

Two

Ashcroft v. Iqbal. 556

First, courts are not required to accept as true legal

conclusions “couched as . . . factual allegation[s]” in the complaint.

IcL

“[A]

complaint must allege ‘more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do. 9

99

Torti v. Hoag, 868

F.3d 666, 671 (8th Cir. 2017) (quoting Bell Atl. Corn, v. Twombly, 550 U.S.
544, 555 (2007)).

The court does, however, “take the plaintiffs factual

allegations as true.” Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th
Cir. 2009).

Second, the plausibility standard is a “context-specific task that

requires the reviewing court to draw on its judicial experience and common
sense.”

Iqbal, 556 U.S. at 679.

The complaint is analyzed “as a whole, not

parsed piece by piece to determine whether each allegation, in isolation, is
plausible.” Braden, 588 F.3d at 594.
Finally, Rule 12(b)(7) permits dismissal for “failure to join a party under
Rule 19.”

Fed. R. Civ. P. 12(b)(7).

“Rule 19(a) defines required party,
3

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 4 of 32 PagelD #: 819

and Rule 19(b) provides factors to consider to determine whether dismissal is
required when joinder of such a party cannot feasibly be accomplished.” Two
Shields v. Wilkinson. 790 F.3d 791, 794 (8th Cir. 2015) (quotation and
alteration omitted). A party is required if:
(A)

in that person’s absence, the court cannot accord complete
relief among existing parties; or

(B)

that person claims an interest relating to the subject of the
action and is so situated that disposing of the action in the
person’s absence may:
(i)

as a practical matter impair or impede the person’s
ability to protect the interest; or

(ii)

leave an existing party subject to a substantial risk of
incurring double, multiple, or otherwise inconsistent
obligations because of the interest.

Fed. R. Civ. P. 19(a)(1).

The court must join a required party if personal

jurisdiction over the required party exists and joinder will not “deprive the
court of subject-matter jurisdiction.” Id.
“Rule 19(b) authorizes a district court to exercise its equitable powers to
dismiss an action if a party regarded as ‘indispensable’ cannot be joined.”
Spirit Lake Tribe v. North Dakota, 262 F.3d 732, 746 (8th Cir. 2001).

Rule

19(b) provides the following factors for consideration in this inquiry:
(1)

the extent to which a judgment rendered in the person’s
absence might prejudice that person or the existing parties;

(2)

the extent to which any prejudice could be lessened or avoided
by:
(A)

protective provisions in the judgment;

(B)

shaping the relief; or
4

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 5 of 32 PagelD #: 820

(C)

other measures;

(3)

whether a judgment rendered in the person’s absence would
be adequate; and

(4)

whether the plaintiff would have an adequate remedy if the
action were dismissed for nonjoinder.

Fed. R. Civ. P. 19(b).
In the specific context of an immune sovereign entity that is a
required party not amenable to suit, the Supreme Court has
explained that the action must be dismissed if the claims of
sovereign immunity are not frivolous and “there is a potential for
injury to the interests of the absent sovereign.”
Two Shields. 790 F.3d at 798 (quoting Republic of the Philippines v. Pimentel,
553 U.S. 851, 867 (2008)).
II.

Facts
Defendants challenge the complaint on multiple grounds, some of which

involve factual questions underpinning the court’s subject matter jurisdiction.
Accordingly, the court finds defendants are factually attacking the complaint
and considers matters outside the pleadings. i

Croyle, 908 F.3d at 380.

On April 29, 1868, the United States entered into the Treaty of Fort
Laramie with the bands of the Great Sioux Nation in an attempt to end warfare
on the Northern Plains caused by an influx of American settlers onto tribal

!The court finds the materials cited in this order are also generally
embraced by the complaint. See Zean v. Fairview Health Servs.. 858 F.3d 520,
526 (8th Cir. 2017) (holding materials embraced by the complaint—“documents
whose contents are alleged in a complaint and whose authenticity no party
questions”—may be considered in a Rule 12 motion to dismiss) (internal
quotation omitted).
5

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 6 of 32 PagelD #: 821

lands.

15 Stat. 635 (1868); see also United States v. Sioux Nation of Indians,

448 U.S. 371, 374-84 (1980).

In the treaty, the United States agreed to

provide a physician to the Sioux people. 15 Stat. 635, arts. IV & XIII.

The

United States made similar promises to numerous tribal nations as part of its
efforts to secure tribal lands for its westward expansion.

See U.S. Comm’n on

Civil Rights, Broken Promises: Continuing Federal Funding Shortfall for Native
Americans, 61 (2018).2 These treaty provisions have evolved into a general
federal obligation to provide health care to Native Americans.

IdL

Today, the

federal government “declares that it is the policy of this Nation, in fulfillment of
its special trust responsibility and legal obligations to Indians to ensure the
highest possible health status for Indians and ... to provide all resources
necessary to effect that policy[.]” 25 U.S.C. § 1602(1).
The modern Great Sioux Nation is composed of multiple descendant
tribal nations.

Three of those nations, the Oglala Sioux Tribe (“OST”), the

Cheyenne River Sioux Tribe (“CRST”), and the Rosebud Sioux Tribe (“RST”)
reside on reservations in central and western South Dakota.

Many of their

citizens reside in Rapid City. To serve the Native American population of
Rapid City, IHS established the Rapid City Service Unit.

(Docket 18-10 at p.

2). According to IHS, 79.18 percent of the Rapid City Service Unit’s patients
are members of the OST, CRST or RST.

(Docket 18-10 at p. 2).

The Interior

2The report is available at https://www.usccr.gov/pubs/2018/12-20
Broken-Promises.pdf.
6

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 7 of 32 Page ID #: 822

Board of Indian Appeals (“IBIA”) held in 1997 that the OST, CRST, and RST
could authorize a separate tribal organization to assume IHS functions in the
Rapid City Service Unit.3

Rapid City Indian Health Bd., Inc, v. Dir., Aberdeen

Area Office. Indian Health Serv., IBIA 97-100-A, 4-8 (1997).4
Tribal nations located in the Dakotas, Iowa and Nebraska organized the
Health Board “to make known the needs and desires of the Indian people for
assistance of the [IHS] in formulating programs and establishing priorities in
delivering services which it is incumbent upon the United States to provide
pursuant to the solemn treaty and legal obligations to the Indian people.”
(Docket 18-12 at pp. 4-5, 8). The Health Board is incorporated as a nonprofit
corporation under South Dakota law.

Ick at pp. 1-2. The OST, CRST and

RST are all members of the Health Board.

Id^ at pp. 4-5.

In 2018, the three tribes authorized the Health Board to enter into a selfdetermination contract with IHS for the purposes of assuming the functions of
the Rapid City Service Unit.

White Face v. Church et al.. Civ. 18-5087

(Dockets 16-1 - 16-3) (D.S.D. Dec. 12, 2018).

Each authorization provided it

would only take effect if the other two tribes also enacted authorizations.

Id.

Using the authority granted by the three tribes, the Health Board transmitted
its assumption proposal to IHS on September 26.

White Face (Docket 16-5).

3The IBIA has jurisdiction over partial or full denials of self-determination
contracts under the ISDEAA. 25 C.F.R. §§ 900.31, 900.150, 900.152.
4A copy of the IBIA’s decision is filed at docket entry 18-13.
7

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 8 of 32 PagelD #: 823

In accordance with the ISDEAA’s 90-day limit for considering a selfdetermination proposal, IHS responded it would accept or decline the proposal
by December 26.

White Face (Docket 16-6).

On December 4, Charmaine White Face, a named plaintiff in this case,
filed suit against Jerrilyn Church, the Health Board’s CEO, and James Driving
Hawk, the IHS area director responsible for the Rapid City Service Unit.
Face (Docket 1).

White

Ms. White Face requested a preliminary injunction to halt

acceptance of the Health Board’s proposal.

White Face (Dockets 1 8s 8).

Church and Mr. Driving Hawk moved to dismiss the complaint.

Ms.

White Face

(Dockets 13 & 14). The court held a hearing on Ms. White Face’s motion on
December 13 and dismissed the complaint for lack of subject matter
jurisdiction.

White Face (Dockets 27 & 31 at pp. 60-64). The court found the

Health Board was entitled to tribal sovereign immunity, Ms. White Face lacked
standing, and the OST, CRST and RST were indispensable parties who were
not named in the complaint.

White Face (Dockets 30 & 31 at pp. 60-64).

On December 18, the RST rescinded its authorization.
pp. 5, 10).

(Docket 18-1 at

IHS canceled negotiations on December 20 and denied the Health

Board’s proposal on December 21.

(Dockets 18-2 at pp. 1-2 & 18-3).

The IHS

concluded the RST’s rescission invalidated the OST’s and CRST’s
authorizations, leaving the Health Board unable to assume the Rapid City
Service Unit’s functions.

(Docket 18-3 at pp. 5-7).

To the court’s knowledge,

the Health Board did not administratively appeal the denial or challenge it in
8

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 9 of 32 PagelD #: 824

federal court.

See 25 U.S.C. § 5321(b)(3) (permitting tribes or tribal

organizations to administratively appeal proposal denial or sue in federal
district court).
In January 2019, the OST and CRST, acknowledging the RST’s change of
heart, amended their prior authorizations to remove the requirement that all
three tribes consent to the Health Board’s assumption of IHS functions.
(Dockets 18-5 at pp. 1-3 & 18-6 at pp. 1-4). The Health Board returned to IHS
on February 14 with a new proposal to assume functions at the Rapid City
Service Unit on behalf of the OST and CRST only.

(Docket 18-4).

IHS and the

Health Board negotiated aspects of the proposal in April and May of 2019.
(Docket 18-8 at U 3).

IHS officials consulted with tribal members from each of

the three tribes and employees of the Rapid City Service Unit during the
negotiation process.

IcL at f f 4-5.

IHS officials communicated with plaintiffs

Donna Gilbert and Ms. White Face during the consultation process.

IcL at

1111 5g, i, j & /.
On May 31, IHS and the Health Board entered into a contract permitting
assumption of the Rapid City Service Unit on behalf of the OST and CRST.
(Docket 18-9).

On June 1, IHS granted in part and denied in part the Health

Board’s proposal.5

(Docket 18-10). The declined portions of the proposal

5In a footnote in its partial denial letter, IHS stated it was informed by
CRST authorities on May 29 that the tribe intended to hold a referendum on its
authorization. (Docket 18-10 at p. 4 n.6). The record contains no further
information as to whether a referendum occurred or is presently scheduled.
To the best of the court’s knowledge, the CRST’s authorization is still in effect.
9

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 10 of 32 PagelD #: 825

related to certain types of costs and the provision of oncology and alternative
medicine services.

Ich at pp. 9-21.

As reflected in the final contract, the vast

majority of the Health Board’s proposal was accepted.
The contract went into effect on July 21.

(Dockets 18-10 at § 2.2 & 18-8

at 1 7). The Rapid City Service Unit is currently operated jointly between the
Health Board and IHS.

(Docket 18-8 at f 7). The Health Board ostensibly

provides services to OST and CRST citizens, while IHS serves RST citizens and
citizens of other tribes.

Ich

However, IHS represents that both it and the

Health Board have an “open-door” policy whereby they will each serve Native
Americans from any tribe.

Id.

Two of the named plaintiffs, Ms. Gilbert and Julie Mohney, submitted
affidavits detailing their experiences during the assumption process.6 Ms.
Gilbert stated she refused to sign an Intergovernmental Personnel Act (“IPA”)
agreement which would enable her to continue work at the Rapid City Service
Unit under the Health Board’s management.7

(Docket 20 at p. 3).

December 17, 2018, Ms. Gilbert received a termination notice.

On

(Docket 20-3).

6Ms. White Face did not file an affidavit. The court found in the case
she filed as sole plaintiff that she did not have standing to represent Rapid City
Service Unit employees. White Face (Docket 31 at pp. 62-63). To the best of
the court’s knowledge, Ms. White Face is not employed at the Service Unit.
7According to an e-mail sent by Ms. Church to Rapid City Service Unit
employees, the Health Board “intended] to offer each eligible employee . . . the
opportunity to continue in federal employment” through IPAs and other
mechanisms. (Docket 20-5). Ineligible employees would be offered direct
employment with the Health Board. Ich
10

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 11 of 32 PagelD #: 826

Because the Health Board’s first attempt to enter into a self-determination
contract was denied, Ms. Gilbert’s termination notice was rescinded.
20-13).

(Docket

In June of 2019, Ms. Gilbert was offered “one of the 35 federal jobs

they were keeping[.]”

(Docket 20 at p. 5).

She does not state whether she

accepted the job or whether she is still employed at the Rapid City Service Unit.
Ms. Mohney states she was “release[d] from employment with the [IHS]”
on August 6, 2019.

(Docket 21 at p. 1).

She does not explain why she was

terminated or whether it was connected to the assumption process.

Ms.

Mohney alleges “had the appropriate procedures and lawful practices been
followed by the I.H.S. in this matter, [she] would still be employed with the
I.H.S.” but does not elaborate further.

Iffi at p. 2.

Plaintiffs filed affidavits from ten members of the Rapid City Native
American community who all allege the assumption harmed them in some
way. 8

(Dockets 22 - 29). Approximately 167 individuals, presumably

members of the Rapid City Native American community and patients of the
Rapid City Service Unit, consented to be part of a class action.

(Dockets 12-1

& 30). These putative class members did not provide any individualized
information about themselves or their connection to the Service Unit.

8Three of the affidavits are filed as attachments to a separate affidavit.
(Docket 26-1 at pp. 43-50).
11

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 12 of 32 PagelD #: 827

III.

Analysis
Defendants assert the complaint should be dismissed for the following

reasons:
1.

Plaintiffs lack standing to challenge the Health Board’s
assumption of the Rapid City Service Unit’s functions.
(Docket 17 at pp. 10-14).

2.

Plaintiffs’ treaty claim fails to state a claim upon which relief
can be granted. Id^ at pp. 14-16.

3.

Plaintiffs failed to join the Health Board, OST and CRST,
which are indispensable parties protected by sovereign
immunity. IcL at pp. 16-18.

4.

The court “should not interfere” with the assumption
contract. Ich at pp. 18-20.

Defendants also assert plaintiffs have not shown they are entitled to a
preliminary or permanent injunction.

Ich at pp. 22-26.

At the outset, the court notes defendants’ fourth argument is more in the
nature of a policy brief setting forth facts about the ISDEAA and the particular
contract at issue in this case.

Ich at pp. 18-20.

It does not advance any

reason that the complaint should be dismissed. The court will therefore not
address it in its analysis. The other three arguments are addressed in turn.
A.

ISDEAA zone-of-interests standing

Defendants assert plaintiffs do not have standing to assert a violation of
the ISDEAA on their own individual behalf or on the behalf of others.
17 at pp. 10-14).

(Docket

In support of their argument, they cite the well-established

12

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 13 of 32 PagelD #: 828

standards governing constitutional standing.9

IcLatp. 10.

However,

defendants do not analyze whether each individual plaintiff has constitutional
standing, instead choosing to assert that only tribes and tribal organizations
may challenge ISDEAA violations.

IcL at pp. 10-12.

Determining whether each plaintiff has constitutional standing would
involve a more detailed factual inquiry than can be conducted on the present
record.

Nevertheless, even assuming plaintiffs have constitutional standing,

the court finds their alleged harms do not fall within the “zone of interests”
protected by the ISDEAA.

Plaintiffs’ ISDEAA claims therefore cannot proceed.

“A plaintiff seeking to bring suit under a federal statute must show not
only that he has standing under Article III, but also that his complaint falls
within the zone of interests protected by the law he invokes[.]” Bank of
America Corn, v. City of Miami, Fla., 137 S. Ct. 1296, 1307 (2017) (Thomas, J.
concurring in part and dissenting in part) (internal quotation omitted).

Courts

“presume that a statutory cause of action extends only to plaintiffs whose
interests fall within the zone of interests protected by the law invoked.”
Lexmark Inti, Inc, v. Static Control Components, Inc., 572 U.S. 118, 129
(2014) (internal quotation omitted).

“[T]he breadth of the zone of interests

9The court uses the term “constitutional standing” to signify the
“irreducible constitutional minimum of standing” mandated by Article Ill’s case
or controversy requirement. See Lujan v. Defs. of Wildlife, 504 U.S. 555, 56061 (1992) (setting forth elements of “constitutional” standing). Constitutional
standing is separate from the zone-of-interests analysis the court must
undertake to determine whether plaintiffs’ alleged injuries are encompassed
within any right of action created by the ISDEAA.
13

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 14 of 32 PagelD #: 829

varies according to the provisions of law at issue[.]”
U.S. 154, 163 (1997).

Bennett v. Spear, 520

“Whether a plaintiff comes within the zone of interests

is an issue that requires [the court] to determine, using traditional tools of
statutory interpretation, whether a legislatively conferred cause of action
encompasses a particular plaintiffs claim.” Lexmark, 572 U.S. at 127
(internal quotation omitted).
In the ISDEAA, Congress declared it is federal policy to establish “a
meaningful Indian self-determination policy which will permit an orderly
transition from the Federal domination of programs for, and services to,
Indians to effective and meaningful participation by the Indian people in the
planning, conduct, and administration of those programs and services.”
25 U.S.C. § 5302(b).

The ISDEAA accomplishes this goal by requiring federal

officials to enter into a “self-determination contract” proposed by any tribe or
“tribal organization” to assume the functions of certain federal agencies,
including IHS.

Id. at §§ 5321(a)(1), (2). The agency may only refuse a

proposed self-determination contract for five specified reasons,

hi at

§ 5321(a)(2).
The ISDEAA is generally concerned with contracts between federal
agencies and tribes or tribal organizations.
contracts with eligible tribal entities.

It requires agencies to enter into

25 U.S.C. § 5321(a) (“The Secretary is

directed ... to enter into a self-determination contract or contracts with a
tribal organization[.]”) (emphasis added). The law’s definition of “self14

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 15 of 32 PagelD #: 830

determination contract” is limited to contracts “between a tribal organization
and the appropriate Secretary^]” IcL at § 5304(j).

Congress did not evince in

the ISDEAA any intent to allow individuals to enter into enforceable contracts
with agencies.
The references to individuals in the ISDEAA are secondary to its goal of
promoting self-determination contracts.

For example, the ISDEAA provides

that federal employees affected by a self-determination contract are entitled to
continuity of their federal benefits under certain circumstances.
§ 5332(e).

IcL at

Individuals are also able to bring tort claims against employees of

tribes or tribal organizations operating under a self-determination contract as if
they were federal employees.

IcL at § 5321(d); see also Act of Nov. 5, 1990,

Pub. L. No. 101-5112, § 314, 104 Stat. 1915, 1959-60 (allowing claims against
tribal employees to proceed under Federal Tort Claims Act).
The ISDEAA’s seemingly-broad right of action provision does not open
the courthouse doors to individual litigants concerned with self-determination
contracts. The provision gives federal district courts “original jurisdiction over
any civil action or claim . . . arising under” the ISDEAA.

25 U.S.C. § 5331(a).

However, Congress specified in the provision that a federal court may order
“injunctive relief’ to force agencies “to award and fund an approved selfdetermination contract[.]” IcL

This specification indicates a focus in the right

of action on the ISDEAA’s overarching goal—to enable tribes and tribal
organizations to assume federal functions through self-determination
15

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 16 of 32 PagelD #: 831

contracts.

The court finds Congress did not intend to “expressly negate[]” the

traditional zone of interests analysis for courts evaluating the scope of the
ISDEAA’s right of action.10 Bennett, 520 U.S. at 163.
ISDEAA case law, while not specifically resolving whether individuals
have a right of action to challenge self-determination contracts, does confirm
the law is concerned primarily with interactions between tribes and federal
agencies. The United States Courts of Appeal for the Eighth, Ninth and
Eleventh Circuits, as well as the Court of Federal Claims, have each held the
ISDEAA does not permit private parties to sue for harms incurred pursuant to
a self-determination contract.11

The Eighth Circuit found “by definition, the

ISDEAA does not contemplate that a private party . . . can enter into a selfdetermination contract.”

FGS, 64 F.3d at 1234 (referencing 25 U.S.C.

§ 53040)).

10The court notes the ISDEAA’s private right of action is not a “citizensuit” provision similar to those the Supreme Court has construed to “expandfl
the zone of interests” for the purposes of enabling suit by private parties. See
Bennett, 520 U.S. at 163-66.
11 See Colbert v. United States, 785 F.3d 1384, 1391 (11th Cir. 2015)
(finding Federal Tort Claims Act coverage under ISDEAA only applicable when
tortfeasor was employee of tribe or tribal organization, not a private party);
Demontiney v. United States, 255 F.3d 801, 807 (9th Cir. 2001) (rejecting suit
by private subcontractor for alleged breach of self-determination contract
because ISDEAA does “not contemplate suits by private parties.”); FGS
Constructors, Inc, v. Carlow, 64 F.3d 1230, 1234-35 (8th Cir. 1995)
(concluding private subcontractor was not an “Indian contractor” permitted to
sue under ISDEAA for alleged breach of self-determination contract);
Demontiney v. United States, 54 Fed. Cl. 780, 786 (2002).
16

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 17 of 32 PagelD #: 832

Given the text and judicial interpretations of the ISDEAA, the court
concludes its right of action does not encompass suits by individuals seeking to
challenge a self-determination contract.

The court finds plaintiffs, who seek to

abrogate the contract between IHS and the Health Board, do not fall within the
zone of interests protected by the ISDEAA.

Nothing in the ISDEAA indicates

Congress intended to permit individuals to interfere with self-determination
contracts.
Plaintiffs’ arguments against this conclusion are unpersuasive.

They

primarily assert the ISDEAA and its implementing regulations require
defendants to secure “the consent of the Indian community to be served” by the
proposed self-determination contract before acceptance.
8).

(Docket 19 at pp. 3-

In plaintiffs’ view, defendants’ failure to gain the consent of the Rapid City

Native American community “is grounds for enjoining the Defendants from
enforcing” the contract.

Ich at p. 7.

Plaintiffs also take issue with the notion

that consent of their tribal governments is sufficient to satisfy the ISDEAA,
arguing that the tribes do not represent their interests in health care matters.12
Id. at pp. 8-9.

12Plaintiffs argue the OST and CRST are legally unable to authorize selfdeterminations contracts involving IHS assets in Rapid City because the assets
are not located within reservation boundaries. (Docket 19 at pp. 8-9). The
IBIA explicitly rejected this argument in 1997 and plaintiffs have not directly
challenged that ruling. Rapid City Indian Health Bd.. IBIA 97-100-A, 4-8
(1997). The court accepts the IBIA ruling for the purposes of this case. In
any event, plaintiffs, as individuals, have no standing to challenge the legality
of the contract.
17

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 18 of 32 PagelD #: 833

At the outset, it is not clear what section of the ISDEAA plaintiffs rely on.
Plaintiffs cited no specific statutory provisions in their response brief.

The

statutory citations in plaintiffs’ amended complaint are not illuminating.

See,

e.g. Docket 5 at pp. 1, 3 (citing “25 CFR 450(c),” which does not exist, for
proposition that community support is needed for a self-determination
contract).

Plaintiffs cite regulatory policy statements which reiterate federal

intent to “assur[e] maximum Indian participation” in service provision and to
“facilitate and encourage Indian tribes” to enter into self-determination
contracts.

25 C.F.R. §§ 900.3(a)(1), (b)(3).

These policy statements do not

require IHS to secure consent of the Rapid City Native American community
before allowing the Health Board to assume IHS functions.
Plaintiffs do cite to § 103(D) of the public law creating the ISDEAA.
(Docket 5 at p. 1,3). That particular section does not exist, but § 103(A), as
enacted in 1975, did require a federal agency to consider whether a contracting
tribe or tribal organization “would be deficient in performance under the
contract with respect to . . . community support for the contract” before
awarding the contract.

Indian Self-Determination Act, Pub. L. 93-638,

§ 103(A), 88 Stat. 2203, 2207 (1975).
in 1988.

However, Congress repealed that section

Indian Self-Determination Amendments of 1987, Pub. L. No. 100-

472, § 201(b)(1), 102 Stat. 2285, 2289 (1988).

Today, agencies are not

required to consider community support before awarding a proposed contract.

18

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 19 of 32 PagelD #: 834

In fact, lack of community support is not one of the five specific reasons for
which a contract may legally be denied.

25 U.S.C. § 5321(a)(2).

Plaintiffs also rely on the ISDEAA’s definition of tribal organization.
Dockets 19 at pp. 6-7 & 37 at pp. 2-3 (reciting definition).

See

Under the ISDEAA,

a tribal organization is
the recognized governing body of any Indian tribe; any legally
established organization of Indians which is controlled, sanctioned,
or chartered by such governing body or which is democratically
elected by the adult members of the Indian community to be served
by such organization and which includes the maximum
participation of Indians in all phases of its activities[.]
hi at § 5304(f).

This definition, parsed out, creates three separate categories

of tribal organizations:
1.

“[T]he recognized governing body of any Indian tribe[.]” Id.

2.

“[A]ny legally established organization of Indians which is
controlled, sanctioned, or chartered by such governing
body[,]” referring to “the recognized governing body of any
Indian tribe[.]” Id^

3.

“[A]ny legally established organization of Indians which is . . .
democratically elected by the adult members of the Indian
community to be served by such organization and which
includes the maximum participation of Indians in all phases
of its activities[.]” Id.

The statute defines each category in the disjunctive, signifying that an entity
need only fit into one of the three categories to qualify as a tribal organization.
Id.
Only the third category of tribal organization requires democratic
participation by “the adult members of the Indian community to be served).]”
Id.

If the Health Board fits into one of the other two categories of tribal
19

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 20 of 32 PagelD #: 835

organization, democratic control is not required.

In this case, it is clear the

Health Board falls within the second category of tribal organization: an entity
“controlled, sanctioned, or chartered” by tribal governments.

IcL

The Health

Board is an entity organized under South Dakota law controlled by 17 separate
federally recognized tribes.

(Docket 18-12 at pp. 1-2, 4-5).

As it relates to the

present self-determination contract, the Health Board is authorized by the OST
and CRST, both federally recognized tribes, to assume IHS functions at the
Rapid City Service Unit.

(Dockets 18-5 at pp. 1-3 & 18-6 at pp. 1-4).

Accordingly, the ISDEAA does not require the Health Board to be
democratically accountable to the Rapid City Native American community to
qualify as a tribal organization able to enter into a self-determination contract.
Plaintiffs’ argument that their interests are not represented by their tribal
government fails for the same reason.

The ISDEAA does not require that tribal

governments democratically represent the will of the population to be served
before their consent to a self-determination contract is valid.

The ISDEAA only

requires that a self-determination contract be authorized by “any Indian tribe
by tribal resolution”—it does not specify how or whether the tribe should
consult the population to be served.

25 U.S.C. § 5321(a)(1)

Plaintiffs did not establish that they fall within the zone of interests
protected by the ISDEAA.

The ISDEAA’s right of action does not encompass

their suit to enjoin the self-determination contract between the IHS and the

20

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 21 of 32 PagelD #: 836

Health Board. Accordingly, the court dismisses plaintiffs’ ISDEAA claim with
prejudice.13
B.

Treaty of Fort Laramie claim

Plaintiffs assert the self-determination contract contravenes the 1868
Treaty of Fort Laramie.

(Docket 5 at p. 3). They argue the United States

“agreed to provide health care for members of the Great Sioux Nation” and that
“the responsibility of the United States to provide that health care is
considerably diminished” by the self-determination contract.

IcL

Plaintiffs

contend the United States violated the treaty by transferring its obligation to
provide health care to the Health Board without their consent.
The legal nature of plaintiffs’ treaty claim is not clear.

Id.

The court

construes plaintiffs’ complaint to contend the Treaty of Fort Laramie created a
trust duty for defendants, as agents of the United States, to provide health care
to the Great Sioux Nation.

Plaintiffs’ claim, under this view, would then assert

defendants breached that trust duty by contracting with the Health Board to
provide care.

As with their ISDEAA claim, the court finds plaintiffs do not

have standing as individuals to bring a treaty claim.

13Although defendants suggest dismissal should be pursuant to Rule
12(b)(1) for lack of subject matter jurisdiction, see Docket 17 at p. 10, the
Supreme Court has made clear the zone-of-interests standing test is not a
jurisdictional inquiry. Lexmark, 572 U.S. at 128 n.4. Plaintiffs failed to state
a viable ISDEAA claim and so the court dismisses it pursuant to Rule 12(b)(6).
The court dismisses the claim with prejudice because plaintiffs, as individuals,
cannot allege any facts that would permit them to sue for an alleged ISDEAA
violation.
21

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 22 of 32 PagelD #: 837

“A treaty is essentially a contract between two sovereign nations.”
Herrera v. Wyoming, 139 S. Ct. 1686, 1699 (2019) (internal quotation omitted).
“[T]he existence of a trust relationship between the United States and an Indian
or Indian tribe includes as a fundamental incident the right of an injured
beneficiary to sue the trustee for damages resulting from a breach of the trust.”
United States v. Mitchell, 463 U.S. 206, 226 (1983).

“The existence of a trust

duty between the United States and an Indian or Indian tribe can be inferred
from the provisions of a statute, treaty or other agreement, ‘reinforced by the
undisputed existence of a general trust relationship between the United States
and the Indian people.

Blue Legs v. United States Bureau of Indian Affairs

867 F.2d 1094, 1100 (8th Cir. 1989) (quoting Mitchell. 463 U.S. at 225).

To

state a breach of trust claim, plaintiffs must “identify a substantive source of
law that establishes specific fiduciary or other duties, and allege that the
Government has failed faithfully to perform those duties.” United States v.
Navajo Nation. 537 U.S. 488, 506 (2003).
Plaintiffs have not successfully stated a breach of trust claim as
individuals.

As defendants point out, the Treaty of Fort Laramie was

negotiated between two sovereigns—the United States and the Great Sioux
Nation—not between the United States and individual Indians.
p. 15).

(Docket 17 at

The treaty provides, “[t]he United States hereby agrees to furnish

annually to the Indians the physician ... as herein contemplated, and that
such appropriations shall be made from time to time, on the estimates of the
22

Case 5:19-CV-05045-JLV Document 44 Filed 02/18/20 Page 23 of 32 PagelD #: 838

Secretary of the Interior, as will be sufficient to employ such persons.”
15 Stat. 635, art. XIII.

Reading this language with a liberal construction in

favor of plaintiffs’ interests as Indians, the court cannot infer an enforceable
trust duty as to individual Indians such as plaintiffs.14

See Herrera, 139 S.

Ct. at 1699 (describing canon of construction requiring courts to interpret
treaties in favor of the Indians).

Stated differently, plaintiffs have not shown

the treaty—or any other source of law—creates an individual trust duty the
United States breached by entering into a self-determination contract with the
Health Board.
Plaintiffs’ arguments to the contrary miss the mark.

They first point to

examples of courts enforcing treaty rights in favor of individual Indians in
fishing and hunting cases.

(Docket 19 at pp. 9-10) (citing Herrera, 139 S. Ct.

1686; State v. Tinno, 497 P.2d 1386 (Idaho 1972)).

But the affected persons

in those cases were protected by individually enforceable treaty provisions
guaranteeing the right to hunt or fish.

Here, the Treaty of Fort Laramie does

not guarantee an individual Indian the right to health care provided by the
United States, as opposed to a tribal organization.

14Whether the Treaty of Fort Laramie obligates the United States to
provide health care to descendant tribes, as opposed to individuals, of the
Great Sioux Nation is at issue in a case pending before the Central Division of
this court. See Rosebud Sioux Tribe v. United States, Civ. 16-3038, 2017 WL
1214418 at *6-9 (D.S.D. Mar. 31, 2017) (holding the RST stated a claim that
the United States violated trust duty to provide adequate health care created by
the Treaty of Fort Laramie and other statutes sufficient to survive motion to
dismiss). This case presents no occasion for the court to weigh in on that
question.
23

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 24 of 32 PagelD #: 839

Plaintiffs also assert Ms. White Face is the “Official Spokesperson for the
1894 Sioux Nation Treaty Council.”

(Docket 19 at p. 10).

In that position,

according to plaintiffs, Ms. White Face has the “duty and responsibility to
protect and preserve all of the Articles and provisions of the Fort Laramie
Treaty of 1868” and “undeniably has the authority necessary to speak on
behalf of the Indian people and the Treaty.” IcL at p. 11.

Neither plaintiffs

nor defendants provided the court with any information about the 1894 Sioux
Nation Treaty Council.
Plaintiffs did not identify any basis for the court to consider the 1894
Sioux Nation Treaty Council as a descendant entity of the Great Sioux Nation.
In comparison, the OST and CRST are federally recognized tribal nations.
Indian Entities Recognized by and Eligible to Receive Services from the United
States Bureau of Indian Affairs, 84 Fed. Reg. 1200, 1201-02 (Feb. 1, 2019).
The United States divided the Great Sioux Nation in 1889 as a method of
acquiring more land for American settlement, segregating the OST and CRST
onto separate reservations.

Act of March 2, 1880, 25 Stat. 888, 888-89

(establishing Pine Ridge and Cheyenne River reservations).

The OST and

CRST organized as federally recognized tribal nations under the Indian
Reorganization Act in 1935 and 1936, establishing their legal existence under
American law.15 The history of the OST and CRST make clear they are

15See Constitution and By-Laws of the Cheyenne River Sioux Tribe of
South Dakota, Dec. 27, 1935, Certificate of Adoption; Constitution and ByLaws of the Oglala Sioux Tribe of the Pine Ridge Reservation of South Dakota,
24

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 25 of 32 PagelD #: 840

descendant entities of the Great Sioux Nation, while plaintiffs do not show the
1894 Sioux Nation Treaty Council is entitled to enforce the Treaty of Fort
Laramie.

On the present record, the court cannot accept Ms. White Face’s

assertion that she is entitled, as Spokesperson of the Treaty Council, to sue on
behalf of the Great Sioux Nation.
Plaintiffs cannot sue as individuals to enforce the Treaty of Fort
Laramie’s provisions relating to health care. The court dismisses their treaty
claim with prejudice for failure to state a claim upon which relief can be
granted.16
C.

Fed. R. Civ. P. 12(b)(6).
Joinder

Defendants’ final argument in favor of dismissal is that plaintiffs failed to
join the Health Board, OST and CRST.

(Docket 17 at pp. 16-18).

They assert

the Health Board, as a party to the self-determination contract, would be
directly impacted by this litigation.

IcL at p. 17.

Defendants also contend the

litigation would “interfere with the rights” of the OST and CRST as sovereign
tribal nations, presumably because the tribes authorized the contract.

Id.

Plaintiffs respond that the Health Board has no authority to enter into a selfdetermination contract because it “does not meet the qualifications to be

Jan. 15, 1936, Certificate of Adoption.
16Plaintiffs’ complaint also alleged the self-determination contract
violated the Supremacy Clause and the Act of March 3rd, 1871. Docket 5 at
p. 1; see also Act of March 3rd, 1871, 15 Stat. 544 (appropriating funding to
fulfill treaty obligations). The court considers these claims as part of plaintiffs’
treaty claim and dismisses them with prejudice.
25

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 26 of 32 PagelD #: 841

designated as a Tribal Organization],]” rendering it dispensable.
p. 11; see also Docket 33 at pp. 2-4).

(Docket 19 at

The court finds the Health Board is an

indispensable party that cannot be joined due to sovereign immunity,
necessitating dismissal.17
An entity must be joined to an action if it “claims an interest relating to
the subject of the action and is so situated that disposing of the action in the
[entity’s] absence may impair or impede the [entity’s] ability to protect the
interest].]” Fed. R. Civ. P. 19(a)(l)(B)(i).

Here, the Health Board has a vital

interest in the self-determination contract that is the subject of this action.

It

is presently operating portions of the Rapid City Service Unit pursuant to the
contract.

Plaintiffs ask the court to cancel the contract, which would certainly

“impair or impede” the Health Board’s interest in the contract.

The court finds

the Health Board is indispensable to litigation concerning the present selfdetermination contract.
The court rejects plaintiffs’ argument that the Health Board is not a
tribal organization for ISDEAA purposes. As described above, see supra
Section III.A, the Health Board is a consortium of 17 different tribes which is

17The court’s finding that the Health Board is indispensable and cannot
be joined obviates any need to conclusively determine whether the OST and
CRST are also indispensable parties. In the White Face litigation, the court
tentatively concluded the tribal nations were indispensable. White Face
(Docket 31 at pp. 63-64). That conclusion was reached in the context of a
temporary restraining order hearing on a rushed and limited factual record and
is not binding authority. The court does not intend to foreclose argument as
to the indispensability of the tribal nations in future ISDEAA litigation involving
the Rapid City Service Unit.
26

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 27 of 32 PagelD #: 842

specifically authorized by the OST and CRST to assume the functions of the
Rapid City Service Unit.

A “legally established organization of Indians which is

controlled, sanctioned, or chartered by” tribal nations is a tribal organization
under the ISDEAA.

25 U.S.C. § 5304(1). The Health Board fits squarely

within that definition.18 Accordingly, it had the power to enter into a selfdetermination contract.

This litigation will impact the Health Board’s valid

interest in the contract, rendering the Health Board indispensable.
Having determined the Health Board is an indispensable party, the court
must now consider whether it feasibly can be joined and, if it cannot be joined,
whether this action should be dismissed.

Fed. R. Civ. P. 19(b).

Board cannot feasibly be joined due to its sovereign immunity.

The Health
The Southern

Division of this court held in 2012 that the Health Board is entitled to share in
the sovereign immunity of its component tribal nations.

J.L. Ward Assocs.,

Inc, v. Great Plains Tribal Chairmen’s Health Bd., 842 F. Supp. 2d 1163, 117177 (D.S.D. 2012).

Plaintiffs do not advance any reason why the court should

not adhere to the reasoning in J.L. Ward and the court perceives none.19
Entities protected by tribal sovereign immunity may be sued “only if Congress
has authorized the suit or the [entity] has waived its immunity,” and nothing in

18Contrary to plaintiffs’ argument, it does not matter that the Health
Board is incorporated under state law, as opposed to tribal law. (Docket 33 at
pp. 2-4). The ISDEAA’s definition of tribal organization does not preclude
state-chartered organizations.
19The court orally affirmed its adherence to J.L. Ward in the White Face
litigation as well. White Face (Docket 31 at p. 62).
27

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 28 of 32 PagelD #: 843

the record indicates either condition is present in this case.

Stanko v. Oglala

Sioux Tribe. 916 F.3d 694, 696 (8th Cir. 2019). The Health Board’s immunity
from suit renders joinder infeasible in this case.
The Supreme Court and Eighth Circuit have both held that an action
must be dismissed when an indispensable party cannot be joined due to
sovereign immunity.

Pimentel, 553 U.S. at 867; Two Shields, 790 F.3d at 798.

These cases concerned the sovereign immunity of the Republic of the
Phillippines and the United States, respectively, not an “arm of the tribe” entity
entitled to tribal sovereign immunity such as the Health Board.

Whatever

import that distinction may have—and the court does not suggest there is any
import at all—the factors of Rule 19(b) counsel in favor of dismissal regardless.
The first factor, the “extent to which a judgment . . . might prejudice” the
absent party, weighs heavily in favor of dismissal.

Fed. R. Civ. P. 19(b)(1).

A

judgment in favor of plaintiffs would invalidate the self-determination contract,
in which the Health Board has a major interest.

As to the second factor, each

form of relief plaintiffs request would require the court to invalidate the selfdetermination contract, so there is no possibility of shaping the judgment to
avoid prejudice to the Health Board.

Fed. R. Civ. P. 19(b)(2); see also Docket 5

at p. 5 (prayer for relief).
The third factor, whether a judgment made in the absence of the
indispensable party “would be adequate,” does not weigh in favor of dismissal.
Fed. R. Civ. P. 19(b)(3).

It is true the court could render an adequate
28

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 29 of 32 PagelD #: 844

judgment in the Health Board’s absence, but the court cannot enter judgment
in favor of plaintiffs for the substantive reasons given in this order.

Finally,

the court acknowledges plaintiffs may not have a judicial remedy if the court
dismisses this action for lack of joinder.

Fed. R. Civ. P. 19(b)(4).

On

December 4, 2018, the Oglala Sioux Tribal Court ruled it did not have
jurisdiction over the Health Board.

White Face v. Great Plains Tribal

Chairmen’s Health Bd., Civ. 18-409 (Oglala Sioux Tribal Ct. Dec. 4, 2018).20
No party informed the court whether similar cases were brought in other tribal
courts or in South Dakota state court.

But the lack of a judicial remedy does

not mean plaintiffs have no remedy at all.

The RST already rescinded its

authorization for the Health Board to assume the functions of the Rapid City
Service Unit and it appears there is opposition to the OST’s and CRST’s
assumption.

Plaintiffs retain a political remedy through engagement with

their tribal governments.
In any event, the Health Board’s sovereign immunity and the
impossibility of avoiding prejudice to the Health Board by proceeding with this
litigation tip the scales in favor of dismissing this case for lack of joinder. The
court dismisses plaintiffs complaint without prejudice under Rule 19(b).
D.

Preliminary injunction

Plaintiffs’ complaint asked for an “immediate injunction” to halt the selfdetermination contract.

(Docket 5 at p. 5).

Defendants oppose injunctive

20A copy of the Tribal Court’s order is filed at docket entry 19-3.
29

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 30 of 32 PagelD #: 845

relief.

(Docket 17 at pp. 22-26).

Because plaintiffs cannot succeed on the

merits, the court denies an injunction.
Whether a preliminary injunction should issue involves
consideration of (1) the threat of irreparable harm to the movant;
(2) the state of the balance between this harm and the injury that
granting the injunction will inflict on other parties litigant; (3) the
probability that movant will succeed on the merits; and (4) the public
interest.
Dataphase Sys, Inc, v. CL Sys., Inc., 640 F.2d 109, 113 (8th Cir. 1981).
“In deciding whether to grant a preliminary injunction, likelihood of success on
the merits is the most significant.” Laclede Gas Co. v. St. Charles Cty., Mo.,
713 F.3d 413, 419 (8th Cir. 2013) (internal quotation omitted).
The court dismisses plaintiffs’ complaint for failure to state a claim and
lack of joinder.

There is no likelihood plaintiffs will succeed on the merits.

As

for the other factors, the court notes enjoining the self-determination contract
will upend a carefully-negotiated arrangement that presently governs a health
care facility serving thousands of patients, many of them indigent Native
Americans with no other care options. The balance of equities, in the court’s
view, favors defendants.

Moreover, Congress has declared that self-

determination contracts are in the public’s interest.

See 25 U.S.C. § 5302.

These factors all weigh strongly against an injunction.
The court lastly considers the threat of irreparable harm to plaintiffs.
“To succeed in demonstrating a threat of irreparable harm, a party must show
that the harm is certain and great and of such imminence that there is a clear
and present need for equitable relief.” Roudachevski v. All-American Care
Centers, Inc., 648 F.3d 701, 706 (8th Cir. 2011) (internal quotation omitted).
30

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 31 of 32 PagelD #: 846

In various filings, plaintiffs assert the self-determination contract cost IHS
employees their jobs and worsened the quality of care provided to community
members.

See, e.g., Dockets 21, 24 & 27 (alleging jobs terminated due to

contract); Dockets 22, 27 & 28 (alleging drop in quality of care).

Even taking

these allegations as true, they do not show certain and imminent harm of such
magnitude as to outweigh the other factors counseling against enjoining the
contract.21
IV.

Conclusion
This case raises delicate questions about the role of the Rapid City Native

American community in the governance of the Rapid City Service Unit.

The

court wishes to emphasize that this order holds only that individuals, such as
plaintiffs, cannot challenge a self-governance contract under the ISDEAA or the
Fort Laramie Treaty and that the Health Board is an indispensable party to any
litigation concerning the particular contract at issue in this case.

The RST’s

rescission of its prior authorization and the possibility the CRST will hold a
referendum regarding its authorization indicate the unsettled status of the
assumption process. The court expresses no view about potential other
challenges to the self-determination contract by any of the three affected tribal
nations.

21The Eighth Circuit has declined to require district courts to resolve
“assertions of lack of jurisdiction” before considering a request for a
preliminary injunction. Laclede Gas, 713 F.3d at 416-17. Having determined
it must dismiss the complaint, the court considers itself bound to deny
injunctive relief. The court nevertheless evaluates the Dataphase factors to
avoid an incomplete ruling.
31

Case 5:19-cv-05045-JLV Document 44 Filed 02/18/20 Page 32 of 32 PagelD #: 847

ORDER
For the reasons given above, it is
ORDERED that defendants’ motion to dismiss (Docket 16) is granted as
described in this order.

Plaintiffs’ claims under the ISDEAA and the 1868

Treaty of Fort Laramie are dismissed with prejudice.
IT IS FURTHER ORDERED that plaintiffs’ motion for class certification
(Docket 12) and motion for summary judgment (Docket 37) are denied as moot.
IT IS FURTHER ORDERED that defendants’ motions to strike (Dockets
34 & 41) are denied as moot.
Dated February 18, 2020.
BY THE COURT:

/s/ Jeffrey L. Vikm
JEFFREY L. VIKEN
UNITED STATES DISTRICT JUDGE

32

